<html>
<title> - NOMINATION OF MAYOR ANTHONY FOXX TO BE SECRETARY OF THE U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 113-119]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-119

 
                    NOMINATION OF MAYOR ANTHONY FOXX
                         TO BE SECRETARY OF THE
                   U.S. DEPARTMENT OF TRANSPORTATION

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
85-820                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2013.....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     6
Statement of Senator Blumenthal..................................    23
Statement of Senator Klobuchar...................................    25
Statement of Senator Scott.......................................    28
Statement of Senator Cowan.......................................    30
Statement of Senator Fischer.....................................    33
Statement of Senator Blunt.......................................    35
Statement of Senator Cantwell....................................    36
Statement of Senator Cruz........................................    38

                               Witnesses

Hon. Richard Burr, U.S. Senator from North Carolina..............     1
Hon. Kay Hagan, U.S. Senator from North Carolina.................     3
Mayor Anthony Foxx, Secretary-Designate, U.S. Department of 
  Transportation.................................................     7
    Prepared statement...........................................     9
    Biographical information.....................................    10

                                Appendix

Response to written questions submitted to Anthony Foxx by:
    Hon. John D. Rockefeller IV..................................    45
    Hon. Barbara Boxer...........................................    47
    Hon. Bill Nelson.............................................    49
    Hon. Maria Cantwell..........................................    50
    Hon. Frank R. Lautenberg.....................................    53
    Hon. Amy Klobuchar...........................................    57
    Hon. Mark Warner.............................................    57
    Hon. Mark Begich.............................................    58
    Hon. Brian Schatz............................................    59
    Hon. William Cowan...........................................    62
    Hon. John D. Rockefeller IV on behalf of Hon. Sherrod Brown..    62
    Hon. John Thune..............................................    63
    Hon. Roger F. Wicker.........................................    69
    Hon. Dan Coats...............................................    70
    Hon. Roy Blunt...............................................    71
    Hon. Marco Rubio.............................................    72


                    NOMINATION OF MAYOR ANTHONY FOXX

                         TO BE SECRETARY OF THE

                   U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Ladies and gentlemen, this hearing will come 
to order. And we have a very distinguished guest to be 
introduced by two very distinguished Senators who are good 
friends of mine.
    Senator Burr, do you want to introduce?
    Senator Burr. I would be happy to, Mr. Chairman. I thought 
you and the ranking member would----
    The Chairman. No, no.
    Senator Burr--probably go first.
    The Chairman. We will, but we don't want to hold you up. We 
are kind people.
    [Laughter.]
    Senator Burr. That means there is a baseball game on this 
afternoon----
    [Laughter.]
    Senator Burr [continuing]. And you would like to get this 
over with.
    The Chairman. You are right.
    [Laughter.]

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, thank you. Thank you, Ranking 
Member Thune and members of the Committee.
    It is really a pleasure to be here this afternoon with my 
colleague from North Carolina, Senator Hagan. I want to thank 
you for holding quickly this important hearing and for the 
opportunity to introduce a friend and the Mayor of Charlotte, 
Anthony Foxx.
    First, I want to publicly thank him for his commitment and 
his willingness to serve in this capacity. I know it can't be 
easy to leave behind the beauty of North Carolina to come to 
Washington and to take on the challenges that come with this 
position. I understand it is not the easiest transition, so I 
especially want to thank his wife, Samara, and his two 
children, Hillary and Zachary, for the support that they 
continue to give to him in what has been a very quick life of 
public service.
    Anthony's leadership and his record of service has brought 
him before you today, and I am confident that he will serve our 
nation in the same manner that he served the people of North 
Carolina, specifically the city of Charlotte.
    A homegrown talent, Anthony was born in Charlotte, where he 
attended West Charlotte High School before moving on to 
Davidson College. While in undergrad, Anthony served as student 
body president, the first African-American to do so at 
Davidson.
    The Chairman. That is amazing.
    Senator Burr. His passion for public service awarded him 
the Root-Tilden Scholarship to study law at New York 
University. Prior to joining DesignLine as Deputy General 
Counsel in 2009, Anthony worked as a Litigation Attorney at 
Hunton and Williams.
    He has the distinction of serving in all three branches of 
the Federal Government: as a law clerk on the United States 
Sixth Circuit Court of Appeals, a trial attorney for the Civil 
Rights Division of the United States Justice Department, and a 
staff counsel to the U.S. House of Representatives on the 
Judiciary.
    Anthony began his political career in 2005 with his 
election to the city council as an at-large representative and 
served two terms before being elected Mayor on November 3, 
2009. I might add, the youngest mayor in the city's history.
    Much like our state, the City of Charlotte continues to 
grow by leaps and bounds. And as mayor, Mayor Foxx has kept the 
charge of meeting and staying ahead of the needs of a major 
metropolitan area. As mayor, he has done an outstanding job of 
building stronger relationships with state and Federal leaders 
to meet the infrastructure needs of a growing metropolitan 
area.
    My office has enjoyed a great working relationship with the 
mayor. He has been a steadfast advocate of the citizens of 
Charlotte, North Carolina. It is my great honor to be here with 
him today. I commend the president for looking toward North 
Carolina for this kind of leadership, and I urge my colleagues 
to offer him their full consideration.
    Mr. Chairman, let me say there are not just three North 
Carolinians here. Four with Mayor Foxx, and we claim Mo as a 
North Carolinian----
    [Laughter.]
    Senator Burr--since his family, his parents reside in North 
Carolina.
    Mr. Chairman, if confirmed, I am confident that as 
Secretary of Transportation, Mayor Foxx will be up to the 
challenge of not only keeping our Nation moving, but moving in 
the right direction.
    I thank the Chair.
    The Chairman. I thank you, sir.
    Senator Hagan?

                 STATEMENT OF HON. KAY HAGAN, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Rockefeller and Ranking Member Thune and all of 
the members of the Committee, it certainly is a pleasure to be 
here with my colleague, Senator Burr, so that we both can 
welcome and introduce Anthony Foxx to you. I do appreciate the 
opportunity.
    I also want to thank the Mayor's family for their steadfast 
service and commitment while he has served as Mayor of 
Charlotte and moved through this nomination process. His wife, 
Samara--thank you. And his two children, Hillary and Zachary, 
have stayed in Charlotte to go to school.
    So I am honored to have the opportunity to introduce a man 
who has been a tremendous asset to our entire state. While it 
is going to be sad to see him leave Charlotte and the Charlotte 
government process, I am pleased that when he is confirmed the 
entire country will benefit from Anthony Foxx's leadership as 
Secretary of Transportation.
    He earned an undergraduate degree, as you have heard, in 
history from Davidson College in North Carolina and did blaze a 
trail as the school's first African-American student body 
president. He received a law degree from New York University 
and has held positions in all three branches of the Federal 
Government. Beginning as a judicial clerk on the U.S. Court of 
Appeals for the Sixth Circuit, Anthony Foxx went on to become a 
lawyer for the Department of Justice and counsel for the House 
Judiciary Committee.
    In 2005, he was elected as an at-large member of the 
Charlotte City Council, and during his 4 years of service as 
councilman, he chaired the Transportation Committee and was a 
member of the Economic Development and Planning Committee. 
Since 2009, he has served as the mayor of Charlotte, one of our 
country's fastest-growing cities.
    Given his experience and the strength of his resume, it is 
hard to believe that Anthony could be one of the youngest 
Cabinet secretaries in history.
    When he became Mayor, Charlotte's unemployment rate was 
almost 13 percent. Through his tireless efforts, he helped 
attract and create more than 8,400 new jobs in the Charlotte 
area.
    Most importantly, he has been a true champion of 
transportation and infrastructure development, securing 
forward-looking investments in Charlotte's roads, airport, and 
mass transit. Under his leadership, the I-485 has been approved 
for expansion; he secured funding toward the completion of the 
Blue Line Light Rail Extension Project; and oversaw the opening 
of a third runway at the Charlotte International Airport. All 
of these projects occurred as we worked and as we are still 
working to climb out of the recession.
    These smart investments in infrastructure and transit-
oriented development are continuing to fuel Charlotte's 
economic growth. South End, which is a historic Charlotte 
neighborhood which saw the city's first railroad line back in 
the 1850s, is being revitalized with the help of the LYNX light 
rail. This neighborhood is now home to more than 750 small 
businesses and 11 new residential developments.
    And investments at the Charlotte airport are establishing 
the city as an international hub. With direct flights to London 
and soon to Brazil, Charlotte and North Carolina are 
increasingly connected to businesses across the world.
    And the I-85 Corridor Improvement Project, which has been a 
top priority for the state of North Carolina for many years, is 
finally moving forward. I-85 is one of the most heavily 
traveled routes in the Southeast. Sixty thousand vehicles use 
one part of this roadway every day, and that number is expected 
to double by 2025. The improvement project, which relied 
heavily on support from local leaders across the region, 
including Mayor Foxx, is expanding and improving the integral 
roadway so it can really meet the needs of businesses and 
residents for years to come.
    Anthony Foxx's direct experience working directly with 
transportation departments at the Federal, state, and local 
levels and his proven record of success make him well-prepared, 
Mr. Chairman, to serve as the next secretary of transportation. 
I have worked closely with Mayor Foxx during my time in 
Washington, and I have the utmost confidence that he will serve 
in this role with great distinction.
    I thank him for his service and willingness to step up when 
his service is needed, and I encourage a swift confirmation by 
this committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagan.
    I detect, Mayor Foxx, a certain friendliness from your two 
introducers here.
    [Laughter.]
    The Chairman. Now, I am not kicking you out, but I am 
offering you the opportunity to leave, because--unless you want 
to listen to John Thune and myself speak.
    [Laughter.]
    Senator Burr. Never miss a great invitation. Thank you, Mr. 
Chairman.
    [Laughter.]
    Senator Hagan. Thank you.
    The Chairman. Thank you very much.
    Mayor Foxx, I have to say, I have been here on this 
committee for 26, 27-something years, and I have never seen a 
greater press crush in my entire life.
    [Laughter.]
    The Chairman. I want to congratulate you, Mayor Foxx, be 
you seated or not--and you have to introduce your wife, for 
sure--on your nomination for the position of Secretary of the 
United States Department of Transportation.
    This high honor is, unhappily, a very great challenge, a 
very great challenge. As Secretary LaHood so ably demonstrated, 
the job requires a deep understanding of the policy and the 
political savvy to accomplish the administration's goals, all 
of which in an era of constraint which doesn't seem to relax.
    The Department of Transportation is enduring a tumultuous 
time of constrained resources. Despite this, the department is 
tasked with implementing a large number of new safety mandates 
and simultaneously presiding over a transportation 
infrastructure network in need of significant and immediate 
investment. And how to pay for that, nobody seems to be able to 
figure out.
    The country's--well, I mean, I can figure it out, but it is 
not a prevailing view.
    [Laughter.]
    The Chairman. The country's transportation network has been 
a critical factor in our long-term economic growth. However, 
years of underinvesting in our roads, airports, air traffic 
control systems, rails, and ports have left us with an 
overstrained transportation system. And I think that is 
probably the greatest weak link in our national economic 
picture, only to get much worse.
    The weakness in our transportation system has been a drag 
on our growth. I believe we are on the brink of losing our 
competitive edge in the global marketplace as a result. The 
evidence is clear that this interconnected system was not built 
to withstand the wear and the tear that it is forced to endure 
today.
    The Federal Government has a critical role to play in 
transportation. I am among the first to admit that we in 
Congress have not done our jobs in this area. Instead, we have 
grown accustomed to an ad hoc approach to investing in our 
transportation network by using a grab bag of unrelated pay-
fors and budget gimmicks just to keep funding levels static. 
Too many seem content with this approach, but I certainly am 
not and I don't think you are.
    Turning our backs on this growing problem ignores what we 
truly need, desperately need in this country: a strategic, 
long-term vision for rebuilding our transportation system in 
all of its forms. A Band-Aid approach to fixing our 
infrastructure just doesn't cut it.
    We need to take a hard look at what we need from our ports, 
rail, air, and highway systems over the long term and commit to 
making appropriate investments. We must get away from overly 
siloed, programmatic funding mechanisms that don't allow for 
flexibility necessary to make strategic multimodal investments. 
We need to get smart about working with the private sector to 
increase overall funding. You have done that very successfully 
in your city.
    In short, we need to rethink how we fund transportation in 
this country as we look, hopefully, toward a future. We all 
need to come together--the Congress, the White House, and the 
stakeholder community--and truly explore all options. We won't 
get anywhere unless we work together.
    Investing in infrastructure also means investing in safety. 
Now, and I should tell you that we, the Commerce Committee, has 
now very much become a consumer affairs committee and a safety 
committee, looking out for little things that we sort of looked 
past in years past. Since becoming chairman, I really have 
worked on protection of people and safety as a priority. For 
transportation, I hope I have your commitment on this across 
the department, and I am sure I will.
    While we have required new safety requirements across the 
air, rail, and highway systems, the work has only just begun. 
The department needs do everything in its power to implement 
these safety requirements in a timely way. We are very good at 
passing rules and, you know, legislation and then others pass 
rules and regulations; then they never get implemented. And we 
think they have been because we passed them, but they haven't 
been. And therein lies a huge problem.
    I am concerned about delays we are seeing on some very 
important issues and worried about more. Should you be 
confirmed, I need your help in making sure that these new 
requirements are put in place as soon as possible.
    On the aviation side, it has been a tough year, between the 
challenges involving the 787 and sequestration impacts. 
Sequestration took a serious hit out of FAA's finances. 
Unfortunately, we face the same difficulties next year and into 
the future until we come to our collective senses.
    All of this has taken attention away from other key 
efforts, such as modernizing the air traffic control system, 
which is sort of the thing I care most about but get to talk 
least about because it has been pushed down the road by the 
situation we are faced with.
    I expect you to make a renewed effort to focus the agency 
on implementing new pilot qualification and training 
requirements. Implementing the NextGen air traffic control 
system, as I indicated, is of personal importance for me. For 
10 years, I have worked to help FAA make NextGen a reality. The 
system is vital to the future of our air transportation 
network, and I will continue to make it a priority. I promise 
you that.
    So, Mayor Foxx, as you know, you have a huge job in front 
of you. The challenges are many, and the solutions are hard. 
However, if you are confirmed, I want this Committee to be a 
partner in your efforts. This will take communication and 
transparency from the department; it will take honesty and 
frankness from us.
    And I thank you for being here today and look forward to 
hearing your thoughts.
    Before I turn this over to my distinguished friend, Senator 
Thune, I should point out that, one, we have two votes at 4 
o'clock. So we are going to change our rules a little bit. I 
spoke a little bit long, but of course I always do. So Senator 
Thune and I will talk for 7--give our opening statements. And 
then on the questions, everybody will have 7-minute rounds 
rather than 5-minute rounds.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and thank you for 
holding the hearing today.
    Mayor Foxx, welcome to the Committee.
    This hearing gives our committee the opportunity to perform 
one of the most important constitutional responsibilities 
provided to members of the United States Senate, the power to 
give advice and consent on the president's executive and 
judicial nominees. Today we are going to consider Mayor Anthony 
Foxx to be the 17th Secretary of Transportation.
    Established in 1967, the Department of Transportation 
employs approximately 53,000 full-time employees and has over 
$72 billion in budget authority.
    If confirmed, Mayor Foxx, not only will you be responsible 
for overseeing this important agency, but you will also be the 
principal advisor to the President on all matters relating to 
transportation.
    I know most of the individuals here today understand what 
an important position this is for our country, but every 
American is directly affected by our nation's transportation 
systems, including through personal and business travel, 
employment, the interstate movement of the products we grow, 
manufacture, and purchase, and their impact on the overall 
health of our economy.
    Specifically, over 12 million Americans are employed in the 
transportation labor force. That works out to just over 9 
percent of the Nation's entire non-agriculture work force. The 
average American family spends roughly 17 percent of their 
total budget on transportation-related costs, and $1.6 
trillion, or almost 10 percent of the U.S. GDP, is comprised of 
transportation-related goods and services.
    Even a rural state like my home state of South Dakota is 
directly impacted by the decisions made by the Secretary of 
Transportation. For instance, the regulations produced by the 
DOT have a direct impact on the ability of Daktronics, an 
industry leader in electronic scoreboards and display systems 
located in Brookings, South Dakota, to produce and sell dynamic 
message signs used on freeways and roadways to provide 
instructions, travel times, and road conditions to motorists.
    DOT components like the Federal Aviation Administration and 
the Federal Highway Administration play an important role in 
maintaining a robust national airspace and highway system to 
transport agriculture goods to market, enable tourists to visit 
South Dakota's many historic sites like Mount Rushmore, Crazy 
Horse, and the Badlands, or enjoy our world-class pheasant 
hunting.
    And regulations placed on truck safety by another DOT 
agency, the Federal Motor Carrier Safety Administration, impact 
more than 20,000 individuals in South Dakota employed by the 
trucking industry. The secretary's decisions also shape the 
role the Federal Railroad Administration plays in ensuring our 
freight rail lines are safe so that South Dakota's agricultural 
goods can make it to market quickly and efficiently.
    The position you are nominated for is certainly an 
important one, and to be successful the administration and 
Congress will need to work together to address the numerous 
transportation challenges we face ahead.
    Mayor Foxx, I look forward to hearing your testimony today 
and to learning about you and your qualifications to be the 
next secretary of transportation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    And we will now have the honor of listening to our hope for 
Secretary.

  STATEMENT OF MAYOR ANTHONY FOXX, SECRETARY-DESIGNATE, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Foxx. Thank you, Mr. Chairman. And thank you, Ranking 
Member Thune and members of the Committee. It is an honor for 
me to appear today before you as President Obama's nominee to 
be U.S. Secretary of Transportation.
    I want to thank Senators Richard Burr and Kay Hagan for 
their very kind introductions. And I also want to thank my 
beautiful wife, Samara, who is behind me now, for being with me 
here today. My children, Hillary and Zachary, wanted to be 
here, but they have school obligations that their parents 
wanted them to meet today.
    If I have the honor to lead the department, I will bring 
the perspective of serving as mayor of Charlotte, which is the 
17th largest city in America. As mayor, I know transportation 
from the ground up, but I learned the value of quality 
transportation and hard work even earlier.
    I was born and raised in Charlotte by my mother and my 
grandparents, who were public school teachers. Things were not 
always easy growing up. Many times there would be a $20 bill on 
the table, and my family would have to choose between basic 
necessities and funding a school fieldtrip. Somehow, they 
always made the investment in me, and for that I am forever 
grateful. Together, they taught me to take pride in hard work, 
to take responsibility for my actions, and to understand that 
education would unlock countless doors.
    My first job, when I was 12 years old, was at Charlotte's 
Discovery Place Museum. To get there, I rode the No. 6 bus 
after school. The No. 6 connected me to the larger world of 
opportunity. And I truly believe that whether it is a bus, a 
road, a train, a plane, or a ship, our transportation system, 
at its best, connects our people to jobs and a better quality 
of life.
    When I became Mayor in 2009, Charlotte was facing an 
economic downturn and steep revenue declines. I decided to make 
efficient and innovative transportation investment the 
centerpiece of Charlotte's job creation and economic recovery 
efforts. These investments included extending the LYNX light 
rail system to the University of North Carolina at Charlotte, 
expanding Charlotte Douglas International Airport, breaking 
ground on the Charlotte Regional Intermodal Facility, 
completing our I-485 beltway, repairing the Yadkin River 
Bridge, and starting the Charlotte Streetcar Project.
    Today, more than 19 million riders have used the existing 
light rail system since it opened in 2007, with more than 
15,000 riders on an average weekday. Passenger traffic at 
Charlotte Douglas Airport reached a record high in 2012. And 
our Streetcar Project is expected to connect people with jobs, 
schools, medical facilities right in the heart of my city.
    The truth is we did not accomplish these successes alone. 
Business, the public, and all levels of government worked 
together to find pragmatic solutions for the transportation 
challenges we faced while not using a one-size-fits-all 
approach. It is the kind of bipartisan approach that I believe 
made Secretary LaHood so effective at the Department of 
Transportation and a model I will also follow.
    If confirmed, I plan to focus on three key areas:
    First, ensuring that our transportation system is the 
safest in the world will be my top priority, as it has been for 
Secretary LaHood, the dedicated DOT work force, and this 
committee.
    My second focus will be on improving the efficiency and 
performance of our existing transportation system. Cutting-edge 
transportation leaders across the country are finding new ways 
to boost productivity through better use of technology, data, 
economic analysis, and private-sector innovation, such as 
public-private partnerships, to bring more private-sector 
capital and innovation into the infrastructure marketplace.
    Third, we must build this country's infrastructure to meet 
the needs of the next generation of Americans. The private 
sector cannot do this alone, and the Federal Government has a 
responsibility to help ensure our global competitiveness by 
investing in a robust, multimodal transportation system, a 
stronger national freight network, and key innovations like 
NextGen and advanced roadway and rail technology.
    As a mayor who has delivered projects to my constituents, I 
know too well that future uncertainty at the Federal level 
makes it difficult to do smart, cost-effective, long-term 
planning and project development. We also need investments and 
policies that promote opportunity, enhance quality of life, 
promote environmental sustainability, and reduce our dependence 
on foreign oil.
    I look forward to working with Congress and the broader 
transportation community to tackle the tough challenges and 
seize the exciting opportunities we have to innovate, invest, 
and make the American transportation system the best in the 
world.
    To conclude, Mr. Chairman, thank you again for scheduling 
this hearing. I will be happy to respond to any questions you 
and the members may have.
    [The prepared statement and biographical information of Mr. 
Foxx follow:]

    Prepared Statement of Mayor Anthony Foxx, Secretary-Designate, 
                   U.S. Department of Transportation
    Chairman Rockefeller, Ranking Member Thune, members of the 
Committee, it is an honor for me to appear before you today as 
President Obama's nominee to be U.S. Secretary of Transportation.
    I want to thank Senators Richard Burr and Kay Hagan for their kind 
introductions.
    And I also want to thank my beautiful wife, Samara, who is here 
with me today. My children, Hillary and Zachary, wanted to be here but 
couldn't miss school.
    If I have the honor to lead the Department, I will bring the 
perspective of serving as Mayor of Charlotte, America's 17th largest 
city.
    As Mayor, I know transportation from the ground up, but I learned 
the value of quality transportation--and hard work--even earlier. I was 
born and raised in Charlotte by my mother and my grandparents, who were 
public school teachers. Things were not always easy growing up. Many 
times, there would be a $20 bill on the table, and my family would have 
to choose between basic necessities and funding a school field trip. 
Somehow, they always made the investment in me and for that I am 
forever grateful. Together, they taught me to take pride in hard work, 
to take responsibility for my actions, and to understand that education 
would unlock countless doors.
    My first job--when I was 12 years old--was at Charlotte's Discovery 
Place Science Museum. I rode the Number 6 bus there after school.
    The Number 6 connected me to a larger world of opportunity, and I 
truly believe, whether it is a bus route, a road, a train, a plane or a 
ship, our transportation system, at its best, connects our people to 
jobs and a better quality of life.
    When I became Mayor in 2009, Charlotte was facing an economic 
downturn and steep revenue declines. I decided to make efficient and 
innovative transportation investment the centerpiece of Charlotte's job 
creation and economic recovery efforts.
    These investments included extending the LYNX light rail system to 
the University of North Carolina, expanding Charlotte-Douglas 
International Airport, breaking ground on the Charlotte Regional 
Intermodal Facility, completing our I485 beltway, repairing the Yadkin 
Bridge, and starting the Charlotte Streetcar Project.
    Today, more than 19 million riders have used the existing light 
rail line since it opened in 2007, with more than 15,000 riders on an 
average weekday.
    Passenger traffic at the Charlotte Douglas Airport reached a record 
high in 2012.
    And our Streetcar is expected to connect people with jobs, schools, 
and medical facilities in the heart of my city.
    We did not accomplish these successes alone. Business, the public, 
and all levels of government worked together to find pragmatic 
solutions for the transportation challenges we faced while avoiding a 
``one size fits all'' approach. It's the kind of bipartisan approach 
that I believe made Secretary LaHood so effective at DOT, and a model I 
will also follow.
    If confirmed, I plan to focus on three key areas:
    Ensuring that our transportation system is the safest in the world 
will be my top priority, as it has been for Secretary LaHood, the 
dedicated DOT workforce, and this Committee.
    My second focus will be on improving the efficiency and performance 
of our existing transportation system.
    Cutting edge transportation leaders across the country are finding 
new ways to boost productivity through better use of technology, data, 
economic analysis, and private sector innovation, such as public-
private partnerships, to bring more private sector capital--and 
innovation--into the infrastructure market.
    Third, we must build this country's infrastructure to meet the 
needs of the next generation of Americans. The private sector cannot do 
this alone, and the Federal Government has a responsibility to help 
ensure our global competitiveness, by investing in a robust, multimodal 
transportation system, a stronger national freight network, and key 
innovations like NextGen and advanced roadway and rail technology. As a 
Mayor who has delivered projects to my constituents, I know too well 
that future uncertainty at the Federal level makes it difficult to do 
smart, cost-effective long-term planning and project development.
    We also need investments and policies that promote opportunity, 
enhance quality of life, promote environmental sustainability, and 
reduce dependence on foreign oil.
    I look forward to working with Congress and the broader 
transportation community to tackle the tough challenges and seize the 
exciting opportunities we have to innovate, invest and make the 
American transportation system the best in the world.
    To conclude Mr. Chairman, thank you again for scheduling this 
hearing. I will be happy to respond to any questions you and the 
Members may have.
                                 ______
                                 
                        biographical information
    1. Name (Include any former names or nicknames used): Anthony 
Renard Foxx.
    2. Position to which nominated: Secretary of Transportation.
    3. Date of Nomination: April 29, 2013.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 600 E. 4th Street, 15th Floor, Charlotte, NC 28202.

    5. Date and Place of Birth: 04/30/1971; Charlotte, NC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage):

        Samara Ryder Foxx (wife)--Novant Health (Charlotte, NC), 
        Community Liaison; children: Hillary Foxx (daughter)--age 8; 
        Zachary Foxx (son)--age 6.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Juris Doctor--New York University School of Law (New York, NY), 
        08/1993-05/1996

        Bachelor of Arts in History--Davidson College (Davidson, NC), 
        08/1989-05/1993

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Mayor, City of Charlotte, 12/2009 to present

        Member, City Council for the City of Charlotte, 12/2005-12/2009

        Deputy General Counsel, DesignLine USA, LLC, 12/2009 to present

        Contract Attorney, Hunton & Williams LLP, 04/2009-12/
        2009<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ pending campaign for Mayor of Charlotte

---------------------------------------------------------------------------
        Litigation Associate, Hunton & Williams LLP, 10/2001-03/2009

        Campaign Manager, Mel Watt for Congress, 02/2004-11/2004

        Counsel, U.S. House of Representatives, Committee on the 
        Judiciary, 03/1999-10/2001

        Trial Attorney, U.S. Department of Justice, Civil Rights 
        Division, 06/1998-03/1999

        Law Clerk, U.S. Court of Appeals for the Sixth Circuit, 05/
        1997-05/1998

        Associate, Smith, Helms, Mulliss & Moore LLP, 09/1996-05/1997

        Legal Intern, NAACP, Legal Defense Fund Inc., 05/1995-08/1995

        Legal Intern, Ferguson, Stein Law Firm, 06/1994-08/1994

        Intern, U.S. House of Representatives, 06/1993-08/1993

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        President, New American City Committee, Inc. (2011 to present)

        Trustee, Davidson College (2009 to present)

        Board of Directors, North Carolina Center for the Advancement 
        of Teaching (NCCAT) (2008 to present)

        Board of Directors, Lynnwood Foundation (2009 to present)

        Board of Directors, Project Leadership and Investment for 
        Transformation (LIFT) (2010 to present)

        Board of Directors, Project Life (2012 to present)

        Board of Directors, TreesCharlotte Foundation (2013 to present)

        Member, U.S. Conference of Mayors (2009 to present)

        Member, Professional Golfers Association of America (PGA) 
        Diversity Initiative (2010 to present)

        Member, North Carolina Metropolitan Mayors Coalition (2009 to 
        present)

        Board Member, Charlotte-Mecklenburg Development Corporation 
        (2005-2009)

        Fellow, The Aspen Institute Rodel Fellowship Program for Public 
        Leadership (2011 to present)

        Candidate, The Anthony Foxx Campaign Committee (2005 to 
        present)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        North Carolina Bar (1997 to present)

        North Carolina Bar Association (1997 to present)

        Mecklenburg County Bar Association (1997 to present)

        Leary Bar Association (2006-2008)

        Mecklenburg County Bar Foundation (2003-2007)

        Sigma Pi Phi Fraternity (2008-present)--all male membership

        Old Catawba Society (2010 to present)

        Charlotte City Club (2002 to present)

        Good Fellows (2009 to present)--all male membership (sister 
        organization is Good Friends)

        Charlotte Rotary Club (2007 to present)

        Davidson College Alumni Association (1993 to present)

        New York University Law School Alumni Association (1996 to 
        present)

        Friendship Missionary Baptist Church (Charlotte, NC) (1978 to 
        present)

        Charlotte-Mecklenburg Black Political Caucus (2003-2009)--all 
        African-American membership

        National Association for the Advancement of Colored People 
        (NAACP) (2003)

        Omicron Delta Kappa Honorary Society (2006 to present)

        Mecklenburg County Democratic Party (1990 to present)

        North Carolina Democratic Party (2000 to present)

        Charlotte in 2012 Democratic National Convention Host Committee 
        (2011-2012)

        U.S. Conference of Mayors (2009 to present)

        National Conference of Black Mayors (2010)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Since December 2009, I have been the elected Mayor of the City of 
Charlotte. From 2005 to 2009, I was an elected member of the City 
Council of the City of Charlotte. None of the four campaigns in which I 
ran for election has any outstanding debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

------------------------------------------------------------------------

------------------------------------------------------------------------
                     Federal--Personal Contributions
------------------------------------------------------------------------
   03/23/10         $500  DNC Services Corp./Democratic National
                           Committee
   10/08/08       $1,000  Hagan, Kay R. via Hagan Senate Committee Inc.
   12/17/03         $500  Bowles, Erskine via Erskine Bowles for U.S.
                           Senate
------------------------------------------------------------------------
                   State/Local--Personal Contributions
------------------------------------------------------------------------
   06/21/04         $500  Citizens for Grier Martin
------------------------------------------------------------------------

    My campaign committee (The Anthony Foxx Campaign Committee) has 
made numerous contributions during its existence, each of which has 
been fully reported to the Mecklenburg County Board of Elections as 
required by law.
Rendered Services

        2011-12--Co-Chair, Charlotte in 2012 Democratic National 
        Convention Host Committee (including welcome speech to 
        convention audience)

        2004--Campaign Manager, Mel Watt for Congress

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Livingstone College, Doctor of Humane Letters (2013)

        Queens University, Doctor of Humane Letters (2012)

        Root-Tilden-Snow Public Interest Law Scholar, New York 
        University Law School (1994-1996)

        Davidson Scholar, Davidson College (1989-1993)

        The Aspen Institute's Rodel Fellowship Program for Public 
        Leadership, Fellow (2011 to present)

        Fayetteville State University, Chancellor's Medallion (2010)

        Omicron Delta Kappa Honorary Society, Member (2006 to present)

        Urban Land Institute Daniel Rose Center for Public Leadership, 
        Fellow (2010-11)

        Young Democrats of North Carolina, Legacy Award (2008)

        Young Democrats of Mecklenburg County, Robert F. Kennedy Award 
        (Elected Official of the Year) (2008)

        Charlotte Junior Chamber, Frank K. Sims Recognition (2008)

        Charlotte Business Journal, 40-under-40 (2007)

        North Carolina Bar Association, Citizen Lawyer Award (2007)

        Charlotte Junior Chamber, 10 Outstanding Charlotteans (2006)

        Black Political Caucus, Political Award (2006)

        West Charlotte High School, Anthony Foxx Scholarship Program 
        (2009 to present)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify all books, articles, columns, or 
other publications and relevant speeches, including a thorough review 
of my personal files and searches of publicly available electronic 
databases. Despite my searches, there may be other materials that I 
have been unable to identify, find or remember. I have located the 
following:
Published Writings
        Taking the Next Transit Step--10/25/12, The Charlotte Observer

        How China Can Boost Charlotte Business--12/04/11, The Charlotte 
        Observer

        City, County, School Leaders: We See Each Other as Teammates--
        02/13/11, The Charlotte Observer

        Growing Exports is a Key to Growing Jobs--09/16/10, The 
        Charlotte Observer

        Susan Burgess: A Fighter for All the People, All the Time--06/
        20/10, The Charlotte Observer

        Legislators Must Include Perdue's Mobility Fund in Final Budget 
        06/17/10, The Charlotte Observer

        Fixing Homelessness Would Truly Honor MLK--01/10/10, The 
        Charlotte Observer

        Foxx: Charlotte Will Adjust--12/09/09, The Charlotte Observer

        What Can Charlotte Do to Reduce Crime?--04/30/08, The Charlotte 
        Observer

        Keep All Our Youth Safe and Out of Trouble, 07/15/07, The 
        Charlotte Observer

        Where Politics is a Family Affair, 05/06/07, The Charlotte 
        Observer

        A Pitch for Second Ward, 10/29/06, The Charlotte Observer

        Rebuilding Community--04/27/92, The Davidsonian

        Questionin' That: 2007: Toxic Waste in the Commons & An All 
        White Davidson?--01/20/92, The Davidsonian

        A Conversation on Chambers--12/09/91, The Davidsonian

        FOXX Explains SERCH--11/04/91, The Davidsonian

        Shout Outs & Sell Outs--11/04/91, The Davidsonian

        Questionin' That: What Does Knowledge & Learning Mean?--10/21/
        91, The Davidsonian

        Questionin' That: On A Certain Particular Advertisement--10/14/
        91, The Davidsonian

        Questionin' That: A Conversation on the Tracks--09/09/91, The 
        Davidsonian

        Junior Anthony Foxx Travels to South Africa--09/02/91, The 
        Davidsonian

        Era of Neo-Apartheid--08/26/91, The Davidsonian
Speeches
        2013 State of the City (SOTC)--February 4, 2013 (highlighted 
        extension of new light rail project and local, state and 
        Federal collaboration involved)

        2011 Oath of Office--December 2011 (installation speech 
        discussing major work plan for the upcoming City Council term, 
        including passage of a capital improvement plan to build new 
        roads, bridges and other city infrastructure)

        Announcement Speech for Second Term--July 2011 (remarks 
        celebrating accomplishments and forward-going work, including 
        accelerated work on completing the 1-485 outer loop, transit 
        successes and airport expansion)

        2010 State of the City--December 11, 2010 (highlighted the 
        Urban Circulator Grant to bring streetcars back to Charlotte 
        for the first time in 50 years, third parallel runway expansion 
        at the Charlotte-Douglas International Airport and state 
        funding to close the 1-485 loop and repair the Yadkin River 
        Bridge)

        100 Days--March 2010 (remarks touched on the need to accelerate 
        mass transit plan and help the state of North Carolina deliver 
        on its pledge to complete the 1-485 loop ahead of schedule)

        2009 Oath of Office--December 7, 2009 (installation speech in 
        which the need to accelerate transportation infrastructure is 
        highlighted as a job-creation strategy and as a long-term 
        competitiveness issue)

        Rally Speech--August 2, 2009 (speech referencing the need to 
        promote more effective Federal and state partnerships to 
        improve infrastructure and to ensure the new infrastructure 
        enhances the economic strength of the entire city)

        Filing at Mecklenburg County Board of Elections--July 15, 2009 
        (remarks upon filing for the Office of Mayor, referencing the 
        need to build 21st Century infrastructure to create jobs and 
        build a strong city)

        Launch Day--(remarks announcing run for Mayor in 2009 in which 
        reference was made to building a 21st century infrastructure)

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have never testified before Congress.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Infrastructure is a fundamental aspect of local government. As the 
mayor of the largest city in the fastest-growing U.S. metropolitan 
region, I know firsthand the role transportation plays in the everyday 
lives of Charlotte residents and citizens across America. Quality 
public transportation, safe and accessible roads and bridges, and a 
modern airport can mean better jobs for families and can make 
communities more attractive to businesses seeking to expand and grow. I 
look forward to bringing a local perspective, if confirmed, to the 
Nation's infrastructure challenges and opportunities, where creativity 
and solution-oriented work is transforming our country from the ground 
up.
    Under my leadership, we broke ground on the Charlotte Streetcar 
Project, which will bring modern electric tram service to the city and, 
despite lagging transit sales tax revenue, extended the LYNX light rail 
system to the University of North Carolina at Charlotte. At a time when 
many sprawl pressures are rising, expanding transit options for the 
city will spur economic development and improve access to jobs, 
education and medical facilities while putting our city on a more 
environmentally sustainable path. Working with a dedicated team of city 
staffers, we worked with Norfolk Southern Corporation to make the 
Charlotte Regional Intermodal Facility a reality. Last spring, we broke 
ground on a revolutionary center that will improve the efficiency of 
freight movement from Charlotte to ports around the world. We also 
opened the third parallel runway at Charlotte/Douglas International 
Airport, which increased capacity and will help the city and the region 
compete in our global economy. We have done so despite the resource-
constrained environment in which we have had to operate because we know 
these investments create jobs.
    I am an effective consensus builder, and I would enter this role 
believing strongly that there is truly no Democratic or Republican 
infrastructure. We all own what previous leaders built, and it is our 
responsibility to maintain, enhance and improve infrastructure for 
future generations. When the state of North Carolina received ARRA high 
speed rail funds, our legislature nearly rejected it. I helped build a 
bipartisan coalition of mayors to persuade them otherwise, and as a 
result, North Carolina is on track to implement high speed rail. More 
recently, as our transit sales revenues dipped, I have brought together 
a bipartisan group of elected officials, business leaders and other 
stakeholders to reimagine how to pay for our 2030 Transit Plan. We are 
looking at a variety of funding approaches that will include a mix of 
public-private partnerships, accelerating projects to reduce cost, tax-
increment financing and other non-conventional sources. With enormous 
private capital sitting on the sidelines, we have an opportunity to 
create pathways for putting private capital to work to build America, 
just as we are looking to build Charlotte. If confirmed, I will bring 
to the USDOT not only the ability to work across differences, but also 
the willingness to look at new approaches to solving national funding 
challenges.
    These are just a few examples of my demonstrated transportation 
experience. They underscore not only my qualifications for the position 
of U.S. Secretary of Transportation, but also my commitment to 
improving all aspects of our Nation's transportation system. 
Transportation is the engine behind our economic recovery and future 
prosperity. My experience shows that I well understand the 
opportunities and challenges in this arena, and I am prepared to lead. 
If confirmed, I look forward to taking on this critical role for our 
country.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Secretary, the ultimate responsibility for the 
Department's management and accounting controls rests with me. Under my 
leadership, USDOT would do its best to execute its mission efficiently 
and effectively, correct issues that will undoubtedly arise swiftly and 
be transparent and fair as we do so.
    Working with my senior management team, if confirmed, I will ensure 
that DOT has the proper management and accounting controls in place and 
will work to continuously improve the Department's internal controls 
and financial management, as several recent reauthorization bills and 
executive orders also require. I am aware that the Department's annual 
financial audits for the last several years reveal a series of clean 
audit opinions with no material weaknesses identified. These audits do 
identify areas where improved processes and controls are recommended, 
and they will be one focus of my efforts. Furthermore, the Office of 
the Inspector General (OIG) regularly reports on its ``Top Ten'' 
recommendations to improve the conduct of the Department's programs and 
operations. This independent analysis and review of the Department's 
management should also be closely examined.
    I note that my experience as Mayor of Charlotte is also helpful 
here. During my first term of office, Charlotte lost nearly $200 
million in revenue out of a $1.8 billion budget. Despite that loss, we 
did not raise property taxes. We worked within our means. I have led 
the city to right-size its public safety pay plan, which was on the 
brink of insolvency, and supported single stream recycling efforts that 
have increased recycling activity by thirty percent while saving 
taxpayers $40 million over 10 years. While doing so, we still put 
transportation bonds on the 2010 ballot, which passed overwhelmingly. 
And, perhaps most importantly, we have maintained our long-standing AAA 
bond rating.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The USDOT under this Administration has compiled a strong record on 
safety, the most important focus of the Department overall. Let me say 
at the outset that, if confirmed, I will continue the effort to ensure 
America's transportation system is the safest in the world. That said, 
I see three major challenges facing USDOT.
    Efficiency and effectiveness. We know that infrastructure 
investments generate jobs, putting people to work today while 
establishing important building blocks for future growth. Whether an 
interstate; bridge, airport, port or rail project, infrastructure helps 
America compete. USDOT is operating in a resource-constrained 
environment. In future years, it is possible that its ability to 
deliver on its mission may be compromised. As a Department, USDOT must 
work ahead of these risks to minimize such impacts by working as 
efficiently and effectively as possible. If confirmed, I will not 
hesitate to use the opportunities provided by MAP-21, for instance, to 
streamline our process and reduce costs to deliver higher value for the 
dollar. I will try my best to deliver savings that can mitigate the 
impact of future funding challenges.
    However, even at our most efficient, we will not cut our way to 
national prosperity. I offer two promises in this regard. First, I will 
continue the work of using creative strategies to promote public-
private partnerships. I believe we have opportunities through existing 
public-private programs and perhaps other tools to be developed--to 
bring more private capital into the infrastructure market place 
precisely when trillions of dollars of private capital remain on the 
sidelines. I will work hard, if confirmed, to deliver an efficient, 
effective, open and fair USDOT.
    Second, we clearly need a funding plan for the Nation's 
infrastructure, and consistent with the Administration's priorities, I 
pledge to work with this Congress to help solve that problem, if 
confirmed.
    Implementing MAP-21. Moving Ahead for Progress in the 21st Century 
(MAP-21), which took effect October 1, 2012, requires USDOT to make 
extensive programmatic reforms and consolidations, issue guidance, and 
coordinate successfully with State DOTs, transit agencies and other 
transportation stakeholders to deliver maximum value for the dollar. 
The bill contained approximately 100 statutory mandates for USDOT, 
which I understand the Department estimates will result in 5060 
separate rulemakings over two years, including project delivery and 
performance measurement and target-setting in areas like safety, 
infrastructure performance, congestion and freight. I am further aware 
that the Department is also focusing on successfully implementing the 
expanded TIFIA Program and a new freight program, including creating a 
National Freight Advisory Committee and writing a National Freight 
Strategic Plan. If confirmed, I pledge to build on the work to date.
    Critical reauthorization legislation, including the development of 
successor legislation to MAP-21, PRIIA and RSIA. The Passenger Rail 
Investment and Improvement Act (PRIIA) and the Rail Safety Improvement 
Act (RSIA) expire at the end of FY2013. Both have helped enhance 
safety, ridership, reliability, investment levels, and financial 
performance within the rail industry. MAP-21 then expires the following 
Fiscal Year. If confirmed, I look forward to working with Congress to 
reauthorize these important laws to create a safe, efficient, 
performance-based and integrated national transportation system.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I currently receive a salary from the City of Charlotte for my 
position as Mayor. I also currently receive a salary from DesignLine 
USA, LLC for my position as Deputy General Counsel. If confirmed, I 
will resign from these positions.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    As both Councilmember and Mayor of the City of Charlotte, I worked 
on behalf of the community regarding federal, state, and local 
legislation affecting the City's budget, operations, and public policy 
matters. As a member of the U.S. Conference of Mayors, I participated 
in various legislative matters brought before the Conference.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with DOT's Designated Agency Ethics Official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I am aware of four civil suits in which I was named in my official 
capacity as Mayor of the City of Charlotte. None resulted in a finding 
of wrongdoing on my part:

        Mauney v. Obama et. al., Mecklenburg County Superior Court (May 
        2, 2011 to December 19, 2012): Plaintiff alleged violation of 
        his constitutional rights by defendants (including the entire 
        Charlotte City Council) claiming he was prevented from riding 
        his bicycle around a protected perimeter before a 2008 campaign 
        event. The case was dismissed by the trial judge.

        Mauney v. Obama et. al., United States District Court for the 
        Western District of North Carolina (May 2, 2011 to December 28, 
        2012): Same claims as above. The case was dismissed.

        Bey v. Cooper et. al, United States District Court for the 
        Western District of North Carolina (July 24, 2012 to August 14, 
        2012): Plaintiff alleged violations of his constitutional 
        rights by multiple named defendants, in additional to 
        violations of the Universal Declaration of Human Rights, due to 
        his sovereignty in the Moorish Nation. The case was dismissed.

        Bey v. Officer Pictrus K., et. al., United States District 
        Court for the Western District of North Carolina (February 9, 
        2012 to August 13, 2012): Plaintiff alleged violation of his 
        civil rights by Charlotte officials. The case was dismissed.

    Additionally, DesignLine USA, LLC, for which I am Deputy General 
Counsel, has twice been named as defendant in Federal civil litigation 
and once in North Carolina state court, though none of the cases 
resulted in a finding of wrongdoing on my part:

        Veolia Transportation Services, Inc. v. DesignLine USA, LLC 
        filed on 10/26/2011: Breach of Contract case dismissed.

        Danita Pharr a/k/a Danita Johnson v. DesignLine USA, LLC filed 
        on 04/05/2011: Job Discrimination case dismissed.

        Airborn Manufacturing, LLC v. DesignLine USA, LLC, filed on 08/
        2009 (Gaston Co. Superior Court): Breach of Contract case 
        dismissed.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         resume of anthony foxx
    Anthony Foxx was elected mayor of Charlotte on November 3, 2009, 
becoming the city's forty-eighth and youngest mayor. He began his 
political career in 2005 with his election to City Council as an At-
Large Representative and served two terms before being elected mayor.
    Foxx took office at a time when Charlotte--the second largest 
banking center in the U.S.--faced the deepest downturn since the Great 
Depression. Recognizing the need to restore momentum, Foxx set three 
goals: strengthening and diversifying the area economy, improving 
quality of life, and building stronger relationships with state and 
Federal leaders to accelerate infrastructure work. Over three and a 
half years, Foxx has successfully worked to turn negative job losses 
into positive job growth, put more police officers on the street 
resulting in the lowest crime rates on record in Charlotte and has 
worked with leaders at every level to make progress on major road, 
bridge, airport, transit and regional rail projects:

  <bullet> Foxx worked with former North Carolina Governor Beverly 
        Perdue to accelerate the 1-485 outer belt loop using a creative 
        design-build-finance approach, the first major project of its 
        kind in North Carolina.

  <bullet> Foxx joined with regional, local, state and Federal leaders 
        on a successful push to repair of the Yadkin River Bridge, 
        widely known as the worst bridge in North Carolina.

  <bullet> Foxx worked closely with U.S. Transportation Secretary Ray 
        LaHood and USDOT to finance a new streetcar starter project and 
        light rail extension in Charlotte. The latter is the largest 
        capital project ever undertaken by the city.

  <bullet> Foxx, working with dedicated city staff, has helped to 
        expand the Charlotee-Douglas International Airport, the sixth 
        busiest in the world, including a new third parallel runway and 
        intermodal rail yard.

    Along the way, Foxx introduced a series of initiatives aimed at 
helping small businesses and focused on improving government 
efficiencies, public safety, and various social matters, including the 
implementation of the 10-year plan to end homelessness. These 
accomplishments occurred in a time when the City of Charlotte 
experienced revenue shortfalls of as much as $200 million in its 
capital and operating budgets--and without a property tax increase.
    During his first term, Foxx led a successful citywide bid for the 
Democratic National Convention. Mayor Foxx served as a co-chair of the 
Charlotte in 2012 Host Committee.
    As a Council Member, Foxx chaired the Transportation Committee, 
where he helped shepherd the largest transportation bond package in the 
city's history, enabling Charlotte to take advantage of record low 
interest rates and favorable construction pricing to stretch city 
dollars beyond initial projections. Foxx also developed a reputation as 
a voice of regionalism through his work on the Mecklenburg-Union 
Metropolitan Planning Organization. As a member of the Economic 
Development Committee, Foxx worked with Charlotte business leaders to 
turn attention to urban ``infill'' development by setting aside 
business corridor funds that have been used to remove blight and build 
new developments in urban Charlotte.
    Foxx received a law degree from New York University's School of Law 
as a Root-Tilden Scholar, the University's prestigious public service 
scholarship, and earned a bachelor's degree in History from Davidson 
College, where he also was the school's first African-American student 
body president. He is a member of the Mecklenburg County Bar and a 
graduate of its Leadership Institute. He is also a member of the North 
Carolina Bar and an Aspen Rodel Fellow.
    Foxx has been recognized as one of The Charlotte Business Journal's 
``40 Under 40'' and received the North Carolina Bar Association's 
Citizen Lawyer Award.
    Prior to joining DesignLine USA, LLC as Deputy General Counsel in 
2009, Foxx was a litigation attorney at Hunton & Williams. He also 
served in all three branches of the Federal Government, as a law clerk 
on the United States Sixth Circuit Court of Appeals, a trial attorney 
for the Civil Rights Division of the United States Department of 
Justice, and staff counsel to the United States House of 
Representatives Committee on the Judiciary.
    He and his wife, Samara, have two children, Hillary (8) and Zachary 
(6).

    The Chairman. Thank you very much, Mayor Foxx.
    I am going to keep my questions very, very few so that 
everyone is able to ask their questions. We have 13 people 
here, at least on the list, which is very unusual.
    This question is about transportation silos--the stovepipe 
concept which pervades so much of our government. In order to 
have a 21st century transportation system, all of our 
intermodal work must be done together. That means thinking 
strategically about how to invest limited Federal funding. 
Nevertheless, Federal programs are siloed. They always have 
been; maybe they will always be. Maybe that is just the nature 
of a bureaucracy, but it is a bad nature and one which you can 
undo. We have to address highways, we have to address rail 
transit issues separately, preventing us from developing a 
comprehensive strategy across the board.
    So my question is, do you think it makes sense to move 
beyond the current formulaic funding programs toward a more 
multimodal strategic model? And, how did multimodal programs 
like TIGER help you address transportation needs in Charlotte?
    Mr. Foxx. Thank you for the question, Mr. Chair. And I will 
say a couple of things on this point.
    I do believe that a multimodal approach is necessary to 
move our country forward. We have a variety of transportation 
systems in this country. All of them are important. But I do 
think that we have to work in a way that helps communities, 
states, and local governments, as well as the Federal 
Government, move this country forward in a very robust way.
    To accomplish that, I do think there are some models that 
have already been done at the Federal level that have allowed 
for multimodal approaches to transportation. You mentioned 
TIGER, which is one of them.
    In Charlotte, we have had a good experience with TIGER. We 
used it to help us build extensions to our platforms for our 
light rail line. And, interestingly, the reason why we needed 
to extend them was because of the very point that you made 
about the siloed approach. We weren't able to build the 
platforms correctly the first time, so TIGER helped us get 
those extended.
    We have also looked across our region at various projects 
that are of regional significance, such as the Yadkin River 
Bridge, which received a portion of its funding from TIGER to 
help repair one of the worst bridges in North Carolina.
    I think that we have to continue thinking in a multimodal 
fashion. You have my commitment to work on those issues and to 
try to help us reduce some of the siloed thinking and to 
improve and enhance the infrastructure in this country.
    The Chairman. Let me ask a quick second question. Let's 
suppose you were going to be the veterans administrator. Just 
thank God you are not, for your sake.
    [Laughter.]
    The Chairman. Two hundred and twenty thousand people work 
for them, and they have spent a lifetime, with some very good 
VA directors and some not very good VA directors, trying to 
figure out how you take a bulk of people that large who have a 
common mission and then get down into that level where people 
who have been there 15 to 30 years--so they don't make the 
decisions, but they actually do make all the decisions because 
the piles of paper that they say yes or no to are the ones they 
do. And that mentality is killing our government. You can see 
it in some of the discomforts, to say the least, that are 
coming out these days.
    Roosevelt used to reach down to the midpoint of an agency, 
and he would call people up, infuriating Cabinet members, call 
people up who had been there for 20 or 30 years or whatever and 
say, well, what are you doing, how could you be doing it 
better, what gets in your way, and what do you think is wrong.
    How do you take something like the Department of 
Transportation, which is already siloed just by nature of all 
the different modes of transportation, and try and get it 
working together from an organizational point of view?
    Mr. Foxx. Well, a couple of things, Mr. Chairman.
    You may be surprised to know that local government can be 
siloed, too. And I can tell you from my experience as mayor 
that I have worked very hard to break down some of those 
siloes, even across governmental lines. In Charlotte, we have a 
different school board, we have a different county commission, 
and I have done more to try to help our schools and to help our 
county in some situations that have broken down some of those 
barriers.
    But having said that, to your point, I do think you have 
some successes to draw upon, and TIGER is one of them.
    TIGER has required the department's teams to work across 
modes to figure out how to invest in the most impactful 
projects across the country. And I think that is an opportunity 
that we could continue to extend into other opportunities.
    I also am aware that we have an opportunity with 
reauthorizations that are forthcoming to continue this 
conversation and to look at a performance measurement base 
using data and real, hard information to figure out which 
projects will be most impactful.
    I will also say one final thing, which is that at the local 
level and the state level many of our governments in states and 
local governments are already thinking across modes and have 
plans that actually draw on this very idea that you have 
mentioned. And we should listen to them because they have good 
ideas for how to extend our transportation network and make us 
globally competitive.
    The Chairman. NextGen is just desperately important to me, 
because without it our airways will be clogged as more planes 
come online, people will get angrier and angrier, and you may 
have more accidents. The FAA doesn't have the money to build 
NextGen. If we don't build NextGen, we are not going to have 
the money to do almost anything; people won't be able to travel 
efficiently.
    When you think of NextGen, does it excite you? Is it 
something that you want to see get going? How in heaven's name 
do we come up with a way to fund it?
    Mr. Foxx. Mr. Chairman, I suspect that NextGen is an area 
in which there is broad support, including mine, by the way, to 
help not only get it built on schedule and built out on 
schedule but perhaps even to accelerate it.
    I think one of the things that we have an opportunity to do 
is to engage the stakeholders, the folks that stand to benefit 
the most from NextGen, in a conversation about how we actually 
get there.
    The good new is that we are seeing some of the fruits of 
NextGen already. Pieces of it have been deployed, the Metroplex 
project in Houston, and there are others around the country 
that are already starting to happen.
    I think it is an exciting opportunity to use technology to 
make our airspace safer, to make our airspace more efficient, 
to save our carriers money, and to improve the travel 
experience for many passengers.
    The Chairman. Thank you, sir.
    My distinguished colleague, Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mayor Foxx, the oversight of the activities of government 
departments and agencies is a serious responsibility of all 
members of this committee. If confirmed, do you pledge to give 
thorough and timely responses to requests for information and 
other correspondence to all members of this committee?
    Mr. Foxx. Thank you for the question, Mr. Ranking Member. 
And I will tell you that my goal as transportation secretary, 
if confirmed, would be to be as open and transparent as 
possible and to do my very best at all times to be responsive 
to this committee and to members of this Congress.
    Senator Thune. I would like to point out that there are 
several outstanding letters that I sent, along with the House 
Transportation and Infrastructure Chairman Shuster and with 
Chairman Rockefeller, to the FAA and DOT that remain 
unanswered. They are items that, in my view, need to be fully 
answered before I can support your nomination being reported 
from the Committee.
    And so I just wanted to make sure that, in terms of the 
responsiveness of the department to the members of this 
committee, that we would get your response on the record in 
terms of your intentions in that regard.
    Mr. Foxx. Yes, sir.
    Senator Thune. Let me ask you, there was the big issue that 
came up here in the last few months in the way that the 
Department of Transportation and the Federal Aviation 
Administration handled spending reductions as a result of the 
Budget Control Act. The DOT and the FAA had over a year to plan 
for implementation of reductions, but the poor planning 
resulted in disruptions in FAA staffing and delays for 
passengers across the country.
    The Budget Control Act is the law of the land, and unless a 
grand bargain comes together, I think many of us agree that 
agency leaders should be prepared to plan for the contingencies 
of budget caps in the Budget Control Act.
    And so my question is: what experiences have equipped you 
to plan toward delivering safe and efficient air traffic 
control services within the current budgetary realities?
    Mr. Foxx. Well, Mr. Ranking Member, I will say a couple 
things.
    As a mayor, I serve in a capacity in which we have to 
balance budgets and we have to work within what is there, and I 
have lots of experience in doing that. When I took the oath of 
office in Charlotte in 2009, our revenues were $200 million 
less than what they had been the year before, and we had to 
work within that. We didn't raise taxes to get there; we 
actually had to work within the resources.
    And we found some innovative ways to do it. We were able to 
negotiate a new public safety pay plan. We were able to reduce 
the range of pickups and recycling projects. And we outsourced 
our recycling, which allowed us to increase recycling 30 
percent and save $40 million over a 10-year period. So I have 
experience at working within the means to get there.
    On a broader point that you raise, I hope that this 
Congress--and I will be a partner in trying to help get us 
there--can achieve a broader answer to our budget challenges as 
a country in a balanced way. The President has put some ideas 
on the table. I know there are some ideas around Congress. And 
I think that is an important conversation that needs to be had.
    If we are left with sequester, it would be my goal to do an 
effective job of working within the administration and working 
with this Congress to have a no-surprises result, and that is 
what I will be trying to do.
    Senator Thune. OK.
    Shifting modes here: As secretary, what role do you see 
yourself playing in the reauthorization process when it comes 
to MAP-21? The highway bill expires at the end of the next 
year. We are going to be going through that process again. And 
I am wondering what your thoughts are with respect to that 
particular process and what role you see yourself playing in 
it.
    Mr. Foxx. Well, I would like to be an active participant in 
the discussions about reauthorization of MAP-21.
    Of course, we are about 7 months into the bill as it is. 
And it is a 2-year bill that achieves many things that I think 
are important, such as looking at performance measures. There 
are more than 60 rulemaking provisions that are contained in 
the bill.
    But, clearly, we need a longer-term surface transportation 
bill. We need a longer-term answer to the sustainability of our 
funding sources. And those are questions that I want to be an 
active advocate, both within the administration and with 
Congress.
    Senator Thune. With regard to this issue, there always seem 
to be more projects than there is funding, and I am curious, as 
mayor, how you have gone about setting priorities when it comes 
to determining which projects get funded and which don't.
    Mr. Foxx. Well, you know, Charlotte has had a long history 
of working very carefully with state and Federal partners to 
get projects done. And in a city, there are some situations in 
which there is a state road and you need state help to be able 
to get that road completed or expanded. And we have had great 
success making the case for that, using regional partnerships 
not only within the city but in some of the rural areas around 
the city.
    Within the City of Charlotte, in terms of our budgeting, we 
have had to make some very tough choices. We have, over the 
past couple of years, been talking about a significant capital 
program, but that program is about a fifth of the size of the 
needs of projects that we have within the city.
    So we are working very hard, we are always working to make 
our priorities. But here is how I would look at it from a 
transportation perspective: Number one, which priorities are 
going to be the most helpful in helping us ease some of our 
mobility challenges, connecting people to jobs and to the 
global marketplace and leverage what is there? In Charlotte, we 
try to leverage housing and other commercial developments that 
are near our transportation systems.
    There are some other considerations that may exist in 
places that aren't as urban as Charlotte, and we want to be 
very sensitive to that, and I certainly would be as 
transportation secretary.
    Senator Thune. One final question. You have a 53,000-
employee staff, workforce. The American people, a lot of people 
depend upon you, look to you, and need to be able to build 
trust. We have had some recent examples of government agencies 
where that trust has broken down.
    Give me just a little bit of your thoughts about how you 
would build that kind of trust and credibility, not only with 
the people that would be under you but also with the American 
people who will be looking to you for leadership.
    Mr. Foxx. Well, I think one of the most important things is 
to be present. One of the things that I have learned as mayor 
is that you can't stay in the bubble of your office. You have 
to go out and you have to see what is happening on the ground, 
and you have to talk to people, both within the department and 
out in communities where projects are happening. That is how 
you learn, that is how you build the connection, that is how 
you build the trust.
    And with each member of this committee, I have had some 
wonderful interactions with all of you. And I happen to feel 
that there is real agreement on this committee that 
infrastructure is an important goal for this country. And I 
look forward to working with you to advance the interests of 
infrastructure.
    Senator Thune. OK.
    My time has expired. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    For my colleagues, it now says there are no votes before 
4:35, so we can relax a little bit.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    And congratulations, Mayor Foxx. And my thanks to you and 
to your family for your willingness to serve and your service 
in the past.
    As you know, my state has just been through a major 
transportation crisis, an incident that certainly speaks to the 
need for investment, not only in rail but in all forms of 
transportation, but most especially rail, because I think that 
this incident, an accident that could have cost even more 
lives, caused more injuries, and done even greater damage, 
fortunately was less severe than it might have been. And that 
fact is due to the investment that was made in the most 
advanced, at least to date, the more advanced type of railroad 
cars, the M8 railcars, on the Metro-North line, which most 
likely prevented more injuries and limited the severity of the 
ones that occurred. Fortunately, there have been no fatalities.
    The lack of investment in our rail lines, in our tracks and 
other equipment, has left them without important quality and 
safety upgrades. So I would like a commitment from you that you 
will prioritize investments in infrastructure and safety 
measures for all of our railroad lines but most especially in 
the Northeast Corridor.
    Mr. Foxx. Well, thank you, Senator. And let me say that the 
tragic collision in Bridgeport is one that all of us as a 
country feel, and it speaks to the issue of maintaining a good 
state of repair with our existing infrastructure.
    And you have my commitment to keep safety as the number one 
priority, whether it is rail or any other mode of 
transportation. And as we look to reauthorization of rail 
legislation going forward, I look forward to working with you 
to make sure that is a priority, specifically in the Northeast.
    Senator Blumenthal. And I think what that collision or 
accident shows is that our rail lines are deteriorated and 
outdated and decrepit in many sections of that Northeast 
Corridor. Would you agree with me?
    Mr. Foxx. Well, I think we have some general challenges 
with state of good repair, and I think rail is one of them. And 
I know of some tracks that are probably 100 years old that 
haven't been repaired adequately in the past, so yes.
    Senator Blumenthal. In my view, this incident really can be 
a teaching moment. And I hope that you will be one of the 
teachers. I hope that you will take your message as a very 
articulate and powerful spokesperson on the road.
    And I want to make you an offer that maybe you can refuse 
but I hope not: that you make one of your first trips to visit 
us in Connecticut, specifically in Bridgeport, and come with me 
to the site of that collision.
    Mr. Foxx. Well, I would look forward to it.
    Senator Blumenthal. Let me be more specific. You have made 
the offer, and I am grateful for it, that you will work with 
me, but I would ask you to work with our entire delegation in 
developing a consensus around the Northeast Corridor rail 
financing plan. And that really relates not only to Connecticut 
but really to the collection of states that depend on this 
vital artery--it is an artery--that right now is back in 
operation but for a time, because of that Bridgeport accident, 
was essentially choked and strangled in the ability to move 
people and freight and other essentials along that Northeast 
Corridor.
    And I am hoping that you will work with our delegation and 
with representatives and senators from throughout our region.
    Mr. Foxx. I will.
    Senator Blumenthal. Let me also ask about perhaps some of 
the advances in technology and science that have to do with 
rail transport that perhaps we can help to implement. Are you 
aware of advances in the technology that would prevent such 
accidents?
    Mr. Foxx. Well, let me say this, that I am aware that the 
Federal Rail Administration has inspectors on the ground in 
Bridgeport today. The National Transportation Safety Board will 
conduct an investigation into the cause of the collision. And 
so, as that process moves forward, we need to react to the 
problems that are identified.
    So I don't want to presuppose to know the exact answer to 
exactly what caused it. I think the investigation will reveal 
that. But it will also reveal that we have some critical 
infrastructure needs in the country.
    Senator Blumenthal. And I agree with you that we should not 
be prejudging the results of that investigation. The National 
Transportation Safety Board, I will say very commendably, was 
on the scene literally within hours. An investigator was there 
that night. And I met with Earl Weener, the board member who 
was assigned to this responsibility, along with a very able 
team, that very next morning.
    So we don't want to prejudge what the results will show, 
but I hope--here is my main point about the investigation--that 
it will be done more quickly than perhaps the projections are 
right now. They are talking about a year before results and 
recommendations are available.
    I think that it ought to be expedited. I hope that you will 
do whatever you can--I know it is an independent board--to 
assure that we know what the results are. Because, right now, 
we are focusing on the track. We know of the fracture; we are 
not sure whether it was the cause or the result. But anything 
you can do to expedite it will be appreciated.
    Mr. Foxx. You have my commitment to do all within my power 
to get a quick investigation done.
    Senator Blumenthal. Thank you.
    And in the less than a minute that I have left, I would 
like to ask for your continuing support for our air controllers 
and air control towers, the contract control towers, which we 
and the Congress have said are vital to air safety, economic 
development, and jobs in those areas served by the airport. And 
Secretary LaHood has reaffirmed his commitment; I hope that you 
will, as well.
    Mr. Foxx. I am committed to them. I want to thank you for 
your help with some of the legislation that was passed recently 
to avoid further conversation about closures, at least for the 
time being. And I look forward to working with you on those 
issues going forward.
    Senator Blumenthal. Thank you, Mayor. And thank you very 
much for your commitment to public service. And, again, thank 
you to your wife and your children, as well.
    Mr. Foxx. Thank you.
    The Chairman. Thank you, Senator Blumenthal.
    I am unendingly embarrassed here because, according to 
order of arrival, Senator Klobuchar and Senator Cowan are the 
next two. And I expect to have a revolt on the Republican side, 
people walking out on me, throwing things out me.
    [Laughter.]
    Senator Cowan. I concur, sir.
    [Laughter.]
    The Chairman. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, Mayor, for being here. And welcome to your wife, 
as well. This is probably one of the most pleasant hearings on 
the Hill today, and you have----
    [Laughter.]
    Senator Klobuchar.--you have clearly done your homework, so 
thank you for your good work.
    I enjoyed our meeting. And after you visit Connecticut, I 
hope you also come to Minnesota and see our 10,000 lakes and 
our beautiful new Twins stadium. I can't promise the Twins will 
win, but we would love to have you there.
    And I think you would also see the Central Corridor, our 
light rail system, near up and running, as well as a number of 
highways that need a lot of work. I was just visiting just this 
past week with people near Rogers, Minnesota, where Highway 94 
is a bottleneck in a certain area; U.S. Highway 10 in Anoka, 
Minnesota, which is adjacent to nine towns and is considered 
one of the fastest-growing corridors in the U.S.
    And, clearly, the funding issues on the Federal side. While 
Senator Boxer and Senator Inhofe did an amazing job getting 
that bill done, and Senator Rockefeller and this committee had 
a lot to do with that as well, there is more to be done.
    And last Congress, I introduced the Rebuild America Jobs 
Act, which would have provided $50 billion for direct 
infrastructure investments. Some of the work that Senator 
Blumenthal talked about could have been paid for; some of the 
work that we saw needed to be done after that bridge collapsed 
in the middle of the Mississippi River just six blocks from my 
house on a beautiful summer day. And as I said that day, when 
that eight-lane highway headed into that river, a bridge just 
shouldn't fall down in the middle of America, but it did.
    This money is similar to what the president has put forth 
in his Fix It First proposal in his recent budget. A similar 
proposal was included in the recently passed Senate budget.
    How would you partner with Congress to help move forward on 
some of these ideas? What do you think of this idea of a 
public-private infrastructure bank? What do you suggest we do 
to get the kind of funding that we need to really get goods to 
market and make this country strong again for infrastructure?
    Mr. Foxx. Well, thank you for the question, Senator.
    And, you know, when a bridge collapses in America, and the 
types of pain that is experienced by communities when something 
like that happens, it is inexcusable. And yet we do have 
challenges figuring out a long-term path to funding our 
infrastructure.
    And for that reason, we should be looking both in the box 
and out of the box at ways to help us get that infrastructure 
built. And I happen to think that the idea of an infrastructure 
bank is a good idea. It is not a complete solution to every 
problem we have, but it is another way that we can get progress 
made on our infrastructure, both repair and new projects.
    Senator Klobuchar. Very good.
    During his tenure, Secretary LaHood made ending distracted 
driving a priority. And I think some strides have been made, 
but, as you know, it is still a major problem when you look at 
the statistics. I think it just came out recently as the major 
cause of driving deaths with teens.
    And do you intend to keep this a focus of the Department's 
work?
    Mr. Foxx. Let me say that one of Secretary LaHood's 
legacies will be the real push on distracted driving. And I 
think he has baked that into the DNA of the Department of 
Transportation. And I don't think you have anything to worry 
about in terms of that issue continuing to be one that will be 
a focus.
    I am aware that 10 percent of our roadway fatalities are 
tied to distracted driving, and if we can eliminate that 10 
percent, we save lives.
    Senator Klobuchar. Exactly.
    Well, now that you have your new job, you are going to be 
dealing with things like snowmobiles, something you might not 
have in North Carolina.
    [Laughter.]
    Senator Klobuchar. And I worked hard with several of my 
colleagues to ensure that the Recreational Trails Program was 
maintained in MAP-21. This program is very important in my 
state as well as other northern states. RTP funds off-highway 
vehicle, snowmobile, and nonmotorized trail uses and derives 
its funding from gas taxes paid by off-highway vehicle users 
when they fill up their machines.
    If confirmed, will you work to ensure that this valuable 
program continues to meet the needs of all trail users in 
Minnesota and across the nation?
    Mr. Foxx. I would look forward to working with you on those 
issues, for sure.
    Senator Klobuchar. OK. Well, we will talk more about it.
    Mr. Foxx. You got it.
    Senator Klobuchar. Maybe we will get you out on a 
snowmobile.
    One of the few industries to enjoy an exemption from 
antitrust laws is the freight railroad industry. I know that 
Chairman Rockefeller has been working on the Surface 
Transportation Board reforms to address this issue. I support 
the work that he has been doing.
    The other way to do this is to simply get rid of the 
exemption. This actually came through the Judiciary Committee 
on a bipartisan vote.
    Are you aware of the shipper concerns about the high prices 
that many shippers are paying--we call them captive shippers--
at the very end of a line, particularly in rural areas?
    Mr. Foxx. I am aware of the issue. It is one that I would 
like to drill down a little bit more and study a little more 
and hear from some of the stakeholders. But I am definitely 
aware of the issue and look forward to working with you and the 
Chairman on that.
    Senator Klobuchar. Just remember the numbers 63 and 4. We 
used to have 63 rail carriers; we now have only 4 major rail 
carriers, which happens to be the exact number on the Monopoly 
board.
    [Laughter.]
    Senator Klobuchar. So we think that there needs to be some 
work done here.
    We need to continue to work to improve general aviation 
safety in this country. One of the most promising initiatives 
involved rewriting regulations for smaller airplanes. It is 
called Part 23. It will enable better safety technologies to be 
fielded to address issues like loss of control, which is the 
number one case of general aviation accidents.
    I am introducing a bill with Senator Murkowski of Alaska to 
push this effort forward at the Federal Aviation 
Administration. And I hope you will look into this bill, and we 
would love to have your support for this work.
    Mr. Foxx. I will look forward to looking into it.
    Senator Klobuchar. Well, very good.
    Again, I just want to thank you. We have some other 
questions I will put on the record on air traffic controllers 
and towers, such an issue for so many of us, to make sure that 
they are maintained.
    And also I truly think it is great to have a mayor in this 
role. I know if Senator Begich was here, he would welcome it. I 
think mayors have a sense of knowing on the front line what is 
going on, and we need that in a transportation secretary.
    I was sitting here remembering the former mayor of 
Minneapolis, who is quite old now, but he once told me the 
story that he got a call on a Sunday from a constituent who 
said that the trash was not picked up in his neighborhood. And 
the Mayor said, ``You know what, look, buddy, I will give you 
the number of our public works person; you can call him 
directly today on a Sunday.'' And the constituent paused and he 
said, ``I know who that guy is, but I don't want to bother him 
on a Sunday.''
    [Laughter.]
    Senator Klobuchar. And so I think that you will be--as we 
talked, many of us believe Secretary LaHood did an amazing job 
in working with Members of Congress and local communities and 
mayors, understood that frontline ability to accomplish even 
more if you understand what people need in their areas and 
understand Senator Blumenthal's concerns about Connecticut. And 
I hope that you will bring that forward from your work as a 
mayor and never let that go.
    Mr. Foxx. Thank you.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    We have achieved here a Mikhail Gorbachev moment of 
historic proportions. For the first time in my memory, we are 
breaking the order-of-arrival sanctity, and Senator Cowan has, 
with utmost graciousness, yielded his place to Senator Scott.
    Senator Cowan. From one member of the senatorial black 
caucus to the other.
    [Laughter.]

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Senator Cowan, I thought it was perhaps 
because Mr. Rockefeller thought I was Senator Cowan.
    [Laughter.]
    Senator Scott. Thank you very much, Senator. I am glad that 
you know the difference, at least. This is good.
    [Laughter.]
    Senator Cowan. Yes. In the spirit of getting the last word 
on this, I am glad we are both here together so we can put 
truth to the rumor that there is only one of us.
    Senator Scott. Absolutely, yes, sir.
    [Laughter.]
    Senator Scott. Let's talk on June 26.
    [Laughter.]
    Senator Scott. This probably is perhaps the most amazing 
confirmation process I have seen so far in my short term in the 
Senate. I will tell you that so often I hear pointed questions 
with pointed responses and a lot of deliberation about nothing. 
Today I have heard very kind comments and perhaps still a lot 
of deliberation so far about nothing. So let's get to a couple 
very important issues.
    Mr. Foxx, Mayor Foxx, it is good to have you with us. It is 
very good that you took the time to meet with me a couple days 
ago. And, certainly, as a mayor of a city, I certainly have an 
affinity for folks who have served locally, having served 
myself. I know that you probably recognize that most of us who 
have served in local government have had an opportunity to 
serve on the aviation authority, local highway transportation 
commissions, as well as transit organizations. So your 
footprint and your involvement in local transportation needs is 
impressive.
    A couple questions that come to the national level, to the 
Federal surface, would be one that has to do with the process 
that some states are going through, North Carolina perhaps 
being one of the leading states, as it relates to tolling 
interstates.
    I will tell you that, from my perspective, tolling I-95 
would be a disaster for a couple reasons. Number one, I think 
it would transfer parts of the transportation routes to 
secondary roads that may not be as safe. And, second, I think, 
because they are not as safe, it will actually raise concerns 
as it relates to transportation on those secondary roads.
    So my question to you really is, what is your position on 
the plan North Carolina has as it relates to tolling I-95, and 
what would be your approach as the secretary of transportation 
going forward?
    Mr. Foxx. Well, thank you for the question, Senator.
    Tolling, in my work as mayor, it has a place, but it is 
sort of like when we were talking a little earlier about an 
infrastructure bank; we are not going to toll our way to 
prosperity as a country. It is a tool that can be used in some 
instances, for example, to add capacity and to pay for that 
capacity privately. But I don't think it is a complete solution 
to how we deal with our surface transportation issues.
    Senator Scott. I would say that, as your neighbor to the 
south, the tolling impact would be harmful from our 
perspective. So we hope that you take a serious look at the 
entire corridor as it relates to the tolling process.
    The second question comes really from the area of the TIGER 
grants. TIGER grants have been celebrated as a success, 
providing much-needed resources to the local level. I will tell 
you that there seems to be, according to GAO and the DOT 
inspector general, they have both raised some concerns as to 
how the awards are made.
    How do you plan to ensure that these grant projects will be 
selected on a transparent, merit-based system?
    Mr. Foxx. Thank you for the question, Senator.
    And, first of all, I am hopeful that we have some funds 
down the road to do future TIGER grant opportunities. But 
having said that, you have my commitment to be fair and 
transparent about how the department would work on those 
issues.
    TIGER is a challenging thing to evaluate, and I would like 
to take some time to look at the GAO study and maybe have some 
more conversation with you about it.
    Senator Scott. That would be great.
    Mr. Foxx. But when you are, as the Chair mentioned, looking 
across modes and trying to get the highest impact out of the 
various projects you could do, there is bound to be some 
controversy about which projects were more meritorious than 
other ones.
    Having said that, I think TIGER has done a great service to 
our country by rewarding innovation and helping local 
communities and states really prioritize and try to figure out 
which projects will be the most impactful catalysts.
    Senator Scott. I would tell you that a project-specific, 
merit-based system would be welcomed versus what sometimes 
appears to be a district-specific, red districts versus blue 
districts, funding formula that seems to be en vogue at times.
    My final question--and I will try to do something that 
seems to perhaps be celebrated by my colleague from the North, 
is to reserve and give back the balance of my time, which I 
want you to pay attention to that, as we have 7 minutes instead 
of 5.
    I would say that I would echo the comments that you have 
heard about towers. The importance of them cannot be 
overstated. It is a major part of the economic engine of our 
nation. We should protect it. I think we have done a good job 
in the last several weeks in making sure that happened. I would 
just encourage you to continue.
    My final question is on this notion of aviation user fees. 
The idea pops up and down very often. It seems to be back. The 
administration had it in their budget. Congress has rejected it 
repeatedly.
    I would hope that you would find it within your approach to 
being the secretary of transportation where you would find 
alternative solutions as opposed to having a user fee, which 
would of course be cumbersome and challenging in the aviation 
footprint.
    Mr. Foxx. Thank you. I will say that my approach to this 
role would be the very same approach that I have as mayor, 
which is I want to hear from all stakeholders on various 
questions that involve industry. And that doesn't always mean 
agreement, but what it means is that I want to get to a point 
where I can say the talking points for people on a variety of 
positions. And that is what I would endeavor to do in my role.
    Senator Scott. I will yield my 68 seconds to the senator 
from Massachusetts.
    The Chairman. Who will generously accept it.
    Senator Cowan?

               STATEMENT OF HON. WILLIAM COWAN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Cowan. Thank you, Mr. Chair and Ranking Member 
Thune, my friend from South Carolina.
    Mr. Mayor, greetings and congratulations. Good to see you 
again.
    Mr. Foxx. Thank you.
    Senator Cowan. Congratulations to you and your family, your 
lovely wife, Samara, and your beautiful children. And welcome 
to Washington, D.C.
    If confirmed, I am confident you will be--as I hope you 
will be, and I am sure you will be--you will serve this country 
well as the head of DOT.
    It is clear from our conversation not just the other day 
but conversations you and I have had in your capacity as Mayor 
of the Queen City of North Carolina and mine as Chief of Staff 
of the great Commonwealth of Massachusetts that you truly 
understand the importance of transportation, not just the means 
from getting from here to there, but as a method of opening up 
economic opportunity, creating jobs, and fostering healthier 
communities.
    And I hope that we continue to have a rich conversation 
today about projects that are critical to Massachusetts that 
you know are near and dear to my heart.
    One of those, of course, is the South Coast Rail project. I 
know Governor Patrick has spoken with you about this 
previously; you and I talked about it last week. This is a 
project that I think is a great example of the transformative 
power of transportation, rail in particular, which would open 
up the entire south coast region of Massachusetts to 
opportunity untold.
    We have been working for years to try to bring this to 
fruition, and I thank Secretary LaHood for his efforts on that 
behalf. That said, you know, we are still not where we need to 
be, and we have been working with the Army Corps of Engineers 
to try to move things along. We are waiting for some 
environmental studies.
    And so my first question to you is, when you come up north 
to visit Senator Blumenthal and the folks in Connecticut, I 
trust you will stop in Massachusetts, come see where we are on 
the South Coast Rail project.
    And I hope I can get your commitment that you will continue 
to look at this project for what it is, a great opportunity not 
just for Massachusetts but the whole northeast region and the 
Nation to spur economic activity, and that you will work with 
us and the Army Corps of Engineers to move this project along, 
a project that is long delayed.
    Mr. Foxx. I look forward to, if confirmed, visiting you and 
learning more about the project and trying to do what we can to 
help.
    Senator Cowan. Good. You come anytime; I would be happy to 
drive you down there myself and see all the prosperity that is 
just waiting to unleash.
    In addition, we have been working on the expansion of the 
MBTA Green Line project. You and I discussed this last week. It 
has been a source of contention. This is a project that former 
Governor Mitt Romney signed into law as a condition of the so-
called ``Big Dig'' project, and we are looking to complete the 
work on his pledge. And we have had some starts and fits with 
Transportation, who wanted to see more of an effort on the 
state side. And as I mentioned to you last week, that effort is 
in place and the results are there, and we are ready to move 
forward.
    Again, I am hoping I can count on you. When you come to 
visit, you will sit with our state transportation officials and 
the local officials in Somerville, Medford, and the surrounding 
towns to talk about the economic opportunity that, again, is 
waiting for this rail line to bring forth.
    Mr. Foxx. Yes, sir. I can tell you from my experience in 
Charlotte, and the senators mentioned this in their 
introduction, that transportation investments have a variety of 
benefits, and sometimes mobility is the thing that is the most 
important; sometimes it is mobility and economic development.
    And we have seen this type of progress in Charlotte with 
the light rail line, which was $462 million of public money 
split between the Federal, state, and local governments. It is 
now generating $1.4 billion of private investment.
    So I am very familiar with how infrastructure projects can 
be catalysts for other things. And those things are usually 
good for jobs and economic development.
    Senator Cowan. And the last Massachusetts-specific project, 
because I am sure some of my colleagues are growing weary of me 
talking about Massachusetts projects, but the Worcester 
Airport. Secretary LaHood has been very cooperative and a great 
partner with us in opening up that modal for expanded growth in 
the second-largest city in Massachusetts, which is in the 
center of the state.
    And I am pleased to say that, while I was saddened to see 
Lieutenant Governor Tim Murray today announce that he was 
stepping down, I am pleased that he is going to run the 
Worcester Chamber of Commerce. And I know you know him as a 
former mayor. And he is going to bring great energy to that 
job.
    Worcester is important to Massachusetts, as is that 
airport. I am hoping that you will take the time to see how, 
again, that airport, that venue is going to open up the region 
and you will continue the support that Secretary LaHood has 
been providing in recent years.
    Mr. Foxx. I will look forward to going up and checking it 
out.
    Senator Cowan. And I will go with you.
    [Laughter.]
    Mr. Foxx. OK. Thank you.
    Senator Cowan. Last but not least, Mr. Mayor, I would love 
to hear you talk a little more--Senator Klobuchar talked about 
the infrastructure bank. And you mentioned, I believe, in your 
response that you see value in the infrastructure bank. It is 
perhaps, I think to paraphrase you, it may not be the only 
answer.
    Could you expound on that a little bit and perhaps any 
other thoughts you may have about how we take advantage of what 
little resources we have right now or what new resources are 
needed to really grow our infrastructure and deal with some of 
the state-of-repair issues that you and I know are holding us 
back, so that we can make sure our roads and bridges are safe 
and productive for our economic needs?
    Mr. Foxx. Well, thank you for the question, Senator.
    We are seeing, even in this situation in which many local 
and state governments are stretched, some real creative 
strategies that are happening at the local and state level. And 
the idea of an infrastructure bank picks up on a lot of the 
conversation that state and local leaders are having.
    What an infrastructure bank allows us to do is to capture 
some of the trillions of dollars in the private markets that 
are sitting on the sidelines, not being reinvested in this 
country, and creating a pathway for those dollars to be put to 
work to build America.
    The administration, and through the legislative efforts of 
this committee and others, have built tools that are in use 
already, like TIFIA, private activity bonds, Build America 
Bonds.
    What I would bring to the Department is not just, you know, 
advocating for those specific tools, but I will keep looking at 
my partners in state and local governments who are coming up 
with some great, creative ideas and working to mine those ideas 
and bring them to the Federal level or provide the type of 
assistance at the Federal level that can help those ideas 
continue to move forward.
    Senator Cowan. Thank you, Mr. Mayor. I see my time has 
expired. I just want to say, from one native North Carolinian 
to another, I wish you well.
    Mr. Foxx. Thank you very much, Senator.
    The Chairman. Thank you, Senator Cowan.
    Now Senator Fischer, to be followed by Senator Cantwell, to 
be followed by Senator Cruz.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. I appreciate it.
    Mayor Foxx, it is so nice to see you again, and I----
    Mr. Foxx. Nice to see you.
    Senator Fischer--welcome you to the Committee and 
appreciate you taking the time to be here to answer our 
questions.
    Mr. Foxx. Thank you.
    Senator Fischer. As we discussed in our meeting, I 
previously served as Chair of the Transportation and 
Telecommunications Committee in the Nebraska legislature, and 
so I have a huge interest in infrastructure issues. I believe 
infrastructure is a core responsibility, a core priority for 
government, and at the Federal level I believe it is only 
second to our national security.
    Without efficient, secure, and reliable infrastructure, our 
country will falter. Whether it is roads, bridges, ports, 
airports, infrastructure is the backbone of our economy and 
helps to maintain strong communities all across this country.
    And the Federal Government plays an important role. It 
plays an important role in the funding and the managing of our 
national infrastructure system. However, this must be in a 
responsible manner that is worthy of those hard-earned taxpayer 
dollars.
    As you know, the Department is huge. It has a huge budget. 
And I believe we have to find ways to streamline that 
department. We need to find efficiencies. We need to figure out 
how we are going to stretch the revenue that we have available 
so that we can meet the needs all across this country.
    As we talked about looking for those efficiencies when you 
were in my office, I asked you if you had any examples. I am 
wondering at this time if you have had the opportunity to visit 
with some people in the department in order to maybe tell me 
some examples where you might look for efficiencies within that 
huge department.
    Mr. Foxx. Well, let me try to break the question down 
because I think there are several components to it that are 
relevant and responsive.
    The first place is, there are enormous amounts of dollars 
that flow into project-specific infrastructure. And I think we 
have opportunities to look at how we can streamline the 
delivery process for projects, which could help us achieve 
savings and help our stakeholders achieve savings at the state 
and local levels.
    So, from that standpoint, there is actually through MAP-21 
some progress in helping us move toward performance 
measurement, using data and other tools to help us achieve some 
of those objectives. Of course, that is not across all modes, 
but it is a start.
    There is also the possibility of savings that are created 
to external stakeholders. And I would say NextGen is a good 
example of that. NextGen gives us an opportunity to save our 
air carriers millions of dollars in fuel by developing more 
precise air routes and preventing this, I think it is, like, 7 
million gallons of fuel that will be saved potentially by 2020 
as a result of it.
    Well, if we are able to obtain those types of savings, that 
gets to the bottom line for the carriers and, ultimately, we 
hope, to the passengers who are using those carriers. So I 
think that technology gives us the ability to create more 
efficient systems that end up having a good bottom-line effect.
    The third component of your question I think gets to 
operational savings. And there, I think there is still the 
potential for technology to play a role there. I am not in the 
department today. I would like to, if confirmed, get there 
before I start having a whole lot of conversation about what 
kind of operational savings might be achieved. But it is 
something that I definitely have my eye on because, in this 
environment, dollars that we save can be repurposed and pushed 
into other projects.
    Senator Fischer. Nebraska is a state of distances, and we 
understand the importance of our highway system in order to 
promote commerce, in order to promote the safety of citizens 
all across our state, in order to connect us all. And we are 
concerned, as other states are across this country, about lack 
of sufficient revenue to not just maintain our roads and 
maintain our bridges so that they are in safe condition and can 
handle added capacity as needed but we need to build. We need 
to build.
    The Federal Government has a role in that. They did years 
ago with the interstate system. You know, it connected us as a 
country. It provided for growth of our economy. Where do you 
see us headed? Where do you see us headed? Where is this 
secure, certain, stable source of revenue going to come from?
    You know, we can talk about an infrastructure bank, but 
that is not going to work either unless we have a dedicated 
source of revenue going into it. So where do you see that 
coming from?
    Mr. Foxx. Well, thank you, Senator, for the question. And I 
think the answer, perhaps disappointingly, is more art than 
science.
    The truth of the matter is that we can devise a strategy 
through authorizations that achieves the objectives we may have 
as a country across a variety of modes. Then you find yourself 
with the arithmetic problem of how do you get there, which is 
the question you are asking.
    I think that, in talking to members of this committee 
across the political spectrum, there seems to be broad 
agreement that we need to figure that question out. And I know 
that the president has put ideas on the table as recently as 
his Fiscal Year 2014 budget to help us achieve longer-term 
authorizations and funded authorizations in the future.
    I actually think that if there is agreement that we need to 
make the trip to figure this out, that that is the starting 
point for walking back into the tactical questions of methods 
and means. And I don't want to prejudge the result, but what I 
will tell you is one of my goals would be to pull together a 
wide variety of stakeholders, both within government and 
outside of government, to squarely discuss how we can build a 
consensus to get there and to work with you and others to try 
to help us move forward.
    Senator Fischer. Thank you. And thank you for your openness 
and willingness to work together on these very, very important 
issues that are before us. And I look forward to working with 
you in the future.
    Thank you.
    Mr. Foxx. Thank you, Senator.
    The Chairman. Thank you, Senator.
    The order now, by the re-arrival of the distinguished 
Senator from Missouri, will be Senator Blunt and then Senator 
Cantwell, then Senator Cruz.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    And thank you, Mayor Foxx, for being here and stepping up 
and being willing to take this responsibility.
    I don't want to repeat a lot of things that you have 
already been asked and probably answered for the few minutes I 
was gone. I may have some questions for the record. I do have a 
couple based on our conversation the other day.
    I think the Chairman mentioned NextGen, pilot training. You 
know, I think a third of the air traffic controllers right now 
are eligible to retire, and a significant number of them are 
about to get to the mandatory retirement time. So there has 
just been this training proposal of a training facility that 
has been out there and almost got awarded a few years ago.
    I know when we talked about this your understanding of it 
was pretty strong. And my view would be that I hope we can 
continue to pursue how we get that training into a system that 
works better than the moving-around training that is going now.
    Have you had a chance to think about that any more since we 
talked?
    Mr. Foxx. Well, Senator, I know----
    Senator Blunt. This was the FAA training center.
    Mr. Foxx. Yes, sir. And thank you for the question. And I 
actually know that there is a new process that has been 
initiated to review that question. It is ongoing. And, if 
confirmed, I will look forward to working with you on that.
    Senator Blunt. OK. You know we have to have trained people 
doing this job.
    And, you know, the other thing that I think we all need to 
collectively work on is figuring out a strategy of how to 
prioritize furloughs and other things. And you are starting at 
a time when it is pretty obvious what happens when we are not 
all open with each other about that. And, you know, we had the 
FAA administrator in just 48 hours before they announced a lot 
of air traffic controller furloughs, and I think he was asked, 
I guess not quite directly enough, but pretty directly in a way 
that should have gotten more information than we got. And so 
there are lessons to learn there.
    Positive train control, have you talked about that?
    You know, a lot of the things I think we want to send to 
your--almost unfair to--they are technical enough in nature. 
But this is something the Chairman has felt strongly about. I 
just think we need to be sure that, when it comes time to do 
it, we are really ready to do it. And I think we are going to 
have to look at that and be sure that is implemented in the 
right way.
    And then have you had a chance to talk yet today about your 
views generally on the next highway bill? Would you?
    Mr. Foxx. Well, sir----
    Senator Blunt. Do you want to talk a little about--or the 
next transportation bill.
    Mr. Foxx. Yes.
    Senator Blunt. I mean, that is one of the things we were 
able to get done in the last 2 years, but we only got it done 
for 2 years, so that is coming up pretty quickly.
    I believe the normal request for reauthorization that would 
have come from the Secretary of Transportation did not come 
because Mr. LaHood is leaving. And so it is something he didn't 
have to do but something I would think you would quickly want 
to get into that discussion and----
    Mr. Foxx. Yes, I would. It is a vitally important issue for 
this country. Surface transportation is how many of our people 
all across this country are able to get to work and get to pick 
up their kids from school and a variety of other uses.
    I think, as we have talked about already today, that one of 
the biggest questions is, how do we fund that reauthorization? 
And I would look forward to engaging on that question, both 
with colleagues within the administration as well as with 
Congress.
    Senator Blunt. Well, as we change vehicles, the kinds of 
vehicles, the mix of vehicles on the road, and as we try to 
make vehicles more efficient, get more miles out of the gallon 
of the vehicles that are paying the per-gallon tax, obviously 
you are working away from your funding stream every time you 
put more vehicles on the road longer that use less fuel, which 
obviously we would want to do that, but it doesn't make the 
formula work like it did.
    And I would just say, as--today one of my colleagues said, 
``Well, why is everybody here? This is a pretty 
noncontroversial nomination.'' And I believe it is going to 
turn out to be a noncontroversial nomination. But my response 
is: Because everybody we work for is totally dependent on 
everything he is going to be responsible for. And the 
relationship that we have with you and you have with us is 
important. And I am glad you are stepping up to do this job.
    Mr. Foxx. Well, Senator, thank you. I enjoyed our 
conversation and, if confirmed, look forward to working with 
you.
    Senator Blunt. Thank you, Chairman.
    The Chairman. Thank you, Senator.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And welcome, Mayor Foxx, and to your family. And 
congratulations on your nomination.
    Mr. Foxx. Thank you.
    Senator Cantwell. I am very excited that U.S. DOT is 
working right now on the first national multimodal freight 
strategic plan. You and I had a chance to talk about this, but 
I want to hear your thoughts or public commitment to whether 
you will continue the work that Secretary LaHood started in 
implementing a national freight policy.
    Mr. Foxx. Senator, I am very excited about this initiative, 
and I want to thank you for your leadership on it. Freight is a 
critical player in our economy and can be an even greater force 
in our ability to reach out into global markets and to move 
goods quickly within our borders.
    I am aware that there is activity associated with 
populating the National Freight Council and that the national 
freight strategic plan is going to be the product of a lot of 
stakeholders coming together. And I really am excited about the 
possibility of working with you and others on that project.
    Senator Cantwell. One of the issues related to that is 
obviously the level of congestion that affects our ports or 
affects our roadways in moving U.S. products to their 
destination. Some estimates are that it costs U.S. business 
more than $200 billion a year.
    So do you believe that there is a need to establish a 
dedicated source of funding for nationally and regionally 
significant freight mobility projects?
    Mr. Foxx. I think it is something that should be looked at 
and I am sure would be looked at by the Freight Council. And as 
the process moves forward, I look forward to working with the 
council to help implement the ideas that come out of it.
    Senator Cantwell. Thank you.
    A very Washington-state-centric issue: Our ferry systems 
carry annually more than double the amount of people compared 
to the Amtrak Northeast Corridor. Our ferries are like many of 
the national transportation systems; they face congestion or 
problems. But oftentimes the funding falls between the cracks.
    And so I want to make sure that I have your assurances that 
the ferry system and its funding from the Department of 
Transportation will receive the support that they deserve as 
part of our National Highway System.
    Mr. Foxx. I will absolutely work to advocate for critical 
transportation systems. And, obviously, in Washington state, 
the ferry system is one of those.
    Senator Cantwell. Thank you.
    One of the priorities that Chairman Rockefeller, under his 
leadership, passed was the Aviation Safety Act of 2010, and 
this was to address the aftermath of the 2009 Colgan Air crash, 
something that included several rulemakings which have been 
completed, but there are some that still haven't been. 
Administrator Huerta told the Committee multiple times that new 
rules for pilot qualifications for these regional aircrafts 
will be completed before August 1, 2013.
    This is something that is very important to many of us on 
this committee, and wanted to get your support in confirming 
that the Committee can count on you to ensure that these rules 
do get implemented or, I should say, published by the August 1 
deadline.
    Mr. Foxx. My understanding is that the process is on track, 
and I would look forward to working to meet those deadlines if 
confirmed.
    Senator Cantwell. OK.
    And one last issue if I could get your thoughts on is the 
transparency in airline ticket pricing. Last year, airlines 
collected about $6 billion in baggage and reservation-change 
fees from passengers, but because of the growing menu of 
ancillary fees, it has been increasingly difficult for 
consumers to compare and shop for airfares.
    And I know that there has been a lot going on both with the 
department and challenges by the airlines to some of these 
rules, you know, almost all the way to the Supreme Court.
    So I know that there are some proposed airline ticket 
transparency rules now under review by OMB, but I wanted to get 
your thoughts on the importance of giving consumers better 
information so that they can make the right pricing decisions.
    Mr. Foxx. Well, as someone who purchased airline tickets to 
get here, I certainly would support efforts so that I know as a 
consumer and other consumers know what they are being charged 
for.
    And, of course, the processes that you just described are 
in process and are being worked through with stakeholders, and 
I certainly would like to have a chance to hear all sides of 
those issues as they move along. But as a consumer, I certainly 
understand.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cruz?

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Mayor Foxx, welcome.
    Mr. Foxx. Thank you.
    Senator Cruz. Congratulations on your nomination.
    Mr. Foxx. Thank you, sir.
    Senator Cruz. And I appreciate your coming by my office. We 
had, I think, a very good and productive conversation.
    Mr. Foxx. Yes, sir.
    Senator Cruz. And I appreciate your time here answering our 
questions. I would like to follow up on a couple of the areas 
that you and I discussed in my office.
    Mr. Foxx. Sure.
    Senator Cruz. And I want to start by revisiting the 
conversation you just had a moment ago with Senator Blunt 
concerning the FAA air traffic controller furloughs and 
sequestration.
    In my judgment, the sequestration funding levels are quite 
likely to continue. And, indeed, given the fiscal and economic 
challenges we have, we may see even further budgetary cuts at 
some point in the future.
    And quite a few of us have been concerned that the 
administration, in implementing sequestration, has been looking 
for ways to implement those cuts that are visible and painful 
and exacerbate the pain of the cuts. And, indeed, quite a few 
of us, I think, believed that the air traffic controller 
furloughs was an example of that.
    Can we have a commitment from you that, in implementing 
sequestration and in implementing whatever further budget cuts 
may occur down the road, that you will employ your very best 
efforts to target waste, fraud, and abuse, to target 
redundancy, to target ways to trim the fat and tighten the 
belt, while minimizing the pain and inconvenience to customers, 
to the American people, while minimizing unnecessary 
inconvenience to consumers?
    Mr. Foxx. Well, thank you for the question, Senator. And I 
did enjoy our visit. I have been telling people that, and they 
seem to act surprised. I don't know why.
    [Laughter.]
    Mr. Foxx. But I have had a good visit with you.
    And let me say a couple things. I come from local 
government, where you have to work within what you have. And as 
I said in response to Senator Fischer, I will be looking for 
ways to help the Department not only work more efficiently but 
to be even more effective at what it is charged to carry out.
    But I don't enter into this presupposing what that actually 
plays out into, in terms of actual reductions or whatever. I 
still actually have hope that this country will develop a 
broader approach to both deficit reduction and investing in 
infrastructure. I am hopeful that we can get there. But, if 
not, what you can count on from me is that I will do my best to 
make the best of the situation we have with sequestration, if 
that is indeed what we have.
    I cannot guarantee you that there will be painless choices. 
By definition, the sequester is a bit of a blunt instrument. 
And my guess is that, given the fact that three-quarters of the 
Department's budget isn't subject to the sequester and yet the 
overall caps on spending are, that there will probably be some 
places where there is significant pain.
    But I don't walk into the door looking to make life 
miserable for people. I am walking in the door trying to help 
make our transportation system work.
    Senator Cruz. And so it is fair to say that you would look 
for ways to minimize the pain and not to exacerbate it.
    Mr. Foxx. I would look for ways to make our department 
function as effectively as possible with the least amount of 
pain possible. But I think we are in a situation, with 
sequester, where there is going to be pain.
    Senator Cruz. I would like to shift to another topic that 
you and I, I think, had a very productive conversation on, and 
that concerned regulation and the impact of government 
regulation retarding economic growth, killing jobs, and the 
need for regulatory reform, which is a principle that the 
president has publicly espoused.
    And in our conversation, you, likewise, expressed 
significant agreement with that. Is that a fair 
characterization of your views?
    Mr. Foxx. Regarding regulatory burdens?
    Senator Cruz. Yes.
    Mr. Foxx. Well, yes. And I actually think the president 
agrees with that. He has issued Executive Orders across 
agencies asking them to review their regulations to figure out 
ways to streamline and, as recently as last week, announced 
another streamlining set of provisions.
    So I think that there is broad agreement that if we can 
streamline processes, make them move more efficiently and 
effectively, and deliver projects faster, that is good for the 
country.
    Senator Cruz. I would note that just recently the 
Congressional Research Service released a report that indicates 
that during the first 4 years of President Obama's 
administration that the administration issued more than 13,000 
final rules, which was substantially more than its predecessor. 
And, indeed, there were 330 major rules, rules that have 
economic impact of $100 million or greater. And that 
represented a 24 percent increase from the second term of the 
Bush administration.
    And given the concerns you raised about working to minimize 
the harm of regulations, would you agree in your first 100 days 
as secretary, if you are confirmed, to work to identify at 
least three regulations within your purview that, in your 
judgment, are unduly burdensome and to work with me to 
ameliorate that burden?
    Mr. Foxx. Senator, let me say this, that if I find 10 that 
we can eliminate or reduce, I would like to do that. But I 
can't do it blindly. I am not in the job now. If confirmed, I 
would like an opportunity to visit with you and extend this 
conversation and see where we can take things.
    But, you know, my interest is in making sure that this 
department continues to serve its mission. So, safety--critical 
mission of the agency. There are a lot of ways in which the 
agency touches on the environment. And so, to the extent that 
we can figure out ways to minimize the burden without 
compromising safety, without compromising the delivery of 
projects and so forth, I think that we have some common ground 
that we can work on. But I couldn't tell you chapter and verse 
where that is today.
    Senator Cruz. Well, I will certainly accept as a friendly 
amendment to work on 10 instead of 3.
    [Laughter.]
    Senator Cruz. And if I may ask the Chairman's indulgence to 
ask one additional question, although my time has expired.
    And the final question I wanted to ask is, there is a 
provision in MAP-21 that allows states to assume 
responsibilities for environmental studies and clearances. And 
one of the significant impediments to building new 
transportation projects can be those clearances. It is referred 
to as NEPA delegation.
    And prior to this year, California was the only state to 
assume NEPA delegation. The state of Texas is now embarking on 
the same path. Indeed, the legislature recently passed 
legislation, the Governor signed it, to do so. California has 
already been able to realize a 25 percent cost and time savings 
as a result of the NEPA delegation.
    And Texas will now have to petition the Department to be 
granted authority for NEPA delegation. And if you are 
confirmed, I wanted to ask your approach to how you will 
approach that petition that will be forthcoming.
    Mr. Foxx. Well, of course, there are systems in place to 
review those types of petitions, and I would have to have the 
information in front of me with a recommendation from the 
Department to be able to review.
    But I think that if we can find ways, this is another way 
to help streamline processes. You know, if the requirements are 
met and we can move forward, I would look forward to doing 
that. But I would count that as 1 of the 10.
    [Laughter.]
    Senator Cruz. We are agreed on that.
    And let me say, thank you for your candor. I look forward 
to our working together, and I look forward to supporting your 
nomination.
    Mr. Foxx. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Mr. Mayor, there are actually no more questions, I don't 
think, but I want to make a statement, which arises from this 
hearing, which I have been living with as somebody who 
represents West Virginia, where there are needs, human and 
physical, of vast proportions, and it is a very small state. 
And that is the hypocrisy that we put you through during a 
nomination hearing and everybody asks for--infrastructure is 
the lifeblood of the country and NextGen is so important, but 
we hate rules and regulations, and there are 13,000 or whatever 
it is. And then people talk about minimizing pain, as opposed 
to not maximizing pain, as if that is a brighter light.
    What is needed in this country for you to be a successful 
Secretary of Transportation, and for us to be a successful 
country, is a willingness to bite a bullet which some in this 
Congress, in both houses, refuse to bend to, thus causing 
others who would bend to it not to bend to it because of the 
fear of what would happen in the next primary. It has developed 
into a fairly fine art, and it is the fastest way to destroy 
the future of our country that I can possibly think of. The 
prospect is based upon the fact that if you simply eliminate 
all rules and regulations and certainly don't do any tolls and 
raise no revenues, that by simply avoiding waste, fraud, and 
abuse, which I have been hearing for 50 years in government and 
which is certainly pertinent and will be done--you know, in 
Medicaid and Medicare, it is pretty hard to find that stuff.
    Medicaid and Medicare are so much more efficient than the 
private healthcare system, it is not even close. They are about 
2 or 3 percent administrative costs. But, no, you don't want to 
do that because if you expand Medicaid--the senator's state has 
rejected that and has an enormous number of uninsured citizens, 
but that seems to be OK.
    We cannot function as a country and we can certainly not 
achieve greatness again as a country without having research, 
without having infrastructure, without having trained people, 
without having business having confidence in our future and 
thus deciding to invest in our future because they see that we 
in the government are willing to invest in our future and they 
know it as well as we do.
    They don't want their taxes to skyrocket, but they know, as 
do a lot of people with a lot of money, that you can't wish for 
something or you can't minimize yourself into greatness. You 
can minimize yourself into just a minimal thing. Then you can 
feel good all along and win election after election, but you 
are doing the country no favors.
    So when you talk--and I don't want you to say one word in 
response to this.
    [Laughter.]
    The Chairman. When you talk about, you know, doing all the 
things that you have been asked to do, they are going to cost 
money. And you can get all the squeezing and tightening--I just 
can't wait for you to take a look at the FAA and find all the 
money just sitting there waiting for you to squeeze a couple 
billions dollars out. It isn't there. The size of the U.S. 
Government in number of people is currently smaller than 
anytime since Dwight Eisenhower. I don't think there is any 
American who knows that, and the press certainly doesn't talk 
about that.
    It used to be that we were constantly besieged with talks, 
with sermons on our deficit problems and how that was a symbol 
of how America was wasting, you know, just wasting. And, of 
course, now the deficit is beginning to disappear, so 
everything has changed to the debt.
    None of that is actually what I want to say to you. What I 
want to say to you is I want you to be a good secretary of 
transportation. And you cannot do that without new revenue. And 
you cannot do that without goading us in the Congress, which 
will be hard--you have to get OMB to agree to it, but 
sometimes--you know, your predecessor was pretty good at just 
going around and saying what he wanted and getting away with 
it.
    [Laughter.]
    The Chairman. You can't do that without revenue. You can't 
pretend that everything stands still for the last 10 years and 
you have no more money to do it and expect to have it. You 
won't have greatness, you won't have resources, you won't have 
infrastructure.
    It is great to talk of infrastructure banks, it is great to 
talk about the $3 trillion sitting in the coffers of the 
American enterprise system, but that $3 trillion would come out 
if they felt that they weren't going to have to do the whole 
thing all by themselves.
    People need to pay, on a fair basis, personal taxes. We 
need to raise in this country, if we are going to cure cancer, 
diabetes, or all the other things that plague us, as well as 
get rid of MRSA, which is one of the great killers in our 
society--it has come basically out of the hospitals, hospital 
bathrooms that aren't clean.
    And the work on that is being done in the International 
Space Station, to try and get the cure for MRSA, which is 
something most people don't know about, but it is a terrible 
killer in this country, and there is no cure for it.
    So I just want to register a strong counter voice about--I 
totally believe in America's future, but we are not going to 
get there if all of our demands of you and our aspirations for 
you are that you cut out more people--you will do that 
necessarily as a manager because managers know how to do that, 
as Governors do. I had to do that. I had to lay off 10,000 
people once when I was Governor. And it is no fun, but you do 
what you have to do.
    But to simply accept the premise--I mean, being a mayor, 
frankly, is not the same thing as being the President or a 
Congressperson. We have national responsibilities. If you are 
going to build a fast freight system or a fast rail system, you 
don't do it intrastate, you do it interstate, and it is a 
larger function.
    If you are going to take the CDC seriously or take the NIH 
seriously or the National Science Foundation seriously or the 
National Institute of Science and Technology seriously, if you 
are going to take cybersecurity seriously, if you are going to 
take any of these things seriously, take our economy seriously, 
we are going to have to spend money. And the great game around 
here is you just don't talk about it. You just don't talk about 
it. Because there are some that can't wait for you to do it so 
that they can get somebody to run against you in the next 
primary.
    The beauty of politics is when politics overcomes that kind 
of smallness. The un-beauty of politics is when that is not 
possible, when people are driven into submission about honest 
answers for the future of our country.
    So I will simply conclude by saying that I hope that you 
will push us. And the director of OMB is a West Virginian, so 
by definition--I mean, next to South Dakota, that is about as 
good as you can get.
    [Laughter.]
    The Chairman. And she is a West Virginian, and she 
understands the problems of small, rural states and the whole 
country which she has worked in.
    But goad us. If you can't do something because you don't 
have the money to do it, let us have it. Express your 
frustrations. Say, I have squeezed this, I have squeezed that, 
I have squeezed that, NextGen I can't do, don't have the money 
for it.
    Or, you know, safety inspections of airlines or safety 
inspections of parts of new planes, each one of which is--and I 
have seen this because we tried to develop a jet in West 
Virginia, and there were 13,000 parts to that jet which were 
individually inspected by inspectors from, I guess, the FAA, 
individually inspected. You cut FAA way back, those people 
disappear, innovation, entrepreneurship disappears.
    You don't necessarily create an entrepreneurial society by 
starving it. You don't do it by burying it in taxes. You do it 
by something that is responsible. And responsible'' means that 
you have revenues and you have discipline, you have focus, you 
have leadership, but you have the money to do what you have to 
do, whether it is the military or whether it is the rest of the 
country.
    So I would ask that you would keep that in mind.
    And unless my colleague wants to say something----
    Senator Thune. Mr. Chairman, if I could just add to what 
you have said--and I do have another question or two, but I can 
put those on the record, because I know you are going to be 
responding to some questions on the record.
    But I think one observation I would make with regard to 
where we are, the one thing we can't do--and this is why I 
asked the question about the next highway bill and what you saw 
your role as being--we cannot continue to borrow from the 
general fund to fund highways.
    We either have to decide that we are going to pay for it 
and figure out how we are going to do it or we are going to 
have to have a lot smaller appetite when it comes to 
infrastructure. The one outcome that is not acceptable to me is 
to continue to borrow and to transfer from the general fund and 
basically put that on the backs of our children and 
grandchildren.
    My frustration is that, when the DOT secretaries come in 
front of the Committee and we have asked for specific 
suggestions about how to do that, you know, we usually get the 
answer, ``We will work with you, with Congress,'' and we 
understand that. I mean, we have to play a role in that, too. 
But I also hope that you will lead, that the President will 
lead, and come up and put specific ideas on the table about how 
to solve these problems.
    Infrastructure is important. It is important to our 
country, it is important to our competitiveness, it is 
important to our economy. And the best way to deal with debt 
and deficits is to get a growing, expanding economy. And so 
everything that we do, we ought to have a focus on, what will 
this do to grow the economy, to create jobs, and to improve the 
take-home pay of middle-class Americans? And I think a robust, 
strong infrastructure that supports that economy is critical 
and vital to that, but it has to be paid for.
    And so I hope that you will get your pencils out and find 
as many savings as you can within the department's budget and 
look at doing things more efficiently, but then when it comes 
to putting proposals forward, with regard, for example, to the 
next highway bill, to be specific and, you know, come at us 
with your ideas. And we will try and work with you.
    So thank you, Mr. Chairman.
    And I do have a question, if I might. I want to get you on 
the record on this, because I mentioned in our meeting that 
Senator McCaskill and I were successful last year in enacting 
the European Trading Scheme Prohibition Act. And based on our 
discussion, I think you are familiar with the issue. And I just 
want to know if you are prepared to exercise your authority 
granted in the law to protect U.S. aviation users from the ill 
effects of the EU ETS if that is necessary.
    Mr. Foxx. Absolutely.
    Senator Thune. And----
    The Chairman. He feels very strongly about that.
    Mr. Foxx. Yes.
    The Chairman. And I agree with him.
    Senator Thune. OK.
    And do you believe that ICAO is the place, which operates 
through international consensus, is the proper venue and manner 
to address international aviation emissions reductions?
    Mr. Foxx. I do.
    Senator Thune. Good. We may be facing that issue here again 
in the not-too-distant future, so I look forward to working 
with you on that.
    Thank you, Mr. Chairman.
    And thank you, Mayor. It is an honor to have you in front 
of us, and we wish you well.
    Mr. Foxx. Thank you, Senator.
    The Chairman. Thank you, Senator Thune.
    I adjourn this hearing on the presumption that you will 
just ride the fast rail right into the secretaryship.
    [Laughter.]
    The Chairman. Hearing adjourned.
    Mr. Foxx. Thank you, Mr. Chairman.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to Anthony Foxx
Truck Safety
    Question 1. In MAP-21, Congress made substantial truck and bus 
safety improvements, such as requiring electronic logging devices to 
prevent fatigued drivers from getting behind the wheel. DOT has been 
working on implementation, but we continue to see delays. As truck-
related deaths and crashes continue to be a substantial safety problem, 
I am concerned about the pace of implementing MAP-21's safety 
provisions, especially the electronic logging device rule. What actions 
will you take to ensure that the FMCSA substantially reduces truck 
crash deaths and injuries?
    Answer. If confirmed, I will strive to prioritize FMCSA's actions 
that will result in the largest safety benefit, including implementing 
the provisions contained in MAP-21, and will direct the Agency to 
continue to work with all large truck and bus safety stakeholders to 
continue to identify new and improved methods to improve commercial 
motor vehicle safety.

    Question 2. The government is unlikely to be able to cover the 
entire cost of improving our infrastructure. To what extent should the 
Federal Government use its resources to incentivize private investment?
    Answer. There is no doubt that private investment can play a 
critical role in expanding our Nation's transportation infrastructure 
in the same way it can support our energy, water, and social 
infrastructure.
    Public Private Partnerships (PPPs) can offer an innovative new 
delivery approach for some of our country's most complex and 
challenging projects when they are appropriately structured, when they 
provide better value as compared to traditional public sector delivery 
approaches, and when the underlying projects are well-aligned with 
public policy objectives.
    The TIFIA loan program is a successful example of how the Federal 
Government currently incentivizes private investment. MAP-21 has 
rightly expanded the program to meet demand. TIFIA can benefit private 
sector investors by providing flexible terms and low cost financing 
that often makes the difference between whether a project does or does 
not make sense financially .
    The President's Rebuild America Partnership proposal recognizes the 
important role private sector investment can play in transportation 
infrastructure. It strengthens existing programs such as TIFIA and 
Private Activity Bonds and introduces America Fast Forward Bonds to 
ensure that we continue to incentivize private investment in 
transportation infrastructure. If confirmed, I will support these 
efforts.
National Freight Strategic Plan
    Question 3. MAP-21 requires DOT to create a national freight 
strategic plan. What will you do to ensure that the National Freight 
Strategic Plan does not favor one mode of transportation over another, 
and that it produces a balanced approach to intermodal freight 
movement?
    Answer. Section 1115 of MAP-21 directs the Secretary of 
Transportation to develop a national freight strategic plan. While some 
of the legislative language describing this strategic plan focuses on 
highway freight transportation, other provisions refer to freight 
transportation in general. I strongly believe that, for a national 
freight strategic plan to be useful, it must look at the national 
freight system as an integrated whole, with freight moving along 
different modes of transportation depending on the distance to be 
traveled, the commodity to be carried, and the delivery deadline to be 
met. We need to provide our freight shippers with the full range of 
freight transportation modes so that they can choose the mode that 
meets their needs most efficiently. Only with this kind of multimodal 
freight system can we ensure that our Nation remains globally 
competitive. The Secretary of Transportation has broad authority under 
Title 49 of the United States Code to initiate policies to promote 
efficient intermodal transportation in the United States, and I would, 
if confirmed, use that authority to ensure that the national freight 
strategic plan produces a balanced approach to intermodal freight 
movement that allows each mode of freight transportation to play the 
role that it can play most efficiently in the overall national freight 
transportation system.
Maritime Industry
    Question 4. The U.S.-flag maritime industry plays an important role 
in U.S. national and economic security. Programs like the Maritime 
Security Program, cargo preference, food aid, and the Jones Act are 
important not only to the maritime industry, but also to the Nation's 
military sealift and transportation needs. What are your plans for 
promoting, maintaining, and encouraging continued investment in the 
U.S.-flag maritime fleet?
    Answer. If confirmed, I would work to ensure that the programs that 
assist all sectors of the maritime industry work together in promoting, 
maintaining and encouraging investment in the U.S.-maritime fleet to 
the greatest extent.
    I understand that due to Continuing Resolution and sequestration, 
funding for all Maritime program has been reduced.
Passenger Rail
    Question 5. The Administration has made passenger and high-speed 
rail a central part of their transportation agenda. As Secretary, you 
will serve on the Amtrak Board and play an important role in advancing 
this agenda. What is your vision for the future of intercity passenger 
rail in the nation?
    Answer. The U.S. rail industry is currently experiencing a 
resurgence. Safety, ridership, reliability, investment levels, and 
financial performance are setting records or trending in positive 
directions. I will strive to build on the positive developments and 
will work to further enhance safety and strengthen both passenger and 
freight rail. In particular, I hope to enhance world-class safety; 
modernize our rail infrastructure; meet growing market demand; promote 
innovation; and to ensure transparency and accountability in all 
investments.

    Question 6. Amtrak's authorization expires this year and we have 
already started holding hearings. When will we see a reauthorization 
proposal from the Administration?
    Answer. I understand that the Administration's Budget Proposal is 
intended to serve as a blueprint for reauthorization and as a mechanism 
to enhance safety, modernize our infrastructure and workforce, meet 
growing market demand, and ensure transparency. If confirmed, I look 
forward to working with Congress on legislation to accomplish these 
important goals as soon as possible.

    Question 7. What role do you think the private sector plays in 
supporting passenger and high-speed rail projects?
    Answer. I recognize the critical role the private sector must play 
in improving the overall rail system. I am open to private sector 
investment and participation in high-speed rail corridors and projects. 
Private investment will likely be attracted to rail operations that are 
highly reliable and efficient, generating high ridership and producing 
an operating surplus. Therefore, the best way to encourage private 
investment is to execute projects successfully.
    If confirmed, I look forward to working with Congress to ensure 
that all of the programmatic tools available to the Department of 
Transportation to encourage private investment are used to their 
fullest extent.
Rural Transportation
    Question 8. Rural areas face new transportation challenges. For 
example, the development of shale gas production in my state of West 
Virginia has provided positive economic outcomes. However, as I heard 
at a hearing last year on this issue, the development of this industry 
has also resulted in increased truck damage to roadways and rail 
traffic at unprotected grade crossings. In light of the vast industrial 
development in parts of West Virginia and rural areas across the 
country, how can DOT make sure that transportation infrastructure in 
rural areas receives the support it needs to be safe and in good 
repair?
    Answer. I understand that rural areas are important economic 
generators that need transportation infrastructure. The example you 
describe in West Virginia illustrates the importance of a comprehensive 
approach to addressing the many challenges facing the U.S. 
transportation system. It is vital that we consider the specific needs 
of each community as Federal, State, and local governments work 
together to move this country forward. MAP-21, with its emphasis on 
data-driven, outcome-oriented investment in surface transportation, 
should result in more effective use of our transportation resources in 
urban and rural areas.
    Additionally, I understand that safety on rural roads has long been 
a challenge and I am committed to finding ways to address this need.
    If confirmed, I will work to improve transportation for all 
Americans living in rural and urban areas to support our economy and an 
improved quality of life.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                              Anthony Foxx
MAP-21 Implementation and Reauthorization
    Question 1. One of the major landmarks of MAP-21 is the greatly 
expanded and improved TIFIA (Transportation Infrastructure Finance and 
Innovation Act) program. Will you commit to personally ensuring that 
the TIFIA program receives all the attention and resources it needs so 
that the TIFIA funds provided by Congress in MAP-21 are fully and 
effectively utilized to address the great demand that we have seen from 
across the country?
    Answer. I understand the importance of leveraging Federal funding 
to encourage broader investment of private capital in transportation 
infrastructure, and TIFIA is a great resource to help States invest in 
major transportation projects and create jobs in the process. It is my 
understanding that since passage of MAP-21, the Department has taken a 
number of steps to implement the changes to the TIFIA program and 
expand the TIFIA Joint Program Office to meet increasing demand. If 
confirmed, I will continue to engage the project sponsors and will move 
expeditiously in advancing eligible projects.

    Question 2. MAP-21 expires at the end of September 2014 and it is 
projected that the Highway Trust Fund will run out of funds early in 
Fiscal Year 2015. Developing the next surface transportation bill and 
addressing the transportation funding shortfall is of critical 
importance and key to fixing our crumbling infrastructure. Can you 
discuss how the Department will work together with Congress to address 
these looming challenges?
    Answer. There seems to be bipartisan agreement that current funding 
mechanisms are insufficient to meet our national infrastructure needs. 
Addressing funding issues for transportation requires close 
coordination with the Department's partners within the Administration, 
as well as with Congress, and if confirmed, I will work hard to do so. 
The President in his FY 2014 Budget proposed that savings from winding 
down military operations overseas should be go toward supporting 
significant new infrastructure investments through a long-term surface 
transportation reauthorization. I know others have made different 
proposals to fund this country's infrastructure needs. If confirmed, I 
will work with Congress on a bipartisan basis to find a solution to 
this challenging issue.

    Question 3. MAP-21 included significant policy changes which 
substantially transformed our Federal transportation programs. These 
include instituting performance measures and targets, consolidating 
programs, and establishing a focus on goods movement. Can you explain 
how the Department will work with Congress, states, cities, and 
stakeholders to ensure that these reforms are implemented in a 
meaningful and responsible way?
    Answer. In MAP-21, Congress gave the DOT a clear directive to make 
our transportation system more strategic and performance-driven. The 
challenges facing our Nation's public transportation system cannot be 
solved by Federal action alone. Therefore, to meet this directive, the 
Department needs to work closely with Congress, the public and private 
sectors, transportation advocates, and industry representatives. The 
Department should continue to conduct aggressive outreach with 
stakeholders and to work with each modal administration to issue well-
defined guidance to help the Nation's Federal, State, local, and tribal 
transportation agencies carry out MAP-21 programs and provisions. By 
actively listening to their concerns and incorporating their feedback 
into rulemakings, guidance, and policy, the Department will help States 
and MPOs make efficient use of limited resources and achieve better 
outcomes.
    I understand that the Department has taken a number of actions to 
implement MAP-21. These efforts have included numerous outreach 
meetings with transportation stakeholders, implementing the project 
delivery sections of MAP-21, and moving forward on the freight 
provisions. The Department has already announced a National Freight 
Advisory Committee (NFAC), which is composed of stakeholders, under the 
Federal Advisory Committee Act (FACA), which will help the Department 
assess national freight needs and identify policies and investments 
needed to improve the national freight system.
    I think the Department has made great strides in the implementation 
of MAP-21 and, if confirmed, I will continue this successful approach.
Rental Car Safety/Vehicle Recalls
    Question 4. On May 21, 2013, in this Committee, we held a hearing 
on legislation I have co-authored to require rental car companies to 
fix vehicles under a safety recall before renting or selling them (S. 
921, the Raechel and Jacqueline Houck Safe Rental Car Act of 2013). To 
me, this bill is basic common sense, and I was pleased that the NHTSA 
Administrator, David Strickland, agreed.
    One issue that arose in the hearing is that apparently, some auto 
manufacturers fail to make enough parts to fix vehicle safety recalls 
in a timely fashion. This raises very serious safety concerns for all 
consumers--whether it's a mom trying to get a recall on her own minivan 
fixed, or a family renting a car that is under recall. We need to do 
more to get these recalls fixed right away.
    Will you commit to personally ensuring that the Department provides 
strict oversight over manufacturers' recall policies, including making 
repair parts readily available to all who need them?
    Answer. I share your safety concerns regarding recalls for rental 
vehicles, and yes, I will certainly commit to ensuring that NHTSA 
carefully monitors how promptly recall remedies are made available. 
Under existing law, I understand that NHTSA can require a manufacturer 
to accelerate its recall program if it is not being implemented within 
a reasonable time.
Pipeline Safety
    Question 5. In 2010, a tragic natural gas transmission pipeline 
explosion occurred in San Bruno, California, killing 8 people and 
injuring 52 others. Since then, I have worked with other Members of 
this Committee to enact many new safety requirements into law--but much 
work still remains to be done.
    Will you commit to working to ensure: 1) continued progress on 
improving the safety of our Nation's pipeline infrastructure, and 2) 
providing strict Federal oversight to hold pipeline operators 
accountable for their safety measures?
    Answer. Thank you for your leadership in helping to secure passage 
of the Pipeline Safety, Regulatory Certainty, and Job Creation Act of 
2011 (Act). I believe the Act has given the Pipeline and Hazardous 
Materials Safety Administration (PHMSA) additional tools and authority 
needed to help achieve its mission. I understand that PHMSA has taken 
the lead on implementing this important safety legislation and 
completed all of the mandates that were due by January 3, 2013. If 
confirmed, I will ensure that everyone at PHMSA remains dedicated and 
committed to fulfilling the remaining mandates and improving the safety 
of our Nation's pipeline infrastructure.
Train Safety/Positive Train Control
    Question 6. Following a tragic train collision in Southern 
California in 2008 that killed 25 and injured 138, I worked with this 
committee to enact legislation requiring the installation of Positive 
Train Control (a collision avoidance technology) on major passenger, 
commuter, and freight lines by 2015.
    Will you commit to holding railroad operators accountable for doing 
everything possible to implement this technology on their systems 
quickly?
    Answer. I am a firm believer in the ability of advanced 
technologies, such as Positive Train Control, to reduce the potential 
for accidents such as those that occurred at Chatsworth, California, 
and Graniteville, South Carolina. I understand, however, that there are 
a number of significant technical and programmatic challenges 
associated with Positive Train Control implementation that the Federal 
Railroad Administration identified in its August 2012 report to 
Congress that must be successfully resolved to enable the successful 
deployment of this vital technology. If confirmed, I look forward to 
working with Congress to resolve these challenges.

    Question 6a. Will you also work with Congress to ensure the 
Department provides funding to assist railroad operators with the 
implementation of this technology?
    Answer. I understand that the President's FY 2014 budget for the 
Department of Transportation provides money for Positive Train Control 
installation on Amtrak and commuter railroads. I further understand 
that the costs associated with the procurement and deployment of 
Positive Train Control technologies are significant, and represent 
major capital expenditures by the railroad industry. Funding this 
effort, without adversely impacting service will be challenging and 
will require close collaboration between the Department and Congress. 
If confirmed, I hope to work with Congress to address Positive Train 
Control issues, as well as other critical national transportation 
infrastructure safety investment needs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Anthony Foxx
    Question 1. We must ensure the highest possible level of safety for 
children in and around cars. Do you believe the Department of 
Transportation and NHTSA should lead industry to develop, and adopt or 
require technology to improve children's safety in non-traffic related 
scenarios, such as back-over prevention requirements or alerts when a 
child may be left in a vehicle?
    Answer. I am very concerned about the safety of children in and 
around cars, and I am committed to finding the most appropriate 
countermeasures to reduce the frequency of incidents involving 
children. I understand that NHTSA proposed a requirement for 
improvements to passenger vehicle rear visibility to prevent backovers 
and is currently working on a final rule. NHTSA also has developed a 
national education campaign (through radio, online, social media, and 
stakeholders) to educate parents and caregivers about the dangers of 
heatstroke to children left in cars. Children are our most vulnerable 
population, and I take safety risks to children very seriously.

    Question 2. Do you think our communities are prepared for the 
unique mobility challenges of an aging population? Are there steps that 
you took as Mayor of Charlotte to ensure that area residents could 
comfortably age in place?
    Answer. Communities should help seniors stay connected as they age. 
One way to ensure connectivity is by offering communities a variety of 
transportation options, including transit, walking, and biking. As our 
demographics shift, so will the need to improve safe and effective 
transportation options for seniors. Whether the transportation 
activities include increased sidewalks, improved bus services, safer 
curbs, adjustments to pedestrian signal timing, or increased safety for 
older drivers, we must be prepared to provide transportation choices 
that accommodate the unique mobility challenges of an aging population.
    During my tenure as Mayor, I took numerous steps to ensure that 
area residents could comfortably age in place. With initiatives such as 
the light rail blue line extension and Charlotte Streetcar Project, I 
strove to put all Charlotte residents in close proximity to good 
transportation choices. To enable new housing choices for seniors along 
new transit corridors, we also have adopted significant land use plans 
of pre-zoned adjacent parcels for dense, multi-family accessible 
dwelling units.
    More specifically, through the Charlotte Area Transit System's 
(CATS) program, Seniors in Motion, CATS serves to provide seniors the 
mobility and freedom to maintain their lifestyles. As part of the 
program, CATS staff visit seniors at residential facilities, church 
groups, and senior centers and introduce their services to interested 
parties. CATS staff members take seniors on demonstration rides, assist 
them with reading public timetables, and answer any questions they may 
have about using the system, which runs throughout the city. Notably, 
because seniors ride for half price on CATS, the service is more 
affordable to them.

    Question 3. Aviation manufacturing is an important industry in 
Florida, with commercial and general aviation manufacturing providing 
good jobs. For this industry to grow the FAA must efficiently certify 
their products, unfortunately, the current system suffers frequent 
delays. FAA Administrator Huerta has sought to improve the system, but 
improvements must be implemented moving forward. Do you think that 
improving the certification process is a priority for the FAA?
    Answer. I believe that the FAA is continually improving the 
certification process to enhance the industry's ability to bring 
products to market quicker and make them more competitive in an 
international arena. If confirmed, I will support Administrator 
Huerta's initiative to improve the system.

    Question 4. Domestic shipbuilding and repair is important for our 
maritime industry and our national defense preparedness. As Secretary 
will you be supportive of the Jones Act and of programs to maintain the 
strength of our maritime industry?
    Answer. If confirmed, I would support the Jones Act and the 
programs available to maintain the strength of our maritime industry, 
including proper funding and administration of the Maritime Security 
Program. The America's Marine Highways program also could be used to 
offer an important new market for Jones Act vessels. I would work 
closely with the Department of Defense, industry, and labor to monitor 
the health of the U.S.-flag fleet, facilitate the retention of vessels 
and mariners, and develop a national sealift strategy that ensures the 
long term viability of the U.S. Merchant Marine as a naval auxiliary 
and as a U.S. presence in international trade. I would work to ensure 
the viability of the cargo preference programs by providing efficient 
administration and regulation, while gaining a broader base of support 
through education and a transparent approach to enforcement. I would 
continue to promote the education and preparation of individuals 
entering the maritime workforce through the U.S. Merchant Marine 
Academy and by providing assistance to the six State maritime 
academies.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Anthony Foxx
    Question 1. I-5 Skagit River Bridge. Mayor Foxx, as you're well 
aware, on May 23, 2013, the northern-most span of the Interstate-5 
Skagit River Bridge in Washington state collapsed after being struck by 
an oversized vehicle. Secretary LaHood has pledged the full support of 
USDOT and the Federal Highways Administration in establishing a 
temporary repair by mid-June, and a permanent repair by late September 
2013.

  <bullet> Can I have your commitment that you will do everything in 
        your power as Secretary of U.S. Department of Transportation to 
        support efforts to repair the Interstate 5 Bridge over the 
        Skagit River in Washington state?

  <bullet> Under MAP-21, transit is eligible for Emergency Relief 
        funding from the Federal Highways Administration. Can you 
        confirm that passenger rail transit service and van-pool 
        transit service are appropriate uses of Emergency Relief 
        funding? In Washington state, many alternatives will be 
        necessary to help reduce congestion on the temporary 
        replacement.

    Answer. If confirmed as Secretary, I would do everything in my 
power to support efforts to repair the I-5 Skagit River Bridge. 
Ensuring the continued safety and reliability of our transportation 
infrastructure is central to the responsibilities of the Secretary of 
Transportation, and, if confirmed, I would offer this same level of 
commitment regarding any other instance where our country's 
transportation infrastructure may be compromised by a similar event.
    With respect to the Emergency Relief program, I understand that 
transit service is only an eligible expense under the program when 
providing substitute traffic service around a damaged facility. The 
actual and necessary costs of operation and maintenance of ferryboats 
and additional transit service providing temporary substitute highway 
traffic service, less the amount of fares charged, are eligible for 
Emergency Relief funding.

    Question 2. Freight Mobility. As we've discussed, I'm glad that 
you've committed to continuing the national freight policy I worked on 
with Secretary LaHood, including continuation of the Federal Freight 
Policy Council and National Freight Advisory Committee. Freight 
mobility will be one of my top priorities in the next surface 
transportation reauthorization bill.

  <bullet> With that in mind, I'm interested in your initial thoughts 
        on what more can be done on the Federal level to improve 
        Federal freight mobility policy?

    Answer. I think we need a stronger multi-modal funding source for 
surface transportation that would include funding for freight projects. 
The President's proposal for a National Infrastructure Bank embodies 
most of what I consider important to include in such a program. It is 
multi-modal, so that funding can be directed to projects in whichever 
mode most effectively addresses the transportation problem we are 
trying to solve. It provides a national perspective on our 
transportation problems, so that we can focus funding on freight 
transportation projects that benefit the Nation as a whole. It uses a 
combination of grants and loans, so that we can provide funding and 
financing for a wide range of projects--both those that can generate a 
revenue stream and those that cannot--while leveraging our limited 
resources as much as possible. And it uses robust economic analysis to 
select projects that provide us with the greatest benefits relative to 
their costs. But to make such an infrastructure bank effective, we need 
to have a robust freight planning process so that we can identify where 
the freight infrastructure investment needs of our Nation are greatest. 
MAP-21's requirement for a National Freight Strategic Plan is a good 
start in that direction. Finally, we need to make effective use of the 
performance management provisions in MAP-21 so that we can keep track 
of where our freight transportation system is performing well, and 
where it needs improvement.

    Question 3. Last Mile Connections. Mainline capacity--whether for 
waterways, highways, or rail--is important to the movement of goods. 
But many major freight bottlenecks occur in the ``last mile'' as goods 
are arriving to, or leaving, a major transfer point.
    Washington state has been taking a strategic look at freight 
planning for more than a decade now, and--building on those plans--our 
state freight investment board has invested more than $100 million to 
address those last mile challenges. The funding comes from a mix of our 
state gas tax and transportation fees.
    One dollar of state investment board money leverages five dollars 
in private, local, and Federal investment--putting nearly four hundred 
million into critical projects over the past decade. But despite this, 
there is still a lot more need.

  <bullet> In light of your experience in Charlotte with the new 
        intermodal hub, do you believe that states, local governments, 
        and industry have enough resources to address last mile and 
        intermodal connection infrastructure needs?

  <bullet> If not, do you believe that we need stronger Federal role 
        for assisting last mile and intermodal connections, which are 
        key components of our national network? Or are they more of a 
        state and local transportation policy issue?

    Answer. The short answer is ``no''--we don't have enough resources 
to address critical last-mile and intermodal connections. There are a 
large number of freight projects that are delayed or not built at all 
because of lack of funding. The experience of DOT's TIGER Grant program 
has been that many highly recommended projects, including freight 
projects, lack the necessary funding. These projects often have wide-
ranging benefits on the overall global competitiveness of the United 
States, so it is important for the Federal Government to take the lead 
in funding them.
    Transportation policy is a partnership, where the Federal 
Government needs to partner with State and local governments to ensure 
that these national needs are met. Freight supply chains are often 
interstate or international in scope, so it is important for the 
Federal Government to have the resources to provide the transportation 
networks needed to support these supply chains. The National Freight 
Strategic Plan, which DOT is directed to develop under MAP-21, will 
allow the Federal Government to identify those last-mile and intermodal 
connectors that are most critical for the Nation's economy, and we must 
all work together to create capacity to these projects in place.

    Question 4. Highway and Vehicle Safety, and Unsecured Loads. Mr. 
Foxx, one thing that I am interested in is the collection of data and 
the safety issues associated with unsecured loads--that is, goods being 
carried by vehicles that are improperly tied down to the roof, trunk, 
or truck bed.
    The GAO looked into this issue in November 2012 and found that 
while unsecured loads are a safety risk, improvements must be made to 
data collection so that NHTSA can better understand the scope of this 
problem. According to the report, NHTSA is updating its current data 
collection system this year and is likely to recommend changes to the 
Model Minimum Uniform Crash Criteria during the next update cycle.
    We do know that in 2010, there were 51,000 crashes and 440 known 
fatalities resulting from a vehicle striking a non-fixed object in the 
roadway; unfortunately, the exact number of crashes due to unsecured 
loads versus natural elements (for instance, a fallen tree) is unclear. 
However, the Environmental Council of the States (ECOS) believes that 
our Nation spends $11.5 billion dollars on litter cleanup, education, 
and/or disposal programs--and between 20 to 40 percent of all litter 
found on roadways comes from unsecured loads.

  <bullet> Could you share your thoughts on what you would do as 
        Secretary about unsecured loads and their impact to driver 
        safety and our environment?

  <bullet> Can you discuss your broader approach to highway and vehicle 
        safety and how you will continue making it a priority for 
        USDOT?

    Answer. I agree both that this is an important highway safety 
concern and that data deficiencies, plus the Federal Motor Carrier 
Safety Administration's jurisdictional limitation to commercial 
vehicles, means that more effort is needed in this area. I would place 
greater emphasis on data collection improvements if confirmed and try 
and raise public awareness of the risks of unsecured loads. More 
broadly, safety across all transportation modes would be my highest 
priority if confirmed as Secretary. I believe that a comprehensive 
approach, including heightening public awareness, such as Secretary 
LaHood has done successfully in the case of distracted driving, 
enacting good laws, and promoting effective enforcement would 
contribute significantly to real progress.

    Question 5. Jones Act. Mayor Foxx, as you know, the Obama 
Administration strongly supports the Jones Act. I also support the 
Jones Act because it preserves American shipbuilding capacity, fosters 
a highly skilled maritime workforce, and provides our government, when 
we need it, access to a U.S.-owned and operated fleet. Can I count on 
your strong support for this fundamental American maritime law?
    Answer. Yes, if confirmed, I will continue the Department's strong 
and historic support of compliance with the Jones Act.

    Question 6. Long Term Challenges for Investment. Mayor Foxx, as you 
know, the projections for the highway trust fund are fairly dire--the 
Congressional Budget Office estimates that bringing the trust fund into 
balance in 2015 would require cutting obligation authority under 
current law from $51 billion to $4 billion, or raising motor fuel taxes 
by 10 cents per gallon.
    At the same time, our infrastructure is struggling under our 
current rate of investment, with roads and transit systems ranked a 
``D'' by the American Society of Civil Engineers. And the United States 
was ranked 20th internationally for the quality of road infrastructure 
by the World Economic Forum.

  <bullet> Mayor Foxx, can you discuss your thoughts on how America can 
        adequately invest in infrastructure when the challenges--and 
        trust fund shortfall--is so large?

  <bullet> Do you believe that transportation financing tools--like 
        bonds and the Federal Transportation Infrastructure Finance and 
        Innovation Act (TIFIA) loan program can meet our current 
        infrastructure needs? Can you share how financing and Federal 
        funding work in tandem for cities that need to make 
        transportation improvements?

    Answer. As the President has stated, we need to invest more 
resources in our infrastructure. Particularly when interest rates are 
low and Americans need the jobs that can help us recover from the 
recession, we should be spending more on the transportation networks 
necessary to enhance our economic competitiveness. Also, clearly, the 
Highway Trust Fund will not provide the resources required to meet our 
transportation infrastructure needs. That is why I continue to support 
the President's National Infrastructure Bank proposal, which brings to 
bear all the resources of the Federal Government on addressing these 
critical transportation investment requirements. The National 
Infrastructure Bank concept uses a combination of grant and loan 
funding to leverage and stretch our dollars as far as possible. 
Transportation financing tools like TIFIA, the Railroad Rehabilitation 
and Improvement Financing program (RRIF), and Private Activity Bonds 
are valuable options, but they cannot meet all of our needs. Some 
projects, by their nature, cannot generate the revenue streams that are 
necessary to repay the capital borrowed under these financing 
approaches. So we need to have surface transportation grant funding at 
the Federal level to address needs that cannot be met by financing 
approaches. In developing the Charlotte Regional Intermodal Facility, 
for example, we used a combination of funding from the Norfolk Southern 
Railway, which would be repaid from Norfolk Southern's revenues, and 
grant funding from the State and Federal Government (with complementary 
roadway improvements paid for by the City of Charlotte). We could not 
have paid for it if we had relied solely on loan financing repaid from 
the facility's revenues.

    Question 7. Municipal Bonds. Mayor Foxx, as you know, the tax 
status of municipal bonds is under debate. Can you discuss if you used 
municipal bonds during your time as Mayor of Charlotte, and the 
potential impacts removing the tax-exempt status of these bonds would 
have on the ability of state and local government to fund needed 
transportation infrastructure projects?
    Answer. Charlotte, like many cities around the country, relies on 
flexible financing mechanisms such as municipal bonds to address 
infrastructure needs. We have made roadway improvements, expanded the 
airport, and built new police and fire stations through tax exempt 
municipal bonds. As a Mayor, I know how much basic state and local 
infrastructure relies upon this financing tool. As our country works to 
reduce deficits in a balanced way, I look forward to sharing my 
perspective as a product of local government within the Administration.
    I would also note that the President's Budget presents a 
comprehensive economic plan that on net provides substantial additional 
support for infrastructure, and additional funding for ongoing surface 
transportation investments; proposing a ``Rebuild America Partnership'' 
to leverage private capital; and turning off the sequester.
    As part of that comprehensive plan, the President's Budget calls 
for $1.8 trillion of balanced deficit including entitlement savings, a 
$50 billion up front-infrastructure investment, and $580 billion of 
additional revenue from closing loopholes and reducing high-income tax 
benefits. The Budget would obtain this revenue in part by limiting the 
value of high-income tax benefits to 28 percent.
    Whether one looks at the broadest elements in the budget or focuses 
on the package that was put forward as an offer to the Republicans 
House leadership, one thing that remains the same is a commitment that 
the budget be a net positive for infrastructure. While the President 
understands that no one gets 100 percent of what they want in a budget 
agreement, he also is clear that he would only support a budget that, 
on net, includes provisions that led to State and local governments 
being in a more positive position to invest in the modern 
infrastructure our economy needs for both jobs and our future 
competitiveness.

    Question 8. Vehicle Miles Traveled (VMT). Mayor Foxx, as revenues 
deposited to the Highway Trust Fund revenues have continued to shrink, 
many people have begun debating how to better finance surface 
transportation programs, including the merits of ``Vehicle Miles 
Traveled'' (VMT) tax. As you know, transportation funding based on a 
VMT, rather than a gas tax like we currently have, would not be 
impacted by improvements to fuel economy standards and adoption of 
hybrid/electric vehicles--two of many factors currently eroding revenue 
deposited into the trust fund. While there are challenges to 
implementing a national VMT, a recent GAO report identified pilot 
projects around the country that are demonstrating ways to address 
privacy concerns and exploring appropriate, practical, and low-cost 
technology options for collections.

  <bullet> Can you share your philosophy related to VMT?

  <bullet> Do you believe that, if technological and privacy hurdles 
        are overcome, VMT is a viable option for sustainable long-term 
        revenue for transportation projects?

    Answer. Addressing funding issues for transportation requires close 
consultations within the Administration and with Congress, as well as 
with key external stakeholders. The President in his FY 2014 Budget 
proposed that savings from winding down military operations overseas 
should be go toward supporting significant new infrastructure 
investments through a long-term surface transportation reauthorization. 
I know others have made different proposals to achieve the similar end 
of funding this country's infrastructure needs. If confirmed, I will 
work with Congress on a bipartisan basis to find a solution to this 
challenging issue.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                              Anthony Foxx
    Question 1. Following Superstorm Sandy, the Northeast Corridor 
(NEC) was shut down due to flooding. To prevent future shutdowns, it is 
critical that the Department of Transportation (DOT) moves forward on 
Amtrak's Gateway Tunnel project, which would build a new, modern tunnel 
into New York under the Hudson River. The NEC is currently operating at 
95 percent capacity, and commuter demand is projected to double in the 
next 20 years. The project would expand service capacity and prepare 
the corridor for high-speed rail, all while hardening rail 
infrastructure against future storms. The Administration has previously 
committed their support for this project. Funding the Gateway project 
will take cooperation from federal, state, and local entities. Can we 
count on the Department's continued support for this critical project?
    Answer. Yes. I understand the Department is working closely with 
the regional stakeholders as the Gateway project develops. It is also 
my understanding that the Federal Railroad Administration, in 
developing a regional planning framework and a rail investment plan for 
future investments in the Northeast Corridor as part of NEC FUTURE, 
will analyze the long-term trans-Hudson capacity needs.

    Question 2. The Gateway project is estimated to cost $13 to $15 
billion. What existing or new tools would you recommend for financing a 
project of this magnitude?
    Answer. The private sector is currently playing a robust role in 
the development and redevelopment of the major train stations serving 
the Northeast Corridor, including Washington Union Station and Moynihan 
Station in New York City. Private investment in the commercial 
development in and around these stations has and will continue to 
provide a source of revenue for the development of the transportation 
functions of these stations, including new concourses and train halls.
    Furthermore, I am aware that as part of the NEC FUTURE planning 
process, the Federal Railroad Administration will also be evaluating 
potential funding scenarios, including private sector opportunities as 
part of a Service Development Plan for the Corridor. I also hope to 
review work that I understand was recently undertaken by Amtrak 
regarding potential private investment in the Northeast Corridor.

    Question 3. A provision in the ``Disaster Relief Appropriations 
Act'' (P.L. 113-2) effectively restricts Amtrak's ability to use 
funding appropriated to protect critical Northeast Corridor rail 
infrastructure from future storms and flood events. The law prevents 
Amtrak from utilizing its working capital to transfer funding between 
its capital and operating accounts as a condition of accepting the 
disaster relief assistance. Will you commit to working with me to 
address this issue?
    Answer. I understand that the law does effectively prevent Amtrak 
from being eligible to receive $86 million in funding to make the 
Northeast Corridor more resilient to future disasters and I look 
forward to working with you to address this important funding issue.

    Question 4. Unlike highways and transit, which receive dedicated 
long-term funding through the Highway Trust Fund, Amtrak's funding is 
subject to the annual appropriations process. This makes it difficult 
to execute complex, multi-year infrastructure projects needed to 
increase passenger rail capacity, improve reliability, and add higher-
speed rail service. Recent budget difficulties, such as sequestration, 
have made it difficult for Amtrak to plan for short-term and 
maintenance projects. The President's FY 2014 budget called for a 
dedicated, multi-year capital funding commitment for passenger rail 
development. As Congress looks to reauthorize Amtrak this year, will 
you support dedicated funding for Amtrak?
    Answer. I understand that the President's FY 2014 Budget Proposal 
includes dedicated funding for rail infrastructure and services through 
the National High Performance Rail System (NHPRS) program. The NHPRS 
program is proposed at $6.4 billion in FY 2014 to maintain, modernize, 
expand, and improve the Nation's rail capacity and services.
    This is part of the Administration's five-year $40 billion 
reauthorization proposal funded from a new Rail Account of the 
Transportation Trust Fund. Dedicated funding from the Transportation 
Trust Fund for rail would bring it to parity with other modes who can 
make educated planning decisions for capital investments and service 
levels based on predictable funding levels.

    Question 5. When will we receive the Administration's Amtrak 
reauthorization proposal?
    Answer. I understand that the President's FY 2014 Budget Proposal 
is intended to serve as a detailed blueprint for reauthorization, as 
well as a mechanism to enhance safety, modernize our infrastructure and 
workforce, meet growing market demand, and ensure transparency. If 
confirmed, I look forward to working with Congress to accomplish these 
important goals as soon as possible.

    Question 6. Superstorm Sandy devastated the region's transportation 
systems. New Jersey estimated more than $1 billion in damage and Amtrak 
estimated $336 million. Congress has appropriated $13 billion for Sandy 
transportation damage and future mitigation. Will you commit to working 
with me to ensure that New Jersey transportation systems get their fair 
share to rebuild stronger and prevent future damage from storms?
    Answer. Thank you, Senator, for your continued work and support of 
public transportation, especially as we continue to recover from the 
single greatest transportation disaster ever to hit our country.
    I can assure that I will continue to work with you and all 
stakeholders to ensure that the impacted transportation network is 
fully recovered and that we take the necessary steps to build a more 
resilient system better able to withstand future storms.

    Question 7. The U.S. airspace system remains the most complex air 
traffic control (ATC) network in the world, and the current ATC system 
simply does not have the capacity to accommodate projected traffic 
growth in a safe and efficient manner. Further, the air traffic control 
tower at Newark Liberty International Airport--one of the most complex 
and busiest airports in the country--is consistently understaffed. To 
maintain our global competitiveness, we must make substantial 
improvements to upgrade our aviation system by adequately supporting 
current air traffic control efforts and implementing Next Generation 
Air Transportation System (NextGen) modernization.
    At FAA Administrator Michael Huerta's 2010 confirmation hearing, 
Administrator Huerta committed to fully staff the Newark tower with 
certified controllers; however, as of April 2013, Newark had 22 
certified professional controllers--the recommended range is 29 to 36. 
Will you commit to ensuring that the Newark Liberty air traffic control 
tower is fully staffed with certified professional air traffic 
controllers by the summer of 2014? Please provide a plan for how you 
will meet this staffing level.
    Answer. I understand that some of the FAA's air traffic control 
facilities currently face staffing challenges. In addition, as a result 
of the reduced funding levels with sequestration, the FAA has a hiring 
freeze in place, which may only be modified with the approval of the 
Administrator. I will be pleased to work closely with Administrator 
Huerta to ensure that we have sufficient staffing levels at Newark and 
other facilities, given the budget constraints that the FAA is 
experiencing.

    Question 8. Additionally, a high rate of attrition among controller 
trainees continues to be an issue at Newark Liberty. In addition to the 
simulator at the tower, what steps will you and Administrator Huerta 
take to improve and increase training?
    Answer. I understand that the FAA is in the process of revamping 
training programs for controllers and technicians and I will be pleased 
to follow up with Administrator Huerta on the overall training strategy 
and schedule.

    Question 9. Budget cuts imposed by the sequester have threatened to 
disrupt the efforts of the more than 1,000 employees at the FAA William 
J. Hughes Technical Center in New Jersey--efforts critical to the 
successful implementation of NextGen. As the Department continues to 
face difficult budget decisions, what steps will you take to ensure 
efforts at the Technical Center to modernize our air traffic control 
system are not delayed?
    Answer. I understand that the FAA is continuing to analyze the 
effects of sequestration on the implementation of NextGen. The William 
J. Hughes Technical Center is an integral part of NextGen's success and 
I will be pleased to keep you updated on any effects of sequestration 
on the program and the facility.

    Question 10. Each year, on average 4,000 people are killed in truck 
crashes in the U.S. and another 80,000 are injured. Bigger and heavier 
trucks pose safety risks, including longer stopping distances and 
increased risks of rollover or trailer swaying. And long hours and 
demanding schedules contribute to truck driver fatigue, which has been 
recognized as a major safety concern and a contributing factor to fatal 
truck crashes--nearly half of truck drivers admit that they had 
actually fallen asleep while driving in the previous year.
    The 2012 surface transportation law, MAP-21, requires DOT to 
complete a two-year comprehensive study on the effects of increasing 
truck sizes and weights on our Nation's roads. Concerns have been 
raised by safety advocates about the contractor that was chosen to do 
the study because the contractor has previously done a number of 
studies in favor of heavy trucks.

  <bullet> Will you commit to working with the safety advocates to 
        address their concerns?

  <bullet> Additionally, will you take steps to make sure that there is 
        careful scrutiny of the key features of the study, including 
        the study plan, data collection and analysis, the work of the 
        contractor and subcontractors, as well as the Federal Highway 
        Administration's supervision of that work?

    Answer. Let me begin by assuring you that I understand that safety 
advocates have expressed their concern that the study be objective and 
free of any bias. I am aware that since the enactment of MAP-21, the 
Department has been working hard to accommodate requests to maximize 
stakeholder input, provide for independent peer review, and ensure the 
highest degree of impartiality of the entities that will be assisting 
with the study. Although I was not involved in the hiring decision of 
the contractor, if confirmed, I am committed to ensuring that the 
Department will waste no time in advancing work that will ultimately 
produce a comprehensive, objective, and data-driven report.

    Question 11. MAP-21 also requires the Department to complete a 
rulemaking to mandate all commercial trucks have Electronic On-Board 
Recorders, which help monitor the number of hours that truck drivers 
can be on the road to reduce fatigue-related crashes. This rule has 
already faced some delays. Will you work to ensure that this rulemaking 
is completed and submitted to the Office of Management and Budget 
before the end of the year?
    Answer. If confirmed, I will work with FMCSA and the Office of 
Management and Budget to better understand the delays associated with 
this rule, and I will work toward accomplishing the requirements 
identified in MAP-21.

    Question 12. The National Highway Traffic Safety Administration 
(NHTSA) has been considering a rulemaking to require the installation 
of speed limiting devices on heavy trucks since 2011. However, the 
expected date for a proposed rule was recently delayed by another six 
months, until December 2013. Will you commit to working with me to 
ensure that this rulemaking is completed in a timely manner?
    Answer. If confirmed, I commit to working toward the completion of 
this rulemaking as expeditiously as possible.

    Question 13. MAP-21 requires NHTSA to issue eight regulations to 
improve motorcoach safety. Will you ensure that the basic motorcoach 
safety regulations are issued within the timeframes in the statute and 
without delay?
    Answer. I understand that the motorcoach safety regulations in the 
Motorcoach Enhanced Safety Act of 2012 are in various stages of 
development, and in one case, nearly completed. If confirmed, I will 
ensure that the Department does its best to meet the balance of its 
responsibilities within the timeframes identified in MAP-21.

    Question 14. Although driving injuries and fatalities have 
decreased significantly over the past several decades, alcohol-impaired 
driving continues to result in more than 30 percent of motor vehicle 
fatalities. In 2011, 9,878 people were killed in drunk driving crashes, 
and 50 to 75 percent of drunk drivers whose licenses are suspended 
continue to drive.
    The Centers for Disease Control and Prevention found that re-arrest 
rates for drunk driving decreased by 67 percent for convicted drivers 
that had ignition interlocks as compared to those who just had their 
license suspended. What would be the safety benefits of requiring 
ignition interlocks for all first time drunk-drivers?
    Answer. Ignition interlocks have been shown to be highly effective 
in preventing repeat drunk driving offenses when installed on vehicles 
driven by drunk driving offenders. This preventative effect has been 
demonstrated for both those who have been convicted for their first 
drunk driving offense and those who have had one or more previous 
offenses. If confirmed, I will ensure that DOT continues to support the 
strategy of requiring that drunk drivers use ignition interlocks and to 
continue the progress that DOT has made in reducing the problem of 
drunk driving.

    Question 15. Since 2008, the auto industry has collaborated with 
NHTSA to invest in emerging technologies that would stop drivers from 
operating a vehicle if drunk, such as Driver Alcohol Detection System 
for Safety technology. The Insurance Institute for Highway Safety 
estimates the project, once fully realized, could save 7,000 lives each 
year. How can DOT expedite the technology development?
    Answer. I understand that DOT is currently in discussions about a 
new research and development agreement with auto industry partners. The 
new agreement could represent a significant increase in the 
Department's investment in technologies that would prevent drunk 
drivers from operating vehicles. This increased investment should allow 
additional technology development and testing. If confirmed, I will 
ensure that DOT remains committed to these types of efforts and to the 
development of vehicle technologies that reduce the problem of drunk 
driving.

    Question 16. The American Society for Civil Engineers estimates a 
five-year investment need of $2.2 trillion to meet the needs of our 
Nation's infrastructure, including our Nation's rails, bridges, roads, 
transit systems, and ports. A number of proposals have been introduced 
that would create an infrastructure bank to finance and fund large-
scale, multimodal transportation infrastructure projects. The 
Administration has been supportive of utilizing both financing tools, 
such as the TIFIA loan program, and multimodal grant programs, such as 
TIGER, to build critical infrastructure.
    If you are confirmed, will you support including the authorization 
of a multimodal grant program in any national infrastructure fund or 
bank created to support transportation infrastructure projects?
    Answer. A well-functioning transportation system is critical to 
America's economic future, and we need to increase our investment if we 
are going to maintain a well-functioning system. I believe both 
financing programs, such as TIFIA, and grant programs, such as TIGER, 
have an important role to play.
    In the Charlotte area, we've taken advantage of both financing and 
grant programs to get projects off the ground and start investing in 
the future. Through the TIGER program, DOT has invested $18 million in 
our light rail system, expanding its capacity to meet larger than 
expected demand. Without the TIGER program, it may have taken several 
years to assemble the funding to make the necessary improvements. TIGER 
also provided $10 million in funding for the I-85 Yadkin River Bridge 
outside of Charlotte to help get that project moving. The I-77 HOT 
Lanes project North of Charlotte has received a Private Activity Bond 
allocation and is also pursuing a TIFIA loan.
    Some projects can generate a revenue stream, and can be financed 
with loan programs; other projects cannot generate a revenue stream, 
and must be funded with grants. Some projects require a combination of 
loans and grants. I think that an effective infrastructure bank should 
have available both kinds of funding, with multimodal eligibility, so 
that it can assemble funding packages that can combine grant and loan 
funding to meet the unique needs of each project. This will allow us to 
leverage our limited funds by using grant funds only when they are 
necessary for a project to move forward.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                              Anthony Foxx
    Question. Air Traffic Controllers and Towers. I am committed to 
investing in our Nation's infrastructure and making sure we have the 
safest skies from airport to airport, both large and small. I have 
fought with my colleagues to keep both towers open and controllers on 
the job.
    Will you commit to protecting the safety of our national airspace 
system and investing in local communities of all sizes with economies 
that depend on their local towers and air fields?
    Answer. I can assure you that safety will be my primary focus, and 
that I will do what I can to avoid furloughs and contract tower 
closures.
    Fortunately, the Reducing Flight Delays Act of 2013 (P.L. 113-9) 
provided FAA with the budget flexibility needed to end employee 
furloughs across the agency and keep low-activity contract towers 
originally slated for closure open for the remainder of Fiscal Year 
2013. The transfer authority allowed FAA to forestall some of the most 
acute impacts of sequestration to the flying public. However, as you 
well know, the current sequestration environment, if it continues, will 
require painful choices in the future, particularly at FAA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                              Anthony Foxx
Infrastructure Bank
    Question 1. It is clear that we need solutions on how to make the 
necessary investments in our Nation's infrastructure. We cannot fill 
that hole with additional Federal spending alone. We need to leverage 
private capital that, right now, is either sitting on the sidelines or 
being invested in other countries. To do that, I am proposing creation 
of a national infrastructure financing authority or revolving fund, 
modeled on the successful Export-Import Bank, that could use a modest 
one-time capitalization of $10 billion to leverage total project 
investment of $300 to $500 billion.

  <bullet> Is it your view that the TIFIA program has sufficient 
        staffing and resources to perform its duties, including all 
        credit and risk analysis?

  <bullet> Is it your view that U.S. infrastructure could benefit from 
        an independent self-sustaining Federal entity, isolated from 
        political influence, that could house a stable of credit and 
        project finance experts and provide low interest loans and loan 
        guarantees to viable infrastructure projects?

    Answer. It is my understanding that since the passage of MAP-21, 
the Department has taken a number of steps to implement the changes to 
the TIFIA program and expand the TIFIA Joint Program Office to meet 
increasing demand. If confirmed, I will work to ensure that adequate 
resources are available to carry out this program.
    I agree that finding sustainable funding for the Federal surface 
transportation program is an urgent challenge. Recently, President 
Obama reiterated his desire to create a national infrastructure bank. I 
believe this could be a great resource to help States invest in major 
transportation projects and create jobs in the process. If confirmed, I 
am committed to work with Congress and be part of the national 
conversation to find solutions on how to make the necessary investments 
in our Nation's infrastructure.
Performance Metrics
    Question 2. MAP-21 contained some good performance language, and 
they are currently working towards some proposed rulemakings on the 
subject. But, more work can be done to ensure we are looking across all 
modes, and moving towards a true linkage between funding and system 
performance.

  <bullet> What are your views on how we develop appropriate 
        performance measures?

  <bullet> How do you think we can move towards a more performance-
        based transportation system so that our precious dollars are 
        invested in the most cost-effective way?

    Answer. Good performance measures start with well-defined goals. We 
need to have a clear idea of what we want our transportation system to 
achieve, so we can design appropriate performance measures to track how 
well we are doing in achieving those goals. In setting performance 
measures, it is important to consult with stakeholders to develop 
measures that accurately measure performance and that are feasible for 
States and localities to implement. The Department should also be 
mindful that variances between states and localities and, sometimes 
even within states, will not lend themselves to a one-size-fits-all 
evaluation of performance data. In order to invest our resources in the 
most cost-effective way, we need to apply the best analysis from 
planning, engineering, and economics to assess what investments will 
have the most cost-effective impact on raising our performance. 
Providing more resources for multi-modal programs with broader 
eligibility is a good way to steer dollars toward the infrastructure 
projects that will improve our performance most cost-effectively.
Rail to Dulles
    Question 3. Secretary LaHood made it a top priority that we move 
forward with the Silver Line project that will bring metrorail to the 
Dulles International Airport and beyond, out into Loudoun County. A 
TIFIA loan is necessary to ensure that the three funding partners can 
move forward with phase 2 of this project. Can you commit to 
maintaining this project as a priority for U.S. DOT, and commit that 
U.S. DOT staff will maintain its effort and interest in moving this 
project forward?
    Answer. As it was a priority for Secretary LaHood, I can commit 
that this project will continue to be a priority for U.S. DOT. As a 
result of a Letter of Interest being submitted by MWAA, Fairfax and 
Loudoun Counties, three TIFIA loans--one to each borrower--are being 
evaluated. If confirmed, I will maintain U.S. DOT's effort and interest 
in moving this project forward.
NASA & Advanced Composites Certification
    Question 4. I have been working closely with NASA Langley and many 
industry stakeholders in the aeronautics field to bring about a public-
private partnership focused on accelerating the development of advanced 
composite materials for use in the aviation sector. The FAA plays a 
crucial role in this area, due to the fact that they are responsible 
for the certification of every component used in new aircraft. 
Therefore, it is essential that the FAA plays an active role in the 
Advanced Composites Initiative being led by NASA Langley and that FAA 
works closely with all partners through the development of advanced 
composite materials. Can you commit to working with me to ensure that 
FAA remains an active and constructive partner in this endeavor?
    Answer. It is my understanding that the FAA has had a long-standing 
relationship with NASA in Composite Materials as well as in other 
areas. If confirmed, I will work with you to ensure that the FAA 
remains an active and constructive partner in this endeavor.
FAA--One Engine Inoperative
    Question 5. I understand that the FAA is considering changes to its 
Part 77 determinations that would incorporate One Engine Inoperative 
(OEI) procedures. These procedures are currently conducted by airlines, 
and are dependent on the type of airplane involved, planned route, etc. 
The FAA change would result in a standardized rule nationwide that 
would also limit building heights near airports. My staff has met with 
some of the parties that might be affected by such a change, and I 
understand that the formula being considered by FAA would limit the 
heights of more than 4,000 proposed structures and about the same 
number of existing ones--including several hundred in Virginia. Given 
the huge impacts this change would have, many argue that a thorough and 
open rulemaking process is needed to ensure that all voices are heard 
before the FAA decides whether it will move ahead with the OEI issue. 
Can you provide any insight as to how you would approach this issue, 
and do you believe that there should be an open and thorough rulemaking 
process?
    Answer. The Charlotte/Douglas International Airport is the Nation's 
6th busiest airport. As Mayor of Charlotte, I had the opportunity to 
work with both the airlines and stakeholders on a range of issues. I 
understand how important it is to listen to all parties to ensure 
proper decisions are made. If confirmed, I will use my experience, 
along with the experience and research of the FAA, to further 
investigate this issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              Anthony Foxx
    Question 1. Shipbuilding generates jobs at U.S. shipyards and in 
supplier industries, and given the importance of sealift to overseas 
DOD operations, ensures the U.S. maintains an industrial base in a 
critical national defense industry. We have tightened environmental 
regulations on U.S. shipping recently with the air emission standards 
from the IMO's Emission Control Areas (ECA). This has caused many U.S. 
flagged carriers to need to make large capital investments in upgrading 
their fleet or building new ships. When we last had major new ship-
related environmental protection regulations under OPA '90 we used 
Title XI authorities to provide federally-backed loans to help shippers 
meet the new mandates. Is it appropriate to look to Title XI again to 
help shippers with the new mandates under ECA? The administration has 
not requested any funding for Title XI in FY14. Why not?
    Answer. I strongly support the mission of the Maritime 
Administration, which is to improve and strengthen the U.S. marine 
transportation system to meet the economic, environmental and security 
needs of the Nation. The Title XI program's existing funding capacity 
is estimated to provide over $400 million in loan guarantees.
    The Maritime Guaranteed Loan Program (Title XI) is only one of the 
programs that supports this mission. The TIGER program, Small Shipyard 
Grants, and the Capital Construction Fund also promote the growth and 
modernization of the U.S. merchant marine and U.S. shipyards.

    Question 2. There have been a large number of Jones Act waivers in 
recent years, including an unfortunate number of waivers during the 
Strategic Petroleum Reserve drawdown in 2011. While some waivers may 
occasionally be warranted, we want to ensure that Americans are capable 
of manning, building and maintaining ships in this country. What will 
you do to ensure waivers do not undermine confidence in the Jones Act?
    Answer. If confirmed, I would work to ensure that the Jones Act 
fleet is used to the maximum extent possible and that waivers are 
issued only when U.S.-flag vessels are unavailable. I also would 
continue working with industry and the Department's Federal partners to 
ensure that U.S.-flag vessels are used to the maximum extent possible 
in any drawdown of the Strategic Petroleum Reserve (SPR). In addition, 
I would carry out the direction Congress has provided in legislation to 
maximize the use of U.S.-flag vessels in any drawdown and to ensure 
transparency related to any waivers of the Jones Act.

    Question 3. The Navy strongly supports the Jones Act because of the 
importance of maintaining a strong domestic shipbuilding infrastructure 
and a skilled worker base. A recent GAO study said the commercial 
shipbuilding industry is more important than ever because of reductions 
in military spending. What will you do to keep our military 
shipbuilding capabilities strong and affordable?
    Answer. It is my understanding that new construction projects are 
creating the prospects of much stronger employment in U.S. shipbuilding 
in the future, replacing some of the void left from a reduction in U.S. 
Navy shipbuilding contracts. If confirmed, I would work to ensure that 
our shipyards and their workers remain employed and capable. I 
understand that the America's Marine Highway program is one mechanism 
that could provide an important new market for Jones Act vessels. 
Smaller shipyards are also benefiting from investments made under the 
Small Shipyard Grant Program, which enables them to produce or service 
vessels more efficiently.

    Question 4. America's maritime heritage is memorialized with the 
preservation of historic ships and lighthouses and support for maritime 
museums and other organizations that support the U.S. sea services and 
the merchant marine. Funding for the National Maritime Heritage grants 
program comes from the profits of scrapping ships in the National 
Defense Reserve Fleet. There is about $6M available from ship scrapping 
for a grants program that would support preservation and education 
projects, and create jobs. Paperwork on this was forwarded by MARAD to 
the DOT executive level, yet has not moved from there. Do you support 
continuation of this program to assist in preserving America's vibrant 
maritime heritage?
    Answer. If confirmed, I would continue to support preservation of 
America's important maritime heritage and the continuation of the 
Maritime Heritage Grant Program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                              Anthony Foxx
    Question 1. The successful completion of Honolulu's Rail Transit 
System is a top priority for Hawaii's transportation system and 
successful economic development. Rail transit will take about 40,000 
cars off of our roads each weekday, reduce congestion and connect 
people to jobs. Will you please confirm that the U.S. Department of 
Transportation (DOT) will honor the full funding grant agreement for 
this project and see it through to successful completion?
    Answer. If confirmed, I will work with you, FTA, and the Honolulu 
Authority for Rapid Transportation (HART) to complete Honolulu's Rail 
Transit System. I understand that FTA and HART expect the project to 
re-start construction this fall and that, subject to annual 
Congressional funding, FTA fully expects to advance the annual Federal-
funding increments set out in the full funding grant agreement for this 
project.

    Question 2. Bus operations in rural and small urbanized areas are 
extremely vital to the State of Hawaii. For example, the Maui Bus was 
one of the fastest growing bus systems in the country during its first 
five years of operation (it began operations in 2006) enjoying more 
than 100 percent growth rates year over year. The system now carries 
nearly 3 million passengers per year. The Big Island's Hele-on bus 
service, though smaller in total ridership has an equally important 
impact on Hawaii County. Unfortunately, both the Maui and the Big 
Island bus systems are nearly 3,000 miles from the closest Federal 
Transit Administration (FTA) Regional Office.
    Will you to look at the needs of these small, but vital systems and 
urge FTA: (1) to offer them the technical advice that they need and (2) 
to examine their operations and offer advice about effective use of the 
resources available to them? Time and distance can result in a lack of 
communication on the challenges these systems confront. Will you to 
support travel by FTA technical staff to meet with these agencies?
    Answer. If confirmed, I will work to provide assistance to rural 
areas on the Big Island and Maui. Similar to past assistance that FTA 
has provided for the completion of ferry harbor improvements on Lanai, 
Molokai, and Maui, FTA would extend resources to address the concerns 
and operations of the local bus systems.

    Question 3. For years, the Federal Government has used roadway 
design guidelines that fall far short of what is needed to protect 
cyclists and pedestrians, which has made streets unsafe for these 
vulnerable road users. Per capita vehicle miles traveled peaked in the 
U.S. in 2007. Recent studies have also shown that growing numbers of 
younger Americans are choosing not to get drivers licenses. People are 
cycling more and walking more, and thus pedestrian and cycling safety 
has to be a priority. Our nation's transportation needs and travel 
preferences are changing and DOT needs to continue to change with them.
    As Secretary, will you follow through on Secretary LaHood's plans 
to create a standard guide for modern streets that work for everyone 
who depends on them? When do you expect DOT to release new street 
guidelines?
    Answer. As Mayor of one of the country's fastest growing cities, I 
understand the importance of meeting the increasing needs of bicyclists 
and pedestrians and ensuring their safety. In Charlotte, I helped make 
significant progress in improving the bicycle network in our city, 
establishing a bike share system, and making pedestrian improvements, 
including connections to transit. I also supported a Complete Streets 
initiative that accomplished many of our important safety objectives. I 
admire the work that Secretary LaHood has done regarding building 
modern streets that work for all users. I understand he recently held 
two bicycle safety summits to bring together Federal, State, and local 
officials, planners, designers, engineers, law enforcement, safety 
experts, and others throughout the bicycle community to get input into 
these standards and to identify innovative ideas for improving bicycle 
safety in every community. I share Secretary LaHood's commitment to 
facilitating stakeholder discussions in this area, and these are 
efforts I would expect to continue if confirmed as Secretary.

    Question 4. In your confirmation hearing testimony, you discussed 
performance measures that DOT has to set under MAP-21. I am 
particularly interested in the performance measures on safety and what 
DOT will do to ensure that states measure the safety of all users, 
including bicyclists and pedestrians. As a share of overall roadway 
fatalities, bicycling and walking fatalities are on the rise and now 
make up 15.8 percent of all traffic fatalities. Unfortunately, few 
states prioritize non-motorized safety in their usage of Highway Safety 
Improvement Program (HSIP) funds. In fact, from FY 2007 to 2011, states 
used just 0.4 percent of their HSIP funds on non-motorized safety.
    Will DOT to create separate performance measures for motorized and 
non-motorized safety to help ensure that states examine their record on 
bicycle and pedestrian safety and take steps to improve it?
    Can you please describe how, under your leadership, DOT will ensure 
that the safety of bicyclists and pedestrians is addressed through 
performance measures without reducing the prevalence of biking and 
walking?
    Answer. Bicycling and walking are an increasingly important part of 
our transportation network, and offering the public safe transportation 
choices would remain a priority at the Department if I am confirmed as 
Secretary.
    I understand that MAP-21 limits the Secretary to establishing 
performance measures in specific areas. However, as the Department 
moves through the rulemaking process to create performance measures, we 
would consider this and all comments received.

    Question 5. Given your work as Mayor, you are aware of the value of 
Complete Street policies. How do you envision Complete Streets 
principles influencing Federal policy?
    Answer. As Mayor of a city that has been nationally recognized as a 
model for Complete Streets planning and design, this is certainly an 
area about which I care greatly. I think it is important to keep in 
mind that each community has a unique context, such that the 
transportation needs in one area may differ from the transportation 
needs in another area of the country. If confirmed as Secretary, I 
would look for ways to help ensure that each community has the tools it 
needs to make transportation decisions that accommodate growth, create 
transportation choices, and improve livability.

    Question 6. In 2009, U.S. Environmental Protection Agency (EPA) 
Administrator Lisa Jackson, U.S. Secretary of Transportation Ray 
LaHood, and U.S. Secretary of Housing and Urban Development Shaun 
Donovan created an interagency Partnership for Sustainable Communities 
to help improve access to affordable housing, more transportation 
options, and lower transportation costs while protecting the 
environment in communities nationwide. This interagency collaboration 
around a common set of Livability Principles has accomplished much and 
helped communities in all states--including Hawaii. In order for silo-
busting interagency efforts like this to succeed, clear, articulate 
direction and vocal, consistent support from the head of each agency is 
essential. This is particularly true at a time when DOT and EPA are 
both transitioning to new leadership.
    What will you do within the first 60 days of your tenure to clearly 
communicate to all DOT staff and external stakeholders that you intend 
to prioritize this partnership and the principles that guide it?
    Will you meet with HUD Secretary Donovan and EPA Administrator 
McCarthy (if she is confirmed) to discuss the future direction of this 
partnership within 90 days of your confirmation?
    Answer. I support the Partnership for Sustainable Communities and, 
if confirmed, look forward to continuing to work closely with HUD and 
EPA in the next few years. America is ready for better connectivity, 
more transportation choices, and better quality of life. I applaud 
Secretary LaHood's efforts to incorporate such principles throughout 
DOT's policies and programs, and I will continue to find ways to invest 
in providing transportation choices for local communities.
    As Mayor of Charlotte, I supported our city's efforts to become 
more livable and sustainable and welcomed the support of our Federal 
partners. In Charlotte, for example, funding from DOT was used to 
develop a new streetcar connecting people to the 10,000 jobs and array 
of top-flight medical services at Presbyterian Hospital. It will also 
connect to Central Piedmont Community College, whose students are all 
commuters, and the Charlotte Transportation Center for access to the 
Charlotte Area Transit System's many bus lines and Lynx light rail 
system.
    I am thrilled to continue working with Mayors across the country on 
similar projects, creating jobs and economic development by providing 
mobility choices.

    Question 7. Hawaii is one of the most remote inhabited places on 
the planet. This means that Hawaii has some unique transportation needs 
that make it very different from any other state. For example, we are 
more reliant on air and maritime transportation than other states. We 
have enjoyed a close working relationship with DOT to help address 
these needs. Will you commit on the record that DOT will continue to 
recognize and help address Hawaii's unique transportation needs?
    Answer. I am aware of Hawaii's unique transportation issues, and 
that DOT has made several investments in Hawaii's transportation 
facilities in recent years. The Maritime Administration established a 
partnership in 2005 with the Hawaii Department of Transportation, 
Harbors Division to assist them in developing and modernizing the 
various commercial harbors within the State. In establishing this 
program, the agency's role has been to provide Federal oversight and 
coordination of projects, to act as a central procurement organization, 
leveraging Federal and non-Federal funding resources, and streamlining 
the environmental review and permitting process. Approximately $3 
million has been spent for improvements at Kawaihae Harbor under this 
initiative.
    In 2009, the Department awarded a TIGER grant of $24.5 million to 
the State of Hawaii for improvements to the Pier 29 container yard in 
Honolulu. In 2011, Hawaii received another $13.5 million for 
improvements to Saddle Road on the island of Hawaii.
    The EAS program continues to provide a vital safety net for 
communities in Hawaii with a guarantee of air service to some of the 
most isolated communities in the Nation. All communities in Hawaii that 
received regularly scheduled air service from a certificated airline 
are guaranteed to continue to receive at least some level of scheduled 
air service going forward.

    Question 8. Modernization of our Nation's airport infrastructure 
and the air traffic control system is important to the efficiency of 
the Nation's air transportation system. The travel and tourism 
industry, which is a key economic driver in my home state of Hawaii, 
relies on the national airspace system to move approximately 750 
million passengers each year. It is expected that the number of 
passengers traveling by air will increase to one billion by 2015. 
Modernizing airport infrastructure and the air traffic control system 
will assist in eliminating flight delays and managing the increased 
passenger capacity.
    Given the importance of improving the Nation's airport 
infrastructure, what recommendations would you make, if any, for policy 
changes to ensure airports have adequate funding for infrastructure 
costs?
    Answer. The President's 2014 budget proposal includes an increase 
in allowable PFC collection authority per enplaned passenger for 
commercial service airports. This would give these airports greater 
flexibility to access capital funding sources with less reliance upon 
the Federal Government. If all commercial service airports increase the 
PFC collection to the level proposed in the President's budget that 
could generate significant additional annual funding sources for 
airport projects. There may be other ideas out there to be considered, 
and I look forward, if confirmed, to working with Congress and the 
Administration to finding a solution to this important issue.
                                 ______
                                 
    Response to Written Question Submitted by Hon. William Cowan to 
                              Anthony Foxx
    Question. We all know that our highway infrastructure is critical 
to our Nation's success, and also that it needs to be improved. Part of 
that improvement includes better ways to communicate and provide 
information to alleviate congestion while at the same time enhancing 
safety.
    What are your thoughts on how to improve our highway information 
and communications systems? Specifically, what are your thoughts today 
on the value of technologies that are (or will be) integrated into our 
highway system and vehicles?
    Answer. I understand that one of the most effective tools we can 
use to increase safety and reduce congestion on our roadways is 
technology. Intelligent Transportation Systems (ITS) applications 
connect information and communications technologies with 
infrastructure, and with State Department of Transportation partners, 
DOT has already deployed ITS applications for improved traffic 
management, mobility and emergency management across many sectors of 
the highway system. I am becoming more familiar with the work that the 
Department is doing with its partners in the private and academic 
sectors to develop technology that would allow vehicles to communicate 
with one another--vehicle-to-vehicle technology--and that would allow 
vehicles to communicate with the roadways, traffic signals, and other 
infrastructure--vehicle-to-infrastructure technology.
    I believe that this technology has the potential to significantly 
reduce the number of crashes on our roadways and save lives. That same 
connectivity also can help manage traffic on roadways, use the existing 
infrastructure more efficiently, and reduce congestion for drivers. 
Reduced congestion saves both time and fuel, and reduces emissions.
    While these technologies offer enormous potential, I would, if 
confirmed, want to make sure that these systems protect driver privacy, 
avoid driver distraction, and are secure. If confirmed, I look forward 
to working with the Department to ensure that the Department continues 
to work with its partners throughout the public, private, and 
university sectors to deploy this and other developing technologies to 
increase the safety and capacity of our roads.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                    on behalf of Hon. Sherrod Brown
    Question 1. If confirmed, will you ensure that the basic motorcoach 
safety regulations in the Motorcoach Enhanced Safety Act of 2012, 
included in MAP-21, are issued within the statutory timeframes and 
without delay?
    Answer. I understand that motorcoach safety regulations in the 
Motorcoach Enhanced Safety Act of 2012 are in various stages of 
development, and in one case, nearly completed. If confirmed, I will 
ensure that the Department does its best to meet the balance of its 
responsibilities within the timeframes identified in MAP-21.

    Question 2. The MAP-21's motorcoach safety regulations were based 
on longstanding recommendations made by the National Transportation 
Safety Board and was sponsored by members of the Senate and the House, 
supported by industry and safety advocates--including crash victims and 
their families. Can you give your pledge that you will do everything in 
your power to make motorcoach safety a top priority of your 
administration?
    Answer. Safety is my number one priority and, if confirmed, I am 
committed to improving motorcoach passenger safety. The Department is 
currently undertaking an extensive array of research activities and 
considering rulemakings to improve passenger safety on motorcoaches.
    The insights offered by bus manufacturers and operators, consumer 
advocates, the National Transportation Safety Board, researchers, and 
many others will be critical to developing a strategic approach for 
making motorcoach transportation safer for the American public.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                              Anthony Foxx
    Question 1. The Federal Motor Carrier Safety Administration's CSA 
(Compliance, Safety, Accountability) program is an enforcement and 
compliance model that targets motor carriers for safety reviews based 
on their scores in seven ``BASICs''. Many industry stakeholders have 
criticized CSA, and point to the fact that scores in some of the BASICs 
may not bear a statistical correlation to crash risk. They are also 
concerned about the publication of BASIC scores on the FMCSA website, 
and worry that it will cost some companies business unfairly. If 
confirmed, will you commit to conducting a comprehensive review of the 
CSA program?
    Answer. Safety is my number one priority. I believe the FMCSA team 
is working to increase safety through the CSA program, and I look 
forward to working with them as they continue to enhance the program.

    Question 2. The Passenger Rail Investment and Improvement Act of 
2008 (PRIIA) required that railroads install Positive Train Control 
(PTC) on all lines carrying passengers or toxic-by-inhalation 
materials, by December 31, 2015. Freight and passenger railroads have 
both expressed concerns about this mandate, and many railroads seem 
unlikely to meet the deadline. You worked with Norfolk Southern to 
construct the Charlotte Intermodal Regional Facility. During your work 
with them, did you ever discuss the PTC mandate? Would you support 
efforts in Congress to extend this deadline? How would you proceed if a 
freight or passenger railroad was unable to meet the deadline for PTC 
implementation?
    Answer. I did not specifically discuss PTC with Norfolk Southern. 
While I am aware of industry and U.S. Department of Transportation 
(USDOT) concerns with the implementation schedule, this technology is 
Congressionally mandated. If confirmed, I would examine this issue 
carefully and work with the rail industry to ensure compliance as soon 
as possible. My approach on these issues would depend highly upon the 
circumstances. Under my leadership, the Department would work hard to 
be a good partner with industry, Congress, and other stakeholders to 
achieve compliance and the safety objectives of the statutory mandate 
as an initial priority precisely to obviate the need for enforcement 
activity.

    Question 3. In your Committee questionnaire you cite several 
examples of major transportation achievements you have made in 
Charlotte as mayor, including breaking ground on the Charlotte 
Streetcar Project, extension of the LYNX light rail system, the 
Charlotte Regional Intermodal Facility, and a third runway at 
Charlotte/Douglas International Airport. As you note, this was all done 
``despite the resource-constrained environment in which we have had to 
operate.'' Can you provide an overview on how you were able to finance 
these specific projects? Please include the total cost of each project, 
as well as the amount of funds the city, county, State, Federal 
Government, and private partnerships contributed to each project. For 
Federal contributions, can you include the specific program these funds 
came from and if they were loans or grants (competitive, formula, or 
congressionally directed)?
    Answer. In 2010, the City Council set aside $12M in capital savings 
and submitted an application for an USDOT Urban Circulator grant, which 
we later received. The urban circulator grant (competitive) of $24.99M 
was awarded in 2010, and the total cost of the project is $37M.
    The Lynx Blue Line Extension (BLE) is the newest light rail project 
in Charlotte and is scheduled for service in 2016/2017. The projected 
cost of the project is $1.162B and is the largest single capital 
project in the history of Charlotte. The local match of $281M will be 
paid for using the local transit sales tax. The state of North Carolina 
has agreed to provide $299.1M in matching funds. We obtained a full 
funding grant agreement under the USDOT's New Starts Program of $580M 
(competitive) to complete the project's funding.
    Beyond these two projects, I initiated a transit funding working 
group composed of local business leaders, regional community leaders, 
and elected officials to develop a strategy for completing our transit 
plan, which is currently underfunded by $4.5B. The final report was 
released in May 2013, and calls for an array of revenue sources to 
complete the region's 2030 Transit Plan, including expanded transit 
sales tax, increased use of tax increment financing, municipal service 
districts, and other private-public partnership tools. This report will 
be the blueprint from which future regional leaders will seek State 
legislative approval to move the transit system forward.
    The Charlotte Intermodal Facility is a $92M public-private 
partnership. The City of Charlotte offers lease terms to Norfolk 
Southern for more than 166 acres of land having a fair market value of 
$9.7M. The annual lease payments will be ten percent of the fair market 
value. Norfolk Southern is also investing more than $76M in direct 
expenditures to construct the facility, which is also supported by a 
$15M grant from the Federal Rail Administration's Freight Intermodal 
Distribution Pilot Grant Program, which is administered by FHWA. The 
total cost of the intermodal facility is estimated at $92M.
    The third parallel runway was a $200M project and was supported by 
local airport enterprise funds ($70.3M), the North Carolina Department 
of Transportation ($3M) and Federal grants ($129.1M)--which as I 
understand it were funded through the Federal Aviation Administration's 
Airport Improvement Program.

    Question 4. When North Carolina received American Recovery and 
Reinvestment Act (ARRA) funds to build a high speed rail in your state, 
I understand that you led a bipartisan coalition of mayors to persuade 
the state legislature to accept the funding. Why did you decide to take 
on this cause, why do you think you were successful, and what was your 
biggest challenge?
    Answer. North Carolina received $461M of high-speed rail funds to 
pay for upgrades to tracks between Raleigh and Charlotte, to complete 
bridges and crossing safety improvements, to improve speed and 
reliability of passenger service, as well as station expansions in four 
cities along that path, and construction of a maintenance facility in 
Charlotte. Aside from these general statewide advantages, within the 
Charlotte area, the improvements benefit the Blue Line Extension and 
the proposed Red Line Commuter Rail from Center City Charlotte to the 
northern towns of Huntersville, Cornelius, and Davidson, reducing the 
cost of both projects. For example, the $129 million NS/CSX Grade 
Separation project in Center City Charlotte, which primarily benefits 
freight and intercity passenger rail passing through the City, provides 
secondary benefits to the proposed Red Line Commuter Rail project. In 
other words, the value of the investment could be leveraged across 
multiple long-range and short-range rail capacity enhancements in our 
area. We were successful because local communities, both rural and 
urban, and political leaders, both Democratic and Republican, joined 
together and made a forceful case that the investments gave our state a 
competitive edge. Our biggest challenge was that the bill to reject 
high speed rail funds was moving fast, and we had to pull together the 
coalition quickly.

    Question 5. In your Committee questionnaire you mention that as a 
member of the U.S. Conference of Mayors (USCM) you participated in 
legislative matters brought before the Conference. Please provide a 
list of any of these matters that were transportation related and 
explain the level and nature of your participation.
    Answer. I listed the USCM legislative agendas, which are approved 
annually by the full body of the Conference and always on a voice vote. 
The following are matters approved by the Conference during my tenure:

2010 Annual Meeting--Oklahoma City

Adopted Resolutions on Transportation and Communications:

http://usmayors.org/resolutions/78th_conference/
AdoptedResolutionsFull.pdf

  <bullet> Investing in America's Emerging High Speed Rail Network

  <bullet> The Tiger Grant Program

  <bullet> Improved Transit Funding

  <bullet> Promoting Sustainability and Local Economies Through Public 
        Transit

  <bullet> Streetcar Renaissance and Leadership

  <bullet> Calling on the Obama Administration to Create an Office 
        Dedicated to the Promulgation of Sustainability Principles 
        Practices and Policies

  <bullet> HUD, DOT, and EPA Partnership for Sustainable Communities 
        Support for Sustainable Development in Cities

  <bullet> America's Clean, Domestic, and Affordable Urban 
        Transportation Solution

  <bullet> Recommendations of the U.S. Conference of Mayors that a 
        National High-Speed and Intercity Passenger Rail Funding Source 
        Be Included in the Surface Transportation Reauthorization

2011 Annual Meeting--Baltimore

Adopted Resolutions on Transportation and Communications:

http://usmayors.org/resolutions/79th_conference/
AdoptedResolutionsFull.pdf

  <bullet> In Support of the President's High Speed Rail Initiative

  <bullet> A Metropolitan Transportation Reauthorization

  <bullet> Acceleration of Locally Sponsored Transportation Projects in 
        the Federal Program Through Local Grant Administration 
        ``America Fast Forward: Creating Jobs the Right Way''

  <bullet> In Support of Increasing the Passenger Facility Charge

  <bullet> In Support of the Use of Red Light And Speed Safety Cameras 
        to Reduce Injuries and Fatalities on Our Nation's Roads

2012 Annual Meeting--Orlando

Adopted Resolutions on Transportation and Communications:

http://usmayors.org/resolutions/80th_conference/

  <bullet> Federal Funding for Pedestrian and Bicycle Programs

  <bullet> In Support of Alternative Modes of Transportation, Such as 
        Bikesharing Programs, As a Means to Increase Transportation 
        Mobility and Mode Choice

  <bullet> State Substitution for NEPA Resolution

  <bullet> Capital Investment Grant Program

  <bullet> America Fast Forward: Rebuilding Our Infrastructure and 
        Generating Jobs

  <bullet> In Support of High Speed Rail

  <bullet> National Exports and Ports Policy

  <bullet> Require that the U.S. Department of Energy Focus on the 
        Treatment and Storage of Radioactive Waste On-site Where 
        Appropriate to Mitigate Health and Environmental Risks of 
        Transporting Low, High and Mixed Level Waste to Offsite 
        Treatment Facilities

  <bullet> Supporting Electric Vehicles

    Question 6. The Maritime Administration has indicated that as a 
result of sequester participants in the Maritime Security Program (MSP) 
will receive only part of their monthly stipend in August 2013, and 
will receive no stipend in September 2013. If confirmed, are there 
steps you can take as Secretary to prevent vessels from leaving the 
MSP, or to otherwise mitigate the impacts of sequester on the MSP?
    Answer. If confirmed, I would make certain that all available 
funding in Fiscal Year 2013 is accounted for in order to be available 
to the agreement holders to minimize the shortfall in funding. I would 
also work to ensure that the Maritime Administration continues to 
engage in open dialogue with the MSP agreement holders so that they can 
adequately plan and prepare for any financial shortfall.

    Question 7. Are you familiar with the Federal Highway 
Administration's use of ``Project Labor Agreements'' on large scale 
Federal procurement projects? Do you feel that the way they are 
currently utilized is appropriate and beneficially to taxpayers?
    Answer. In February 2009, President Obama issued Executive Order 
13502 on the use of project labor agreements (PLA) for Federal 
construction contracts. I believe that PLAs are beneficial to taxpayers 
because they assist in promoting the economical, efficient, and timely 
completion of construction projects. The Executive Order specifically 
permits the use of project labor agreements in connection with large-
scale construction projects receiving Federal financial assistance, 
including projects financed by the Federal Highway Administration.

    Question 8. The Federal Government currently limits the length and 
weight of trucks on certain highways, and in many cases these laws 
simply do not make sense, and actually have a negative impact on 
safety, highway maintenance, and the State's economy. For example, in 
South Dakota, several two lane highways have been four landed since the 
1991 LCV free took effect, yet LCVs are forced to use less safe two 
lane routes which were grandfathered, some of which increase trip 
lengths by hundreds of miles. Do you think it's time to reevaluate 
Federal policy and consider allowing states to make commonsense changes 
to their size and weight regulations
    Answer. I understand that Federal statutes limit the size and 
weight of trucks on certain highways. It is also my understanding, 
though, that the Department is currently conducting a comprehensive 
truck size and weight limits study that should help inform this exact 
issue. I understand that the Department is working hard to accommodate 
requests to maximize stakeholder input, provide for independent peer 
review, and ensure the highest degree of impartiality of the entities 
that will be assisting with the study. If confirmed, I am committed to 
ensuring that the Department will waste no time in advancing work that 
will ultimately produce a comprehensive, objective, and data-driven 
report to Congress.

    Question 9. Many motor carriers have begun conducting hair tests 
for drugs as they have found this testing method to be far superior to 
urine-based tests. In fact, these companies have found that a hair test 
is three times more likely to detect illegal drug use. Yet, the 
Department of Transportation will not accept the results of hair tests 
to meet regulated drug testing requirements. Knowing that hair tests 
can keep many more truck drivers who use illegal drugs off the road, do 
you think the Department of Transportation should encourage hair 
testing by allowing it to be used to meet regulated testing 
requirements?
    Answer. If confirmed, I will follow the U.S. Department of Health 
and Human Services' (HHS) drug testing guidance, and if HHS decides to 
recognize hair testing, I will work with the motor carrier and other 
regulated industries and all other affected parties to determine how to 
use hair testing to meet the Department's drug testing requirements.

    Question 10. In the past year both the Federal Highway 
Administration (FHWA) and the Federal Transit Administration (FTA) have 
taken the position that the Buy America Act applies to utility 
relocation work. In the case of FHWA, it appears that the agency would 
extend the Buy America Act requirements to projects being funded 
directly by cities or municipalities if the utility relocation project 
is related to a federally-funded project. Do you believe that the Buy 
America Act requirements should apply to utility relocations? If you 
are confirmed, would you commit to reviewing the current status of the 
FHWA and FTA interpretations of Buy America?
    Answer. I agree with supporting American workers. I further 
understand that MAP-21 amended the Buy America statute, and, those 
amendments have been interpreted to broaden the application of Buy 
America requirements to any contract eligible for Federal highway 
funding within the scope of an applicable National Environmental Policy 
Act document regardless of the contract's funding source, including 
utility relocation work even when not paid for with Federal-aid funds. 
I understand that Secretary LaHood has heard from concerned 
stakeholders about this issue. If confirmed, I will also engage 
stakeholders, and I would be happy to meet with you to discuss the 
Department's implementation of the provision.

    Question 11. As you know, MAP-21 replaced the Indian Reservation 
Roads Program with the Tribal Transportation Program and the Indian 
Reservation Roads Inventory was replaced with the National Tribal 
Transportation Facility Inventory (NTTFI). Can you provide the 
Committee with an update on recent actions of the Federal Highway 
Administration (FHWA) and the Bureau of Indian Affairs (BIA) to consult 
with tribes under this new program as well as the actions of the 
respective departments to update regulations used to determine the 
eligibility of roads to be added to, or remain in, the NTTFI? Can you 
also provide the Committee with information regarding the NTTFI quality 
assurance review and ongoing actions to improve the accuracy of the 
NTTFI? Can you provide a timeline for when the FHWA and BIA estimates a 
formal rulemaking will be completed for new regulations necessary under 
MAP-21, including those concerning the NTTFI, and when additional 
consultations will take place?
    Answer. Although I am not privy to the specific actions the FHWA 
and the BIA have taken to date, I am aware that the two agencies are 
facilitating discussions with Tribes under this new program in an 
effort to ensure meaningful consultation regarding the new program and 
the inventory. These are important discussions to have, and if 
confirmed, I am committed to ensuring that the necessary government-to-
government dialogue continues and that any required rulemakings are 
completed as expeditiously as possible, taking into consideration 
tribal consultation and all public comments received.

    Question 12. The Committee would like to understand obligation 
patterns for the programs of the Federal Aviation Administration (FAA). 
Please provide actual obligations for the last quarter of FY 2012 as 
well as the first two quarters of FY 2013 and estimated obligations for 
the remaining two quarters. Please provide this information by line of 
business and account.
    Answer. As a nominee, I am not personally familiar with the 
information requested but I understand that the Department and FAA have 
been in communication with your office on this request and have worked 
out an agreement.

    Question 13. As a result of the sequester which contracts were 
amended and what were the costs associated with these contract 
adjustments? What methodology did FAA utilize to revise contracts given 
the sequester? Have contracts been amended to include new language to 
give FAA the flexibility to adjust contracts subject to the 
availability of funds?
    Answer. As a nominee, I am not personally familiar with the 
specific information requested but I understand that DOT and FAA have 
been in communication with your staff on this request and will be 
providing information about the process used to review contracts for 
potential reductions. I am told that the majority of actions FAA has 
taken to date did not require contract modifications, but instead were 
decisions not to award new task orders or additional funding on 
existing contracts and not to award new contracts. I am informed that 
all FAA contracts, regardless of contract type, include clauses 
granting the agency flexibility in response to the availability of 
funding. I am informed that these clauses were included at award.

    Question 14. It has been reported that FAA contracts are 
susceptible to mismanagement and, as a result, can experience large 
budget overruns. What methodology is currently in use to safeguard 
against such mismanagement in the future? What new methods are being 
explored to safeguard against budget overruns?
    Answer. As a nominee, I am not personally familiar with the 
methodologies requested. I am informed that FAA has taken a 
multifaceted approach to contract management. I understand that methods 
include formal pre-and post-awards reviews by the FAA's finance, 
acquisition, and information technology offices, oversight of all 
significant acquisitions by the FAA's investment review board, and 
improved training of acquisition personnel. I am told that the FAA also 
uses earned value management and a variety of data mining techniques 
and metrics to monitor its contracts and look for opportunities for 
cost savings as well as detect possible problems. I am informed that 
effective review of proposed acquisitions, especially requirements for 
support services has allowed FAA to reduce redundant requirements/
solutions, ensure programs have adequate controls established to 
administer contracts and reduce overall agency risk associated with 
major acquisitions.

    Question 15. What other savings was realized due to the sequester 
that would impact the FAA's FY 2014 budget? What long term plans are in 
place to reflect a further commitment to finding savings in the FAA 
budget? Please provide this detail by account and by line of business.
    Answer. As a nominee, I am not personally familiar with the 
specific information requested regarding savings in the FAA budget that 
would impact the FY2014 budget. Unless we find a solution to 
sequestration, FAA will again be faced with making difficult choices in 
order to operate at a reduced funding level in FY 2014. If confirmed, I 
look forward to working with you, other members of Congress, and the 
Administration to find a solution to replace the across-the-board 
budget cuts mandated under sequestration with balanced deficit 
reduction that restores critical services to the American public. Even 
if we do not reach such a solution, I am committed to working with you 
to make every effort to preserve safety and efficiency of our national 
airspace system as we implement these painful cuts.

    Question 16. FAA has indicated that in January 2013, the Agency 
granted ``pay increases'' (including, but not limited to OSIs, SCIs, 
and cash awards) to a quarter of the agency's 45,000 employees. When 
were these increases approved, and what was the total dollar amount 
provided in January? (Please provide details on the breakout by 
appropriations account and by line of business.)
    Answer. As a nominee, I am not personally familiar with the 
specifics of this decision. I understand, however, that in 1996, 
Congress passed a law directing the FAA to create a compensation system 
that provided greater flexibility to address the ``unique demands on 
the agency's workforce.'' In response to this directive, I understand 
that the FAA replaced the general schedule pay scale with a 
compensation system designed to incorporate pay for performance 
measures in order to operate more efficiently and effectively as an 
organization. Under FAA's Core Compensation system, general increases, 
longevity-based step increases, and quality step increases paid under 
the Federal General Schedule system were eliminated and replaced with 
two new types of annual performance-based increases: Organizational 
Success Increase (OSI) and Superior Contribution Increase (SCI). Using 
OSI and SCI, FAA ties agency performance and individual performance to 
employee annual pay.
    I am informed that in January 2013, in accordance with the Core 
Compensation system, approximately one quarter of FAA's 47,000 
employees and operational managers received a small pay increase 
averaging 1.6 percent.

    Question 17. It is our understanding that as a result of collective 
bargaining agreements with employee unions, many FAA employees will 
receive 1.6 percent pay increases this June unless a prohibition of 
within grade step increases is enacted by statute. What is the 
projected cost of these pay increases for FY 2013 and FY 2014 that are 
guaranteed by the union contracts? Will the FAA need to adjust any 
spending plans to accommodate such pay increases? Given the tight 
budget environment for the foreseeable future, how will you balance 
employees' requests for higher pay with the need to deliver a safe and 
efficient national airspace system within budget realities?
    Answer. While I am not familiar with the details of these 
agreements, I am informed that approximately 25,000 FAA employees, 
including air traffic controllers, technicians, and engineers, will 
receive pay increases this June as required under their collective 
bargaining agreements. A core component of preserving our safe and 
efficient national airspace system is ensuring we retain a qualified, 
well-trained workforce.

    Question 18. It is our understanding that reemployed annuitants and 
term employees were separated from service due to the sequester. How 
many of these types of employees did the FAA and DOT have? How many 
were separated? How much money did those separations save the FAA and 
DOT compared to full time employees?
    Answer. As a nominee, I do not have personal knowledge of the facts 
requested. However, I understand, as of today, 168 of FAA's temporary 
employees and re-employed annuitants have separated from service due to 
the agency's mitigating actions put in place after the sequester's 
mandatory budget cuts were imposed. I am further advised that the 
estimated FY 2013 cost savings for separations of FAA temporary 
employees and re-employed annuitants is $4.9 million in the Operations 
Account and $ 263 thousand in Facilities and Equipment.

    Question 19. The Charlotte Douglas International Airport(CLT) 
control controversy has been referred to in the press as your ``biggest 
struggle as mayor.'' This March, a bill passed the North Carolina 
Senate, and is expected to pass the House, to remove Charlotte Douglas 
International Airport from city control and hand it over to a regional 
authority. In May, a city-commissioned report by independent consultant 
Oliver Wyman also concluded that the airport should be governed by an 
independent authority, citing reduced political involvement in airport 
management and greater assurances that airport spending avoids 
expanding from government influence. Can you explain why an independent 
consultant hired by the city and the North Carolina Senate both 
proposed to transfer control of the airport away from the City of 
Charlotte now, after the City has successfully run the airport for over 
50 years?
    Answer. The North Carolina State Legislature appears to be on a 
path of converting all major airports within the State authorities. I 
note that similar legislation was passed last year to convert the city-
controlled Asheville airport into an authority. Having interviewed all 
stakeholders and considered the reasons offered by proponents of 
changing airport control, the independent consultant found:

        It is important to stress that our conclusion as to the best 
        form of governance for the Charlotte Airport is not based on 
        any real or perceived wrong-doing, mismanagement, or other 
        failing by the City of Charlotte. In fact, just the opposite. 
        As is well-recognized, the Airport has thrived under City 
        management, with the lowest costs among peers, a high customer 
        service ranking, and proven ability to plan and execute capital 
        expansion and improvement programs. The Airport has continued 
        to innovate, from rocking chairs to restroom attendants, to the 
        intermodal rail facility. Furthermore, during our interviews, 
        we did not detect any suggestion that the Airport suffers from 
        the issues/problems that have triggered additional oversight 
        and governance changes at other airports, such as patronage, 
        political favoritism, or contracting irregularities.

    The report further finds that the airport is ``the most unlikely 
candidate for a change in governance than any of its peers.'' Having 
reviewed the report, I believe the consultant reached a conclusion that 
an authority is an industry best practice and should be considered by 
the city irrespective of the current legislative effort.

    Question 20. In April, a Wall Street Journal editorial listed ways 
in which the City of Charlotte proposed to increase operating expenses 
and taxes at CLT airport, increasing air travel costs and potentially 
jeopardizing the airport's status as a hub. In a constrained 
sequestration budget environment, if confirmed will you ensure that 
airport operating expenses are minimized by maintaining vigilant 
oversight and enforcement of the law prohibiting airport revenue 
diversion? For example, would it be inappropriate to be build a rail 
yard for a city streetcar line on airport property using airport funds?
    Answer. To the first question, yes. Again, the Charlotte-Douglas 
International Airport remains one of the lowest cost, highest 
efficiency airports in the United States and recent cost concerns arose 
from a well-known, widely-publicized security breach in which a loss of 
life occurred. If anything, this should reinforce the importance I have 
placed on safety. Further, under my stewardship of the airport, there 
has not been a single instance of airport funds being diverted for a 
non-airport purpose. On the second question, I have supported using 
airport grounds for rail yards, as the aforementioned intermodal 
facility attests. Having said that, I am not aware of an instance in 
which Charlotte or any other city has ever proposed putting a ``rail 
yard for a streetcar line'' on an airport premises. There are, however, 
many positive instances of airports employing transit--either by bus or 
rail--to connect airport users to cities. If confirmed and presented 
with a request to use limited funds to support a transit connection to 
an airport, I would be guided by all applicable statutes, rules and 
regulations as well as competing proposals and national aviation needs 
in assessing whether to support such a connection.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Anthony Foxx
    Question 1. The future success of America's transportation system 
depends on its ability to connect all corners of America. If confirmed, 
what do you plan to do in order to ensure that America's transportation 
system serves all Americans, regardless of whether they live in urban 
or rural America?
    Answer. The desire for safe, affordable, and accessible 
transportation is shared by every American community, whether urban, 
suburban, or rural. If confirmed as Secretary, I will work to ensure 
that America's transportation system works for all Americans, not just 
those located in certain areas of the country. To accomplish this 
objective, I will work within the Department's Modal Administrations, 
stakeholders, and the public to develop policies and programs that 
provide states, MPOs, and communities a menu of options to consider 
when deciding whether to plan or implement transportation projects. 
This will ensure that the transportation resources and tools needed to 
address economic, environmental and social concerns for all communities 
are available and in-use.
    One great challenge we face is developing consensus in working on 
effective and appropriate ways to fund these investments. If confirmed, 
I look forward to working with you, the Administration, with Congress, 
and other stakeholders to address this critical issue.
    I am aware that MAP-21 provides new opportunities for the 
Department to connect all corners of America. The consolidation of 
existing programs and creation of new programs should help the 
Department strengthen our transportation system and better serve the 
American public. Like those in large metropolitan areas, rural 
Americans greatly depend on transit to access schools, jobs and job 
training. Our transportation system must meet the demands of a growing 
economy and provide efficiency in the movement of people and goods. 
Under my leadership, the Department will continue to focus on meeting 
the needs of large and small cities and rural areas.

    Question 2. The Reducing Flight Delays Act gave the FAA increased 
flexibility to fund air traffic controllers, contract towers, and other 
vital FAA programs. The act's passage showed that we can prioritize and 
make modest savings in our non-defense budget without inflicting 
painful service disruptions. Sadly this provided only a short term 
solution in our continually constrained budget environment. How do you 
plan to implement sequestration budget cuts across the department 
without service disruptions, furloughs, or cuts to important cost 
effective safety programs, such as the Federal Contract Tower Program?
    Answer. Safety is my number one priority. If confirmed, I will 
thoroughly review each Operating Administration's budget controls to 
ensure safety remains our top priority, and I look forward to working 
with Congress to ensure that transportation safety is not compromised 
due to sequestration. While the flexibility in the Reducing Flight 
Delays Act allowed the FAA to maintain its core safety functions, I am 
concerned that the cuts made to system modernization projects and 
airport improvement projects removes capital dollars that may not be 
replenished.

    Question 3. The maritime industry is by far the most economical 
form of domestic transportation, moving more than 1 billion tons of 
cargo annually at a fraction of the cost of other modes. The domestic 
maritime industry transports one-quarter of America's domestic cargo 
for just 2 percent of the national freight bill. America's domestic 
shipping industry is responsible for nearly 500,000 jobs and more than 
$100 billion in annual economic output. All of these advantages are 
dependent upon the Jones Act. I am interested in hearing your views on 
this important issue.
    Answer. If confirmed, I will continue the Department's strong and 
historic support of compliance with the Jones Act.
    I would also work to ensure that we have maximum use of the Jones 
Act fleet and that waivers are issued only when U.S.-flag vessels are 
unavailable. In addition, I would carry out the direction Congress has 
provided in legislation to maximize the use of U.S.-flag vessels in any 
future drawdown of the Strategic Petroleum Reserve (SPR) and to improve 
transparency related to any waivers of the Jones Act.

    Question 4. The Maritime Administration is responsible for 
administering the Maritime Security Program, which was recently 
reauthorized through 2025 in last year's NDAA. Under the reauthorized 
program, the Department of Defense will continue to have access to the 
U.S.-flag commercial assets--ships, mariners, and intermodal logistics 
networks--that transported 95 percent of the DOD supplies transported 
during Operation Iraqi Freedom and Operation Enduring Freedom. What is 
your position on the reauthorized MSP program and its importance to the 
maintenance of the U.S.-flag fleet?
    Answer. I understand the importance of the MSP program to the 
maintenance of the U.S.-flag fleet and fully support it. I further 
understand that the Department worked with Congress to ensure extension 
of the MSP as part of the National Defense Authorization Act of 2013, 
due to the critical importance of this program that maintains an 
international trading U.S.-flag fleet, owned and operated by U.S.-
citizen companies and mariners. At the present time, MSP carriers are 
considering committing to this new 10-year agreement extension to 2025. 
This long term commitment to 2025 of sealift and intermodal capability 
would be a significant decision given reduced government impelled 
cargos as a result of the military drawdown in Afghanistan and lower 
agricultural cargo levels. If confirmed, I would work hard to ensure 
the long term stability of the MSP program.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                              Anthony Foxx
    Question 1. In a time of decreasing resources for the Federal 
budget the Department of Transportation, like many Hoosier families, 
will have to do more with less and make hard decisions on where to make 
fiscal cuts. I can't imagine you would take on the responsibility of 
leading an organization like the Department of Transportation without 
doing substantial due-diligence into the challenges the organization 
faces.

  <bullet> As you've gone through and reviewed the department's 
        operations, what areas have you identified early on for 
        reorganization, consolidation, and elimination in order to 
        provide savings to the taxpayer?

  <bullet> How will you prioritize the Department's functions in order 
        to do more with less?

    Answer. Safety is my number one priority. If confirmed, I plan to 
thoroughly consider the Department's existing programs to find cost 
savings that do not compromise safety. I have not yet identified areas 
for reorganization, consolidation, and elimination, but I look forward 
to the opportunity to work with the people at DOT to find these 
efficiencies.

    Question 2. I'd like to discuss the concept of aviation user fees, 
which I hope you have done some in-depth research on given the city's 
management of the airport and the fact that you've been nominated to 
lead the DOT. I think the current mechanism for funding infrastructure 
and services via the fuel tax remains the best plan. The system for 
collecting these funds is simple and allows for any necessary increases 
to fund services or infrastructure enhancements to be easily 
implemented. The President continues to propose a $100 per flight user 
fee in his budget to fund everything from deficit reduction to air 
traffic control services. General and business aviation is very 
important to Indiana, and I continue to hear from Hoosiers who tell me 
that they are not opposed to paying more for such services, but the 
mechanism should be an increase in the tax on jet fuel and not user 
fees. I think this is the wrong way to fund our aviation system. What 
do you think about these user fees in general, and specifically will 
you be an advocate for the President's proposal?
    Answer. I support the Administration's goal of achieving balanced 
deficit reduction without compromising a safe and efficient national 
infrastructure system. While I am not privy to the policy 
considerations that went into the Administration's FY 2014 budget 
proposal, this issue presents one of the many tough choices we face as 
a Nation. If confirmed, I will work with Congress and all of the 
relevant stakeholders on this issue.

    Question 3. An issue that I know a number of us feel strongly about 
is the lack of responsiveness by the DOT to the members of the Commerce 
Committee. I personally have two letters that I have recently sent to 
the FAA and the DOT. The first is a letter from April 23, almost one 
month ago now, to Secretary LaHood and Administrator Huerta on the 
FAA's decisions relating to the sequester. The second is a letter from 
last week signed by 17 Senators to Administrator Huerta on bonuses at 
FAA. If confirmed, how will you improve the Department's and its 
agencies' responsiveness to the Committee's requests?
    Answer. It is my understanding that the Department has provided a 
response to both of the above mentioned letters. You have my commitment 
that, if confirmed, the Department's communication with Congress will 
be handled in a manner so as to provide accurate information as quickly 
as possible.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                              Anthony Foxx
    Question 1. In the past year, both the Federal Highway 
Administration (FHWA) and the Federal Transit Authority (FTA) have been 
taking the position that the provisions of the Buy America Act apply to 
utility relocation work, which is a new interpretation of that law. In 
the specific case of the FHWA, it appears that the agency would extend 
the Buy America Act requirements to projects being funded directly by 
cities/municipalities if the utility relocation project is part of an 
overall federally-funded project. Would you agree it important to 
assess the impact of extending these types of requirements on cities/
municipalities' current projects and those in the pipeline before such 
interpretations become effective?

  <bullet> Do you believe that a formal rulemaking would be a better 
        vehicle for DOT and its sub-agencies to examine whether these 
        types of requirements even apply to utility relocations and the 
        effect of taking that interpretation?

  <bullet> If you are confirmed as Secretary of Transportation, would 
        you commit to reviewing the current status of the FHWA and FTA 
        interpretations of the Buy America Act requirements and their 
        effect on cities/municipalities and affected utilities?

    Answer. I agree with supporting American workers. I further 
understand that MAP-21 amended the Buy America statute and those 
amendments have been interpreted to broaden the application of Buy 
America requirements to any contract eligible for Federal highway 
funding within the scope of an applicable NEPA document regardless of 
the contract's funding source, including utility relocation work even 
when not paid for with Federal-aid funds. If, in fact, MAP-21 requires 
this practice, I would be obligated to follow it. I understand that 
Secretary LaHood has heard from concerned stakeholders about this 
issue. If confirmed, I will listen to stakeholders, and I would be 
happy to meet with you to discuss the Department's implementation of 
the provision.

    Question 2. In the President's FY 2014 Budget, the Administration 
requested $6.6 billion as part of a proposal to upgrade current, 
intercity passenger rail systems to become high speed rail systems. Do 
you believe that expanding high speed rail in the United States should 
be a spending priority of the Federal Government? Knowing that we are 
facing a funding shortfall for transportation programs, how would you 
prioritize high speed rail funding compared to funding which updates 
outdated bridges and interstates?
    Answer. I believe that we should be multimodal in our national 
transportation approach and advance projects and programs that address 
our Nation's pressing transportation needs in the most cost-effective 
and market-responsive way, while also dealing with the state of good 
repair and safety needs of all modes. The President's budget request 
has proposed significant funding for both new rail infrastructure and 
``Fix-It-First'' activities on our roads, rails and bridges, and I 
support his approach.
    I do believe that intercity rail, including high-speed rail, shows 
promise and presents opportunities in many markets. Recently, for 
example, I understand that the Brookings Institution noted that rail 
has been the fastest-growing intercity travel mode during the past 15 
years in the US, suggesting that substantial market demand exists for 
further investments.

    Question 3. We all share a common goal of making our passenger rail 
networks safe. As part of the Passenger Rail Reauthorization in 2008, 
Congress required all train operators to have Positive Train Control 
systems operational on their locomotives and track by the end of 2015. 
If that deadline is not workable, either because of a lack of funding 
or, equally likely, because the technology to implement this new 
requirement simply isn't ready yet, would you support a move by 
Congress to delay the implementation date for PTC to be in use on all 
passenger rail systems?
    Answer. I strongly support the implementation of positive train 
control systems. I understand, however, that there are a number of 
technical and programmatic challenges associated with positive train 
control system implementation that may preclude the full deployment of 
positive train control on all required rail lines by the December 31, 
2015 deadline. If confirmed, I hope to work with Congress to further 
address positive train control issues.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                              Anthony Foxx
    Question 1. Aviation is important to Florida's economy, 
particularly general and business aviation. It is a billion dollar 
industry in Florida, and my constituents can tell attest to how vital 
general aviation is to get around the state and to conduct business, 
particularly in rural areas. But my concern is that some of the 
rhetoric and policies coming out of this Administration would hurt 
general aviation, including the attacks on corporate jets and the 
proposed user fees. Every time these comments are made, it impacts the 
general aviation community, a community that goes beyond the ``fat 
cats'' in corporate jets that the Administration likes to invoke. It 
involves aircraft manufacturers, pilots, repair stations, flight 
schools, and all the jobs and communities tied to these businesses.

  <bullet> If confirmed, will you commit to work with the general 
        aviation community and support the industry?

  <bullet> If confirmed, will you commit to avoiding rhetoric that 
        would negatively impact the general aviation community?

  <bullet> Please explain your views on general aviation and whether 
        you believe it is an important sector of our economy.

    Answer. I understand that support for general aviation (GA) is part 
of the Administration's goal to invest in the Nation's transportation 
infrastructure, and I will work to support this effort, including 
continued direct support to airports, improved safety, airport access, 
and level of service for GA operators through the NextGen Air 
Transportation System, safety enhancements, and improving access to 
information data.
    I recognize the critical role that GA plays in supporting jobs and 
generating significant economic activity for the country. If confirmed, 
I will work to support GA, and I look forward to opportunities to work 
with the GA community and industry moving forward.

    Question 2. Despite consistent rhetoric to the contrary, business 
aviation contributes significantly to our Nation's economy. Each year, 
over $150 billion are directly attributable to business aviation, which 
also provides over 1.2 million well-paying jobs. Unfortunately, many in 
Washington are under the false assumption that these tax incentives 
solely affect the wealthy. The tax depreciation of business aircraft 
are treated no different than investments in new equipment made by 
other types of business. Do you support changing the tax depreciation 
schedule for business aircraft, even though it could threaten an 
industry that supports so many good-paying U.S. jobs?
    Answer. I value the important contribution business aviation makes 
to the national economy. At the same time, I recognize that our Nation 
is faced with severe fiscal challenges that will require difficult 
choices balancing across all sectors of the economy.

    Question 3. The Administration has proposed $100 per flight user 
fees. What is your position on aviation user fees?
    Answer. I support the Administration's goal of achieving balanced 
deficit reduction without compromising a safe and efficient national 
infrastructure system. While I am not privy to the policy 
considerations that went into the Administration's FY 2014 budget 
proposal, this issue presents one of the many tough choices we face as 
a Nation. If confirmed, I will work with Congress and all of the 
relevant stakeholders on this issue.

    Question 4. In recent years there have been several cuts and 
proposed cuts to the FAA's Airport Improvement Program, which provides 
funds to airports for capital projects to enhance safety, capacity, and 
security. These include cuts to AIP to limit the impacts of 
sequestration, including the furloughs of air traffic controllers, as 
well as proposals to cut AIP in the President's budget, which are 
contingent upon finding another source of funding for airport projects. 
One alternative that has been suggested is allowing airports to 
increase their Passenger Facility Charge (PFC), which is a local fee 
used for airport capital projects. Would you support increasing the 
PFC?
    Answer. The President's 2014 budget proposal includes an increase 
in allowable PFC collection authority per enplaned passenger for 
commercial service airports. This would give these airports greater 
flexibility to access capital funding sources with less reliance upon 
the Federal Government. If all commercial service airports increase the 
PFC collection to the level proposed in the President's budget, that 
could generate significant additional annual funding sources for 
airport projects. This is one good option. As the President has said, 
and as I believe, if there are other ideas out there, they will be 
seriously considered.

    Question 5. If you are confirmed, a priority for DOT should be 
encouraging private sector initiatives and projects for all modes of 
transportation. With the funding issues facing transportation, the 
private sector must play a role in meeting our transportation 
challenges, and DOT will need to encourage public-private partnerships 
and private sector investment. One area of concern with respect to high 
costs is passenger rail. Currently, in Florida, there is an example of 
a private sector initiative to provide passenger rail: the All Aboard 
Florida project. If confirmed, will you commit to supporting private 
sector initiatives? Will you commit to reducing regulatory barriers and 
implementing expedited reviews of projects where the private sector is 
putting forth a viable project that will reduce the burden on 
taxpayers?
    Answer. There is little doubt that private investment can play a 
critical role in expanding our Nation's transportation infrastructure. 
Public-private partnerships (PPPs) can offer an innovative new delivery 
approach for some of our country's most complex and challenging 
projects when they are appropriately structured, when they provide 
better value as compared to traditional public sector delivery 
approaches, and when the underlying projects are well-aligned with 
public policy objectives. DOT's recent experience demonstrates that, 
when creatively utilized, the flexibility afforded by Federal credit 
assistance can be a powerful catalyst for PPPs, including complex 
projects involving multiple public and private sector stakeholders.
    The multi-modal TIGER program has also shown that many 
transportation infrastructure projects that have both public and 
private benefits and can be built quickly and effectively when the 
public and private sectors share the cost. The Crescent Corridor 
project, a multi-billion dollar collaboration between Norfolk Southern, 
the Federal Government, and several Southern States including North 
Carolina, will improve efficiency of freight moving through the 
Southeast, reducing carbon emissions and congestion on the interstate. 
It's a great example of how public and private investment can work 
together to improve our infrastructure.
    The President's Rebuild America Partnership proposal recognizes the 
important role private sector investment can play in transportation 
infrastructure. It strengthens existing programs such as TIFIA and 
Private Activity Bonds and introduces America Fast Forward Bonds to 
ensure that we continue to incentivize private investment in 
transportation infrastructure. If confirmed, I will support these 
efforts wholeheartedly.

    Question 6. If you are confirmed, I encourage you to look closely 
at Amtrak's operations and find opportunities for the private sector to 
increase revenues so the burden on taxpayers can be lessened. One such 
area would be at finding a private sector partner to increase non-rail 
revenues along the corridor. An example is in my state--the All Aboard 
Florida passenger rail project is trying to meet this need. Will you 
look at reducing Amtrak's losses a priority during your tenure?
    Answer. I am committed to delivering cost-effective transportation 
facilities for the American people and maximizing the benefits of 
public investment in Amtrak. I also support the President's Rebuild 
America Partnership proposal, which recognizes the important role 
private sector investment can play in transportation infrastructure. 
But while these partnerships have the potential to assist agencies in 
meeting significant funding challenges, they are not a panacea and we 
must also maintain a robust Federal program which encourages and 
incorporates appropriate private investment.
    I understand that FRA closely monitors Amtrak's financial position. 
And, as described in the Presidents FY 2014 budget request, FRA has 
proposed a significant new approach to providing Federal funding for 
Amtrak. Under this proposal, Amtrak will be required to annually submit 
to FRA a five-year business plan for each business line. FRA would 
approve these plans, provide copies to Congress, and then manage 
Amtrak's grant against the plans. By allocating resources based on 
multi-year planning and analysis, Amtrak can better prioritize and 
sequence investments to meet the needs of rail passengers across all 
services.

    Question 7. If confirmed, you will oversee the FAA, which in turn 
oversees commercial space launches and flights, which are obviously 
important to Florida's Space Coast. The FAA has the dual statutory 
responsibility to regulate and facilitate the commercial space 
industry. With the number of commercial space flights increasing and 
space tourism soon to be a reality, more regulations will be 
implemented to ensure the safety of passengers and the public, and that 
is important. But my priority is that the Department of Transportation 
and the FAA continue to abide by the duty to promote and encourage the 
industry. Do you believe that the United States should continue to lead 
the world in space travel and exploration?
    Answer. Absolutely. As the President has said, one of our central 
goals is to promote peaceful cooperation and collaboration in space, 
which not only will ward off conflict, but will help to expand our 
capacity to operate in orbit and beyond. As our reliance on satellites 
and other space-based technologies increases, so too does our 
responsibility to address challenges such as debris and other hazards. 
No longer is space just a destination to reach; it is a place where we 
must be able to work in ways that are responsible, sustainable, and 
safe. The American commercial space transportation industry is leading 
the world to safe, affordable access to low earth orbit. I will do 
everything I can as Secretary of Transportation to support that effort.

    Question 7a. If confirmed, will you work with NASA and the 
commercial industry, and ensure that DOT is fostering innovation and 
encouraging the development of cost-effective, commercial spaceflight 
capabilities?
    Answer. Yes. I fully support the President's National Space Policy 
and believe that a robust and competitive commercial space sector is 
vital to continued progress in space. The United States is committed to 
encouraging and facilitating the growth of a U.S. commercial space 
sector that supports U.S. needs, is globally competitive, and advances 
U.S. leadership in generating new markets and innovation-driven 
entrepreneurship.

    Question 7b. How do you envision DOT, under your leadership, 
playing this role?
    Answer. In order to encourage a robust American commercial space 
industry as the industry advances, I will work to ensure that DOT 
regulates only to the extent necessary to protect public health and 
safety, safety of property, and national security and foreign policy 
interest of the United States.

    Question 8. What is the appropriate Federal role in transportation 
policy?
    Answer. I believe the Federal Government has four key 
responsibilities in transportation policy. First, the Federal 
Government should take the lead in setting safety standards for the 
national transportation system. These standards should be set at the 
national level because it would be impossible for our transportation 
carriers to function efficiently if they encountered a new set of 
safety standards every time they crossed a State boundary.
    Second, the Federal Government should take the lead in improving 
the efficiency and performance of our transportation system. The 
Federal Government should take the lead in funding research, data 
collection, performance measurement, and economic analysis that are 
essential to an efficient and productive national transportation 
system. The Federal Government should also take the lead in exploring 
new financing models (such as public-private partnerships) and 
contracting models that can speed the delivery and reduce the cost of 
transportation investments.
    Third, the Federal Government should fund the infrastructure 
investment that is needed to improve the Nation's global 
competitiveness. This includes investing in rail to expand the speed 
and capacity of the transportation links that connect our cities, 
improved transit to get people to work faster in the cities that power 
so much of our economy, improved freight transportation that can carry 
our exports to our global trade partners, and new facilities and 
equipment like NextGen that can make our aviation and other 
transportation networks more efficient.
    Fourth, the Federal Government has a role in setting the stage for 
national infrastructure priorities through collaborative planning. 
NextGen is a national priority, as is the development of a multi-modal 
national freight policy. This planning helps DOT, Congress, and 
transportation industries work together to ensure our national 
competitiveness.
    We should advance these key priorities while paying attention to 
other important goals as well--making our transportation system 
environmentally sound, enhancing the livability of our communities, 
improving the resilience of our transportation infrastructure, and 
meeting the transportation requirements of national security.

    Question 9. If a citizen is engaged with a dispute with an agency 
within DOT, do you believe that the agency should act in good faith 
when resolving the dispute? If you are confirmed, will you commit to 
ensure that agencies, particularly the FAA, act in good faith when 
handling disputes and individual cases?
    Answer. Yes, DOT agencies should always act in good faith when 
resolving a dispute with any citizen. If I am confirmed, I will commit 
to ensure that FAA and all modes of the DOT act in good faith when 
handling disputes and individual cases.

                                  <all>

</pre></body></html>
